App. 1
In the
United States Court of Appeals
For the Seventh Circuit
-----------------------------------------------------------------------

No. 19-1569
MONETTE E. SACCAMENO,
Plaintiff-Appellee,
v.
U.S. BANK NATIONAL ASSOCIATION, as
trustee for C-BASS MORTGAGE LOAN
ASSET-BACKED CERTIFICATES, Series
2007 RP1, and OCWEN LOAN SERVICING, LLC,
Defendants-Appellants.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:15-cv-01164 – Joan B. Gottschall, Judge.
-----------------------------------------------------------------------

ARGUED SEPTEMBER 16, 2019 – DECIDED NOVEMBER 27, 2019
-----------------------------------------------------------------------

Before BAUER, BRENNAN, and ST. EVE, Circuit
Judges.
ST. EVE, Circuit Judge. Chapter 13 bankruptcy is
a promise to a debtor: if you comply with the bankruptcy plan, then you can get a fresh start. That promise went unfulfilled for Monette Saccameno. She had
done everything that was required of her: she cured the

App. 2
delinquencies in her mortgage and made 42 monthly
mortgage payments under the court’s watchful eye.
Near the end of her bankruptcy, she obtained statements from her mortgage servicer, Ocwen Loan Servicing, LLC, that she was paid up—that she was paid
ahead even. The court granted her a discharge.
Ocwen, however, immediately began trying to collect money that it was not owed and threatening foreclosure. No problem, Saccameno thought, it must be a
simple mistake. She sent Ocwen all the paperwork it
could have needed to fix its records. When that did not
work, she sent it again. Then she sent it a third and
fourth time, with a request from an acquaintance, a
lawyer, for an explanation why Ocwen thought she
owed money. Ocwen did not explain. Ocwen did not
care. Ocwen did not truly grasp how wrong its records
were until almost four years later, two days into Saccameno’s jury trial when its witness was testifying.
It is little wonder, then, that the jury awarded Saccameno substantial damages for the pain, frustration,
and emotional torment Ocwen put her through. The
jury ordered Ocwen to pay $500,000 in compensatory
damages based on three causes of action that could not
support punitive damages. A fourth claim, under the
Illinois Consumer Fraud and Deceptive Business Practices Act (ICFA), 815 ILCS 505/1, did allow punitive
damages, and for that claim the jury awarded them to
the tune of $3,000,000, plus compensatory damages of
an additional $82,000. Ocwen challenged this verdict
on a variety of grounds, but the district court upheld
the verdict in its entirety. On appeal, Ocwen has

App. 3
limited its arguments to the punitive damages award,
which it contends was not authorized by Illinois law
and is so large that it deprives the company of property
without due process of law. We agree with the district
court that the jury was well within its rights to punish
Ocwen. We must, however, conclude that the amount of
the award is excessive. We therefore remand to the district court to amend the judgment.
I.

Background

Around 2009, Saccameno fell behind on her
$135,000 home mortgage and her bank, U.S. Bank National Association (nominally a defendant but irrelevant for our purposes), began foreclosure proceedings.
To keep her home, she sought the protection of the
bankruptcy court and, in December 2009, began a
Chapter 13 plan under which she was required to cure
her default over 42 months while maintaining her
ongoing monthly mortgage payments. See 11 U.S.C.
§ 1322(b)(5).
Saccameno first began having problems with
Ocwen in October 2011, shortly after it acquired her
previous servicer. Ocwen sent her a loan statement
saying, inexplicably, that she owed $16,000 immediately. With her attorney’s advice, Saccameno ignored
the statement and continued making payments based
on her plan. Her statements continued to fluctuate: her
February 2013 statement said she owed about $7500,
her March statement, $9000. A month later, Ocwen
now owed Saccameno about $1000 in credit, and

App. 4
Ocwen told her she did not need to pay again until September. Still, Saccameno continued making payments
through June, the last month of her plan. At that time
the bankruptcy court issued a notice of final cure, Fed.
R. Bankr. P. 3002.1, informing Ocwen that Saccameno
had completed her payments. Ocwen never responded
to the notice, and the court entered a discharge order
on June 29, 2013. Saccameno’s last statement predischarge showed that the credit in her favor had
grown to $2800 and she was paying down her loan.
Within days, however, an Ocwen employee, whom
Ocwen refers to only as “Marla,” reviewed the discharge but mistakenly treated it as a dismissal. As far
as Ocwen was concerned, then, the bankruptcy stay
had been lifted and it could immediately start collecting Saccameno’s debts. This might not have been a
problem—for Saccameno of course did not have a debt
anymore—but Marla’s mistake was only the tip of the
iceberg. Apparently, in March, Ocwen had manually
set the due date for Saccameno’s plan payments to September 2013, hence the credit. That manual setting
took place in a bankruptcy module that overrode and
hid Ocwen’s active foreclosure module, which instead
reflected that Saccameno had not made a single valid
payment in 2013, as each check was being placed into
a suspense account and not being applied to the loan.
Marla’s dismissal entry deactivated the bankruptcy
module and reactivated the foreclosure one. If Marla
had properly marked Saccameno’s bankruptcy as a
discharge, then someone in Ocwen’s bankruptcy department would have reconciled the plan payments

App. 5
with the suspense accounts before closing both modules.
Instead, on July 6 and 9, Ocwen sent Saccameno
two letters saying it had not heard from her since its
non-existent recent communication about her “severely delinquent mortgage.” The letters offered the
contact information of governmental and non-profit
services for people unable to make their home mortgage payments. They also warned Saccameno that failure to respond could result in fees from foreclosure,
sale of the property, and eviction, and that this process
could ruin her credit, making it hard for her even to
find a new rental property. Saccameno understandably
dubbed these the “you’ll never rent in this town again”
letters.
Before these letters arrived, Saccameno called
Ocwen to ask about lowering her interest rate. An
Ocwen employee said she was not eligible because she
was several thousand dollars in default. Knowing this
was a mistake, two weeks out from her discharge, Saccameno asked how to correct the records and was given
a number where she could fax her documents. She did
so a few days later, and with that paperwork Ocwen
corrected Marla’s mistake before July was over.
If only that were the end of this story. With the
corrected records, Ocwen’s bankruptcy department
performed a reconciliation and recognized that Saccameno had made several payments in 2013, so her default was nowhere near as large as the employee had
said. Nevertheless, it somehow determined that she

App. 6
had missed two payments during her bankruptcy, so
she was still in default—albeit to a lesser extent—and
the foreclosure module remained open. In August,
Ocwen sent Saccameno a letter declaring that it had
“waived” $1600 in fees (that had been discharged) and
that it was missing two of her plan payments (which,
even if true, would also have been discharged under
the terms of the plan). Around this time Ocwen assigned Saccameno a “relationship manager,” Anthony
Gomes, who scheduled a call with Saccameno. He was
not familiar with her file or the documents she had
sent, and asked Saccameno to resend them. She did,
and they never spoke again. Instead Saccameno would
frequently call Ocwen’s customer service line and each
time was directed to a new, similarly unhelpful person.
While this was all going on, Saccameno remained
optimistic and continued to make her monthly payments. Ocwen had accepted her payments for July and
August 2013 but began rejecting them in September
because each payment was not enough to cure her supposed default. After a few months of rejection, more letters like those sent in July, and further futile phone
calls, Saccameno recruited an acquaintance, an attorney named Susan Van Sky, to help. Van Sky wrote to
Ocwen, explained how Saccameno had made all her
payments during her bankruptcy, as confirmed by the
court, and asked for an explanation how, then, Saccameno could be in default. She followed up with a
phone call and an Ocwen representative insisted that
the company never rejects payments and requested
proof that it had done so. Van Sky followed directions

App. 7
and faxed 100 pages of Saccameno’s paperwork to the
number Ocwen had provided. Somehow this paperwork was routed to the wrong department and the receiving department refused to do anything with it. Van
Sky continued to call Ocwen, also reaching new people
each time. Some asked her to fax the same papers
again, so she sent them once more.
Eventually, Ocwen sent Van Sky something back,
though calling it a response would be generous. The
form letter referred to the dates of Saccameno’s bankruptcy but otherwise mentioned nothing about her
loan and did not answer any of Van Sky’s questions.
Ocwen had not even updated the form with Saccameno’s name. Instead it referred to another mortgagor. Attached was a spreadsheet that supposedly
explained how Saccameno was behind in her payments; Van Sky, though, could not decipher the spreadsheet, and Ocwen did not elucidate. Exhausted from
the lack of progress, and no longer having time to help,
Van Sky dropped out and Saccameno hired counsel.
Ocwen, meanwhile, continued to reject Saccameno’s payments. The erroneous default grew and
grew as the underlying foreclosure action remained
pending in the Circuit Court of Cook County. Though
the Circuit Court had stayed the case because of the
bankruptcy, Ocwen was internally preparing to revive
it and seek a judgment of foreclosure. Periodically, its
experts appraised the property, and agents checked
each month if Saccameno was still living in the home
(and if they concluded she was not, they would have
placed locks on the doors). Ocwen added the costs of

App. 8
these measures to Saccameno’s debt. It also produced
affidavits to support a request for judgment of foreclosure, including one prepared as early as July 2013, and
gave them to its local law firm. That firm filed an appearance in the foreclosure proceeding in 2014 and told
Ocwen, in January 2015, that it needed only one more
document before it could move for judgment.
Perhaps part of the reason Ocwen never did move
for judgment was this suit, filed the next month. As relevant to this appeal, Saccameno sought damages under four legal theories: breach of contract, for the
refused payments; the Fair Debt Collection Practices
Act (FDCPA), 15 U.S.C. § 1692, for the false collection
letters; the Real Estate Settlement Procedures Act
(RESPA), 12 U.S.C. § 2601, for the inadequate responses to Saccameno and Van Sky’s inquiries; and the
ICFA. The ICFA claim related to Ocwen’s false oral and
written statements regarding Saccameno’s default and
its unfair practices in violation of consent decrees that
Ocwen previously had entered with various regulatory
bodies. These decrees addressed, among other things,
its inadequate recordkeeping, misapplication of payments, and poor customer service. Among the steps
Ocwen had consented to take was to track Chapter 13
plan payments accurately and to reconcile its accounts
on discharge or dismissal.
Once Ocwen received the complaint, it overrode
the foreclosure module again with the bankruptcy
module. This had two effects. First, just a week after
she filed the complaint, Ocwen sent Saccameno an offer to refinance her mortgage, deigning to grant her the

App. 9
“opportunity” to stay in her home. This offer would
have lowered her interest rate and her monthly payment but increased her principal. Saccameno could afford her payments post-bankruptcy, though, and
wanted to make progress toward owning her home outright. Ocwen sent another offer in July 2015, though
Saccameno was even less pleased with this one. She
viewed it as a “life sentence” because, though it would
have lowered her interest rate, it would have increased
her principal, reset her mortgage to last another thirty
years, and ended with a balloon payment of nearly half
the principal. Second, Ocwen inexplicably started accepting Saccameno’s payments for March and April.
She stopped sending them, on her attorney’s advice.
Little else happened regarding the loan, except that
Ocwen voluntarily dismissed the state-court foreclosure case in March 2016.
The jury heard all of this at trial—as well as testimony regarding the mental and emotional strain Saccameno went through because of Ocwen’s continuous
errors. Ocwen had promised the jury, in its opening
statement, that it would explain why it received only
40 payments during the bankruptcy. It never had the
chance, though, as Saccameno’s counsel diligently
walked Ocwen’s representative through its own records payment by payment. Just before lunch on the
second day of trial, the representative counted to 42,
confirming that Saccameno had made each payment.
Ocwen never again argued otherwise. It instead focused on Marla’s mistake in July of 2013—the marking
of dismissal instead of discharge. The jury evidently

App. 10
did not buy the story that Saccameno’s years of woeful
treatment could be placed on the shoulders of a single,
essentially anonymous, line employee. Notably, Ocwen
did not produce Marla—did not even give her a last
name. Its corporate representative admitted that it
had not investigated Marla, had never checked to see
if she—or anyone else—had done something similar
before or since, and did not know even if Marla was
still employed with the company (though the representative suspected not, because her name was not in
the email directory).
The jury found in Saccameno’s favor on all counts.
By the parties’ agreement, the verdict form included a
single line for compensatory damages under the
breach of contract, FDCPA, and RESPA claims and the
jury wrote $500,000 on that line. Because only the
ICFA claim could include punitive damages, and it
requires that one prove economic damages before receiving other damages, see 815 ILCS 505/10a(a), Saccameno agreed to place that claim in its own section of
the verdict form with a line each for economic, noneconomic, and punitive damages. The parties further
agreed that the ICFA damages would not be treated as
a subset of the damages on the other three counts. For
this claim, the jury awarded $12,000 in economic,
$70,000 in non-economic, and $3,000,000 in punitive
damages, resulting in a total award of $3,582,000.
Ocwen responded with three post-verdict motions.
The first, a motion for new trial, objected to the admission of the consent decrees. The second, a request for
judgment as a matter of law, challenged the sufficiency

App. 11
of the evidence on every count other than the FDCPA
claim. As relevant here, it argued that the award of punitive damages was not supported by sufficient evidence. The third motion, to amend the judgment,
argued that the punitive damage amount was excessive, in violation of the Due Process Clause. Ocwen primarily sought to compare the $3,000,000 award to the
$12,000 in economic damages the jury found. Saccameno instead urged the district court to compare the
punitive award to the combined damages on all four
counts.
The district court thoroughly considered and deflected Ocwen’s barrage of arguments and upheld the
verdict. On the punitive damages, the district court
concluded that the jury reasonably found Ocwen’s employees had been deliberately indifferent to the risk
that Saccameno would be harmed, and Ocwen’s management had notice of—and ratified—its employees
conduct. On the constitutional question, the court decided that the proper comparator for the punitive damages award was the total amount awarded on all four
counts, as they involved related conduct. That resulted
in a punitive damages ratio of roughly 5:1, which the
court concluded was not unconstitutionally high given
the reprehensibility of Ocwen’s conduct.

App. 12
II.

Sufficiency of the Evidence

We address first Ocwen’s argument that there was
insufficient evidence for the jury to award punitive
damages at all. We review the sufficiency of the evidence de novo and ask whether the record, viewed in
the light most favorable to the prevailing party, can
support the jury’s verdict. Parks v. Wells Fargo Home
Mortg., Inc., 398 F.3d 937, 942 (7th Cir. 2005).
Under Illinois law, punitive damages may be
awarded only if “the defendant’s tortious conduct
evinces a high degree of moral culpability, that is, when
the tort is ‘committed with fraud, actual malice, deliberate violence or oppression, or when the defendant
acts willfully, or with such gross negligence as to indicate a wanton disregard of the rights of others.’ ” Slovinski v. Elliot, 927 N.E.2d 1221, 1225 (Ill. 2010) (quoting
Kelsay v. Motorola, Inc., 384 N.E.2d 353, 359 (Ill. 1978)).
When the defendant is a corporation, like Ocwen, the
plaintiff must demonstrate also that the corporation
itself was complicit in its employees’ tortious acts. See
Kemner v. Monsanto Co., 576 N.E.2d 1146, 1156 (Ill. App.
Ct. 1991); see also Douglass v. Hustler Magazine, Inc.,
769 F.2d 1128, 1145–46 (7th Cir. 1985). Ocwen contends that Saccameno’s case failed in both respects.
The parties first accuse each other of waiving their
arguments regarding corporate complicity, but both
assertions are meritless. Saccameno contends that
Ocwen cannot challenge the verdict because it did
not object to the jury instructions. The instructions
properly tracked Illinois law and Ocwen’s arguments,

App. 13
so it is permitted to argue that the jury misapplied
those instructions to the facts. See Jabat, Inc. v. Smith,
201 F.3d 852, 857 (7th Cir. 2000). Saccameno offers
nothing else on this issue, so Ocwen responds that she
has waived the chance to seek affirmance of the district
court’s decision. An appellee cannot waive an argument as easily as an appellant can, though. See Thayer
v. Chiczewski, 705 F.3d 237, 247 (7th Cir. 2012). Even
if an appellee forgoes a brief entirely, we may still affirm. See Blackwell v. Cole Taylor Bank, 152 F.3d 666,
673 (7th Cir. 1998). We are especially unwilling to
deem Saccameno’s argument waived, as it goes to the
validity of the jury’s verdict, to which we are inclined
to defer, e.g., Gracia v. SigmaTron Int’l, Inc., 842 F.3d
1010, 1018–19 (7th Cir. 2016).
On the merits, Ocwen argues that the evidence
could support only a finding of negligence, not a “conscious and deliberate disregard” for Saccameno’s rights.
Parks, 398 F.3d at 942. It continues to place most of
the blame on what it calls “an isolated ‘miscoding’
error committed by a lone employee, identified as
‘Marla.’ ”
Ocwen cannot pin this case on Marla. Her error
was one among a host of others, and each error was
compounded by Ocwen’s obstinate refusal to correct
them. If this case were truly Marla’s fault, then Saccameno’s troubles would have lasted a month—most of
July 2013. That was how long it took for Saccameno to
point Ocwen toward Marla’s mistake, and for Ocwen to
change the dismissal to a discharge. The real problems
only began at that point though, as Ocwen falsely

App. 14
claimed that Saccameno had missed two plan payments for the first time in August and started improperly rejecting Saccameno’s payments in September.
Ocwen apparently did not discover the former until the
second day of trial and likely would have continued the
latter until it filed for foreclosure, had this lawsuit not
gotten in the way.
Ocwen contends that the miscounting of payments
was also a human error—though it does not identify a
human. We are not sure how many human errors a
company like Ocwen gets before a jury can reasonably
infer a conscious disregard of a person’s rights, but we
are certain Ocwen passed it. The record is replete with
evidence that Ocwen’s servicing of Saccameno’s loan
was chaos from the moment Ocwen began working on
the loan in 2011 to the day of the jury’s verdict nearly
seven years later. Saccameno’s successful bankruptcy
should have made things easier by resetting everything to zero—“fully current as of the date of the trustee’s notice,” the plan said. With her bankruptcy papers
in hand, Saccameno repeatedly attempted to inform
Ocwen that it had made an obvious mistake. This was
not enough, though, and when Saccameno and Van Sky
sought to find out why, Ocwen did not explain. Instead
it sent her a letter written to someone else.
Ocwen likens itself to the bank in Cruthis v.
Firstar Bank, N.A., 822 N.E.2d 454 (Ill. App. Ct. 2004),
which illegally reversed payments into the plaintiffs’
account at the behest of the payor. Id. at 458–59.
Though this act was conversion, the court found punitive damages unjustified because the bank had

App. 15
credited the plaintiffs’ account after being confronted.
Id. at 465. On seeing their account had been emptied,
the plaintiffs had inquired with a bank manager; that
manager helped them to challenge the withdrawal and
did his own internal investigation. Id. at 459. Initially,
a vice president wrongly said the withdrawal had been
fine, but within two months the bank had corrected the
plaintiffs’ account and waived all charges. Id. at 460.
Ocwen, in contrast, never noticed most of its mistakes,
even well into this case. Its “waiver” of fees was not an
acceptance of responsibility but a result of the discharge. No helpful manager assisted Saccameno—
though Ocwen tries to cast Gomes in this role, he is a
pale imitation. He spoke with Saccameno once, knew
nothing of her case, offered no assistance, and only requested that she send paperwork that Ocwen already
had twice over.
Ocwen’s comparison to Parks v. Wells Fargo Home
Mortgage is even further afield. There, a mortgagee
failed to pay taxes on a couple’s home, allowing a tax
scavenger to fraudulently obtain title. 398 F.3d at 939–
40. In concluding that the defendant had not acted
with conscious disregard of the Parks’ rights, we emphasized that the company, on learning of its mistakes,
“set out to make matters right, and it succeeded in doing so in relatively short order.” Id. at 943. When the
plaintiffs had called in, the company “immediately put
two researchers on the job to find out what could be
going on”; those researchers discovered and explained
exactly how the taxes had gone unpaid, and the company succeeded in getting the fraudulent deed vacated.

App. 16
Id. at 940. Ocwen, however, still has offered no real explanation for any of the errors its employees made, and
never acted to correct its mistakes. This “unwilling[ness] to take steps to determine what occurred”
warranted punitive damages under the ICFA. Dubey v.
Pub. Storage, Inc., 918 N.E.2d 265, 280 (Ill. App. Ct.
2009).
The utter lack of explanation also supports a finding of corporate complicity. Illinois law insists on managerial involvement before punitive damages may be
awarded against a corporation. See Mattyasovszky v. W.
Towns Bus Co., 330 N.E.2d 509, 512 (Ill. 1975) (listing
four ways this complicity can be demonstrated). Saccameno, however, interacted only with line employees
and never escalated her dispute. The district court
thus rightly recognized that the only plausible basis on
this record for corporate complicity is that “the principal or a managerial agent of the principal ratified or
approved the act” of its employees. Id.; Kemner, 576
N.E.2d at 1156. Ratification is governed by agency
principles and is “the equivalent of authorization, but
it occurs after the fact, when a principal gains
knowledge of an unauthorized transaction but then retains the benefits or otherwise takes a position inconsistent with nonaffirmation.” Progress Printing Corp. v.
Jane Byrne Political Comm., 601 N.E.2d 1055, 1067
(Ill. App. Ct. 1992).
As the district court recognized, Illinois law permits a finding of ratification based on a corporation’s
litigation conduct, if that conduct is inconsistent with
nonaffirmation. In Robinson v. Wieboldt Stores, Inc.,

App. 17
433 N.E.2d 1005 (Ill. App. Ct. 1982), a part-time security guard had falsely imprisoned a woman on suspicion she had stolen a scarf, despite her receipt. Id. at
1007. The defendant’s chief of security testified that a
receipt alone was not a reason for a guard to conclude
a person was not a thief, and initially denied that any
guards were working on the day in question. Id. at
1009. On cross-examination, though, he revealed that
the plaintiff ’s description of the guard matched that of
a part-timer, who the corporation never produced. Id.
at 1008. Based on this conduct, the court permitted the
jury to consider an award of punitive damages against
the corporation, as it had “continued to defend the actions of its agent throughout the course of th[e] litigation and . . . shown no attempt to alter its procedures.”
Id. at 1009. Robinson, though, does not stand for the
proposition that defending a lawsuit alone ratifies employees’ actions. So the court held in Kennan v. Checker
Taxi Co., 620 N.E.2d 1208 (Ill. App. Ct. 1993), in which
the corporation “did not ignore plaintiff ’s complaint”
that he had been beaten by one of its drivers. Id. at
1210, 1214. Instead, the company sent an investigator
to speak with the plaintiff, its president directed that
the driver’s lease not be renewed, and by the time of
trial, the driver and company were “no longer associated.” Id. at 1214. These facts invalidated the punitive
damages award. Id.
Though a corporation need not go as far as the
Checker Taxi Company to avoid a finding that it ratified its employees conduct, it must do more than
Ocwen did here. We start with Marla. Even if she were

App. 18
to blame, Ocwen’s position regarding her could reasonably be seen as inconsistent with nonaffirmation.
Much like the security director in Robinson, Ocwen’s
corporate representative knew nothing about Marla
(besides her first name). The representative testified
that she did not speak with Marla, did not know where
Marla’s office was, did not know how long Marla had
been an Ocwen employee, and did not know if she
remained one to this day. The jury heard evidence
that no one at Ocwen took any steps, whatsoever, to
investigate how Marla’s mistake—which according to
Ocwen was all but the sole cause of Saccameno’s
woes—was made or how Ocwen would prevent it from
happening again. Ocwen did not need to fire Marla to
defeat the inference that it had ratified her actions, but
it needed something from which the jury could have
seen an “attempt to alter its procedures.” Robinson,
433 N.E.2d at 1009.
Marla’s mistake, though, was not the only problem. The jury’s ratification finding was supported further by Ocwen’s complete lack of insight into its other,
unnamed employees’ errors. Ocwen corrected Marla’s
mistake shortly after it occurred, and though Ocwen
did not know why Marla had made it or take any steps
to prevent it from recurring, the company at least
acknowledged that it was a mistake (and apologized
on Marla’s behalf ). In contrast, Ocwen went into this
litigation—and the first day of trial—with the view
that Saccameno had missed two payments during
her bankruptcy. Once its misconception was corrected
through the testimony of its own representative,

App. 19
Ocwen had no explanation for how this whole ordeal
happened, let alone how it might be avoided in the future. The closest it got was to blame the miscount on
Saccameno’s first fax, in which she mistakenly said
that she had sent three payments in May. (She sent
them in March.) Ocwen’s representative suspected
that this comment caused researchers to limit the
scope of their review to the time before May when
counting the payments. Why they thought it notable
that Saccameno owed two payments, when she had two
months left on her plan at the time they stopped looking, eludes us. Still, the representative admitted that
this explanation justified only the letter in August, as
no one else at Ocwen would have had any reason to
limit themselves so.
The jury was not obligated to withhold punishment because Ocwen’s acts were not purely harmful.
Ocwen contends the erroneous credit toward Saccameno in the last few months of her bankruptcy
demonstrates its employees were incompetent, not malicious. Saccameno ignored this false credit, though,
and did not benefit from it; if she had believed Ocwen,
and waited until September to pay her mortgage, she
would have defaulted during her plan, risking the real
dismissal of her bankruptcy. Ocwen next points to its
offers of assistance as demonstrating good faith, but
we agree with the district court that the jury could
have found those aggravating, not mitigating. Ocwen
had pushed Saccameno towards financial assistance,
but as the district court explained, “Saccameno no
longer needed financial assistance; she simply needed

App. 20
Ocwen to correct its records.” The loan modification offers were even worse. Putting to one side their timing,
the terms, especially of the second offer, were far from
generous. Why would Saccameno, having then endured
four years with Ocwen, want to chain herself to the
company three decades more, only to owe it money at
the end?
The jury, having little evidence to the contrary,
concluded that Ocwen had accepted its employees’ indifference to Saccameno. Robinson, 433 N.E.2d at
1009; see also Dubey, 918 N.E.2d at 280. Ocwen insisted it had not seen errors like these before, but its
representative admitted it had never bothered to look.
The jury was not required to accept Ocwen’s bare assertion that this was a unique case—especially considering the consent decrees implying it was not—and
could have inferred that this is just how Ocwen does
business. For that, Illinois law permits punitive damages.
III.

Due Process

We next turn to the amount of punitive damages
awarded to Saccameno—$3,000,000. Ocwen contends
that this award exceeds constitutional limits and we
address its arguments on those terms. We remind litigants, though, that the Constitution is not the most
relevant limit to a federal court when assessing punitive damages, as it comes into play “only after the assessment has been tested against statutory and
common-law principles.” Perez v. Z Frank Oldsmobile,

App. 21
Inc., 223 F.3d 617, 625 (7th Cir. 2000); see also Beard v.
Wexford Health Sources, Inc., 900 F.3d 951, 955 (7th
Cir. 2018). The Constitution is the only federal restraint on a state court’s award of punitive damages,
so it takes center stage in Supreme Court review of
state judgments. Perez, 223 F.3d at 625. A federal court,
however, can (and should) reduce a punitive damages
award sometime before it reaches the outermost limits
of due process. Id.; Payne v. Jones, 711 F.3d 85, 97–100
(2d Cir. 2013).
Compensatory and punitive damages serve different purposes. Compensatory damages seek to make
the plaintiff whole and to redress the wrongs committed against her, but punitive damages are retributive
in nature and seek to deter wrongful acts in the
first place. State Farm Mut. Auto. Ins. Co. v. Campbell,
538 U.S. 408, 416 (2003). The risk of grossly excessive
or arbitrary punishment, well beyond that necessary
to deter, requires close scrutiny of the amounts of
these awards. Id. at 416–17. We therefore conduct
an “[e]xacting” de novo review of the jury’s award, in
which we consider three guide-posts: the degree of reprehensibility, the disparity between the harm suffered
and the damages awarded, and the difference between
the award and comparable civil penalties. Id. at 418;
BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 575–85
(1996); Green v. Howser, No. 18-2757, ___ F.3d ___, 2019
WL 5797158, at *6 (7th Cir. Nov. 7, 2019). Reviewing
these guide posts, we conclude that the $3,000,000
awarded here exceeds constitutional limits and must
be reduced to $582,000.

App. 22
A. Reprehensibility
The first and most important guidepost is the reprehensibility of the defendant’s conduct, which we
judge based on five factors including whether
the harm caused was physical as opposed to
economic; the tortious conduct evinced an indifference to or a reckless disregard of the
health or safety of others; the target of the
conduct had financial vulnerability; the conduct involved repeated actions or was an isolated incident; and the harm was the result of
intentional malice, trickery, or deceit, or mere
accident.
Campbell, 538 U.S. at 419; Green, 2019 WL 5797158 at
*6. The existence of any one factor may not always be
enough to sustain a punitive damages award, but “the
absence of all of them renders any award suspect.”
Campbell, 538 U.S. at 419. The district court considered these factors here, concluding that the first two
factors were inapplicable, but that the last three were
present. Though the parties challenge the district
court’s analysis of all five factors, we largely agree with
its reasoning, though not its result.
The district court rightly concluded that the first
two factors are irrelevant to this case. Saccameno argues otherwise by framing her depression, anxiety, and
panic disorders as physical injuries. “Mental deterioration, however, is a psychological rather than a physical
problem.” Sanders v. Melvin, 873 F.3d 957, 959 (7th Cir.
2017) (interpreting Prison Litigation Reform Act, 28
U.S.C. § 1915(g)). The first factor is intended to draw a

App. 23
line—however hard to police—between physical injuries and those that are essentially economic, even if
those economic injuries cause distress. With that understanding, we agree that Saccameno did not identify
any evidence that she suffered physical symptoms or
that Ocwen should have been aware of a risk to her
health. Cf. McGinnis v. Am. Home Mortg. Servicing,
Inc., 901 F.3d 1282, 1288–89 (11th Cir. 2018) (finding
factors met because plaintiff ’s depression caused projectile vomiting and she had told her mortgage servicer
she was suffering undue stress).
On the third factor, the district court concluded
that Saccameno was highly vulnerable financially because she was just coming out of bankruptcy. Ocwen
contends this was error, as it did not intentionally “exploit” her vulnerability. This argument is unconvincing
both legally and factually. We have not required intentional exploitation to find that this factor weighs in favor of punitive damages. See Green, 2019 WL 5797158
at *6 (finding factor relevant because plaintiff was unemployed); EEOC v. AutoZone, Inc., 707 F.3d 824, 839
(7th Cir. 2013) (same for plaintiff who testified he
needed his abusive job). Moreover, Ocwen’s conduct
would have been both different and less reprehensible
had Saccameno not recently come out of bankruptcy.
Ocwen sent the letters based on its belief that the
bankruptcy court had dismissed Saccameno’s case, reflecting her extreme vulnerability. Ocwen’s representative also explained that it would have acted differently
if the 2009 foreclosure were not pending, as Ocwen ordinarily starts with a formal demand letter before

App. 24
filing a complaint and only then sends the “you’ll never
rent in this town again” letters. Though the evidence
does not show that Ocwen mistreated Saccameno because she was in bankruptcy, and so does not favor a
massive award, the close connection between her bankruptcy and the conduct in this case supports some
award of punitive damages.1
The fourth factor is whether “the conduct involved
repeated actions or was an isolated incident.” Campbell, 538 U.S. at 419. Ocwen asks us to adopt the position of the Sixth Circuit that this factor refers
exclusively to recidivism, see Bridgeport Music, Inc. v.
Justin Combs Publ’g, 507 F.3d 470, 487 (6th Cir. 2007),
and thus that the factor does not apply here. We again
disagree legally and factually. We have consistently
found this factor met in cases involving repeated acts
against the same person. See Rainey v. Taylor, 941 F.3d
243, 254 (7th Cir. 2019) (“Taylor continued to grope and
expose Rainey’s most intimate body parts even after
she protested, so his misconduct was both repetitious
and malicious.”); Estate of Moreland v. Dieter, 395 F.3d
747, 757 (7th Cir. 2005) (“The defendants’ assault on
Moreland was sustained rather than momentary, and
involved a series of wrongful acts, not just a single
blow. . . .”). We agree with the Third Circuit that recidivism may often be more reprehensible than repeated
acts against the same party, but that goes to the degree
and not the relevance of the factor. CGB Occupational
1

Ocwen also argues Saccameno is not vulnerable because
she won such a large verdict. We reject the implication that a defendant’s conduct is less reprehensible if it causes more harm.

App. 25
Therapy, Inc. v. RHA Health Servs., Inc., 499 F.3d 184,
191 (3d Cir. 2007). In any event, the record contains
evidence that Ocwen was a recidivist. The consent decrees described how it had treated other customers as
it did Saccameno, and that it had continued its ways
despite repeated warnings from regulators. The number of opportunities Ocwen had to fix its mistakes is
the core fact that justifies punishment in this case.
Finally, the last factor is whether the harm was
“the result of intentional malice, trickery, or deceit, or
mere accident.” Campbell, 538 U.S. at 419. Ocwen continues to insist that its employees were only negligent.
Like the district court, we think Ocwen’s actions were
not “mere accident.” The evidence shows instead “reckless indifference,” which we have found to suffice for
this factor to be relevant. Autozone, 707 F.3d at 839.
Certainly, it would be worse if Ocwen had preyed on
Saccameno intentionally but Ocwen does not need to
be the worst to be subject to punitive damages.
Ocwen’s conduct was reprehensible, but not to an
extreme degree. It caused no physical injuries and did
not reflect any indifference to Saccameno’s health or
safety. Ocwen was, however, indifferent to her rights,
including those rights that originated from her bankruptcy. No evidence supports that Ocwen was acting
maliciously, though the number of squandered chances
it had to correct its mistakes comes close. These factors
then point toward a substantial punitive damages
award, but not one even approaching the $3,000,000
awarded here. Such an award was deemed proper in
McGinnis v. American Home Mortgage Servicing, Inc.,

App. 26
901 F.3d 1282, a factually similar case, but there the
jury found a specific intent to harm, and the Eleventh
Circuit considered evidence supporting all five factors.
Id. at 1288–91. Ocwen’s conduct was less reprehensible than that in McGinnis and thus warrants a smaller
punishment.
B. Ratio
Ocwen’s primary concern on appeal is with the
second guidepost, the disparity between the harm to
the plaintiff and the punitive damages awarded.
Campbell, 538 U.S. at 424. This guidepost is often represented as a ratio between the compensatory and punitive damages awards. The Supreme Court, however,
has been reluctant to provide strict rules regarding the
calculation of this ratio and instead has offered some
general points of guidance. Id. at 425. First, few
awards exceeding a single-digit ratio “to a significant
degree” will satisfy due process. Id. Second, the ratio is
flexible. Higher ratios may be appropriate when there
are only small damages, and conversely, “[w]hen compensatory damages are substantial, then a lesser ratio,
perhaps only equal to compensatory damages, can
reach the outermost limit.” Id. Third, the ratio should
not be confined to actual harm, but also can consider
potential harm. TXO Prod. Corp. v. All. Res. Corp., 509
U.S. 443, 460–61 (1993).
Ocwen argues the district court wrongly inflated
this ratio by looking to the entire compensatory award
instead of just the $82,000 awarded under the ICFA.

App. 27
We agree, not because the district court was obligated
to use a certain denominator but because the choice
between available denominators—and their resulting
ratios—reflecting the same underlying conduct and
harm should not unduly influence whether a given
award is constitutional.
The district court calculated its ratio by adding
the compensatory damages awarded on all counts, resulting in a roughly 5:1 ratio, which the court approved
because it was a single digit. In doing so, it recognized
that several courts of appeals have implied or held that
courts should calculate punitive damages ratios claimby-claim. See, e.g., Quigley v. Winter, 598 F.3d 938, 953–
55 (8th Cir. 2010) (considering compensatory damages
on one claim while ignoring a small additional award);
Dubey, 918 N.E.2d at 279–82 (considering punitive
damages on two claims separately); see also Zhang v.
Am. Gem Seafoods, Inc., 339 F.3d 1020, 1044 (9th Cir.
2003) (considering punitive damages on only one claim
and ignoring other award that included statutory double damages); Zimmerman v. Direct Fed. Credit Union,
262 F.3d 70, 82 n.9 (1st Cir. 2001) (finding it “appropriate” to consider ratio claim-by-claim but considering
both ratios). The Eighth Circuit explained its rationale
for this approach in JCB, Inc. v. Union Planters Bank,
NA, 539 F.3d 862 (8th Cir. 2008). In that case, the two
claims—trespass and conversion—“protect[ed] distinct
legal rights” and were based on separate acts, so the
two awards of punitive damages were considered separately as a matter of both state law and due process.
Id. at 874–75. The district court here followed the

App. 28
corollary of this logic and aggregated the damages because Saccameno’s four claims involved related conduct. See Bains LLC v. Arco Prod. Co., 405 F.3d 764,
776 (9th Cir. 2005) (aggregating a compensatory award
with nominal damages on separate claims because
conduct was “intertwined”). In doing so, the court relied on Fastenal Co. v. Crawford, 609 F. Supp. 2d 650
(E.D. Ky. 2009), which reasoned that the related conduct addressed in other counts was like potential
harm, which the Supreme Court has deemed a valid
consideration. Id. at 660–61.
The Fastenal court started with the premise that
“the award would be unconstitutionally excessive if the
ratio is calculated on a claim-by-claim basis, but it
would be appropriate under an aggregate basis.” Id. at
660. No matter which denominator we use here,
though, the actual award of $3,000,000 remains the
same. More importantly, so does Ocwen’s conduct and
the harm it caused, and it is that conduct and harm
we must assess against the amount awarded. Said
another way, given the same conduct, an increased
compensatory damages award leads to a decreased
permissible ratio, and vice-versa. Campbell, 538 U.S.
at 425; Mathias v. Accor Econ. Lodging, Inc., 347 F.3d
672, 677 (7th Cir. 2003); Cooper v. Casey, 97 F.3d 914,
919–20 (7th Cir. 1996). As the Second Circuit explained
in Payne v. Jones, 711 F.3d 85, the ratio without regard
to the amount “tells us little of value.” Id. at 103. If
the jury had awarded more compensation, then a small
ratio of punitive damages might seem high; but if
the jury had awarded less, a larger ratio becomes

App. 29
permissible. Id. Tellingly, most cases considering
whether to aggregate damages reach the same result
either way. See Pollard v. E.I. DuPont De Nemours, Inc.,
412 F.3d 657, 668 (6th Cir. 2005) (affirming); Bains, 405
F.3d at 776 (reversing); Zimmerman, 262 F.3d at 82
& n.9 (affirming). More tellingly, the sole exception
among federal appellate decisions is JCB, which based
its analysis on principles of state law distinguishing
the different harms—the different conduct—that each
claim represented. 539 F.3d at 874–76.
The disparity guidepost is not a mechanical rule.
The court must calculate the ratio to frame its analysis, but the ratio itself does not decide whether the
award is permissible. See Williams v. ConAgra Poultry
Co., 378 F.3d 790, 799 (8th Cir. 2004) (“It is not that
such a ratio violates the Constitution. Rather, the
mathematics alerts the courts to the need for special
justification.”). The answer might be yes, despite a high
ratio, if the probability of detection is low, the harms
are primarily dignitary, or if there is a risk that limiting recovery to barely more than compensatory damages would allow a defendant to act with impunity.
Mathias, 347 F.3d at 676–77. It might be no, even with
a low ratio, if the acts are not that reprehensible and
the damage is easily or already accounted for. Rather
than simply move numbers around on a verdict form
to reach a single-digit ratio, courts should assess the
purpose of punitive damages and the conduct at issue
in order to evaluate the award. On the facts of this
case, Ocwen’s conduct, which overlaps all four claims,
would be no more or less reprehensible or harmful if

App. 30
the jury had shifted $50,000 from the compensatory
award on the other claims to the ICFA claim or if the
verdict form had provided only one line for compensatory damages on all four claims.2
The district court recognized this problem. It
noted that the 37:1 ratio without aggregation was high
but thought it might still be constitutional. It did not
go so far as to hold, in the alternative, that this ratio
was constitutional, however, and it was right to hesitate. It listed several cases upholding even higher ratios on compensatory awards ranging from about $300
to $8500. Most notable is our decision in Mathias v. Accor Economy Lodging, where we upheld a 37:1 ratio on
$5000 in compensatory damages. 347 F.3d 672. The
compensatory damages in this case and Mathias,
though, are quite different. Moreover, the acts in Mathias were incredibly reprehensible. The defendant
motel company knew its rooms were infested to “farcical proportions” with bedbugs but refused to pay a
small fee to have them exterminated; it instead told
employees to call them ticks and avoid renting infested
rooms (unless the motel was full). Id. at 674–75. On
those facts, a modest punishment of $186,000 was
constitutional, and the high ratio did not undermine
that conclusion. Id. at 678. In contrast, the $3,000,000
here is not a modest award, and the $82,000 in
2

We express no opinion on whether the verdict form could
have or should have been drafted differently absent the parties’
agreement. The best verdict form for a given case is a question
left to the broad discretion of the district court and is informed by
the unique facts, legal issues, and other circumstances presented.

App. 31
compensatory damages for the ICFA claim are substantial enough that a huge multiplier was not needed
to reflect harm that was “slight and at the same time
difficult to quantify.” Id. at 677. A single-digit punitive
damages ratio relative to the $82,000 reflects an appropriate punishment on these facts.
The district court should have hesitated just as
much before upholding a 5:1 ratio relative to the
$582,000 compensatory award on all four claims.
Campbell instructs that a “substantial” award merits
a ratio closer to 1:1. 538 U.S. at 425. Ocwen correctly
notes that courts have found awards of roughly this
magnitude “substantial” under Campbell and imposed
a 1:1 ratio. See, e.g., Jones v. United Parcel Serv., Inc.,
674 F.3d 1187, 1208 (10th Cir. 2012) ($630,000); Bach
v. First Union Nat. Bank, 486 F.3d 150, 156 (6th Cir.
2007) ($400,000); Williams, 378 F.3d at 799 ($600,000).
But see Lompe v. Sunridge Ptrs., LLC, 818 F.3d 1041,
1069 (10th Cir. 2016) (noting that other cases draw the
line at roughly $1,000,000). What counts as substantial depends on the facts of the case, and an award of
this size (or larger) might not mandate a 1:1 ratio on
another set of facts. See Rainey, 941 F.3d at 255 (upholding 6:1 ratio relative to $1.13 million compensatory award because defendant’s conduct was “truly
egregious”). Here, though, $582,000 is a considerable
compensatory award for the indifferent, not malicious,
mistreatment of a single $135,000 mortgage. Moreover,
nearly all this award reflects emotional distress damages that “already contain [a] punitive element.”

App. 32
Campbell, 538 U.S. at 426. A ratio relative to this denominator, then, should not exceed 1:1.
C. Civil Penalties
The final guidepost is the disparity between the
award and “civil penalties authorized or imposed in
comparable cases.” Campbell, 538 U.S. at 428 (quoting
Gore, 517 U.S. at 575). The district court identified two
civil penalties to compare to the punitive damages
award. The first was the $50,000 monetary penalty authorized by the ICFA, which can be calculated per offense if there is intent to defraud. 815 ILCS 505/7(b).
Ocwen concedes that this penalty is appropriately considered but argues it cannot support a $3,000,000
award. We agree that Ocwen’s actions are not so reprehensible that they might justify an award equal to the
maximum penalty for 60 intentional violations. Notably, we see no evidence that Ocwen’s actions in this
case were either intentional or fraudulent, only indifferent. This aspect of the guidepost thus points to a
lower award.
The second civil penalty the district court considered was the possibility that Ocwen could have its license to service mortgages suspended or revoked
under the Illinois Residential Mortgage License Act
(RMLA), 205 ILCS 635/4-5. The court noted that this
was far from hypothetical—as Ocwen had its license
placed on probation for, among other things, RESPA violations. Ocwen insists the court could not consider the
possibility its license would be revoked both because it

App. 33
was based on the RESPA claim, and not the ICFA, and
because comparing a punitive damages award to a major corporation losing its license would allow just about
any amount of damages.
We do not think the district court erred in considering the possibility that Ocwen could lose its license.
First of all, the ICFA too, allows, the attorney general
to seek “revocation, forfeiture or suspension of any license . . . of any person to do business,” 815 ILCS
505/7(a), and though that may give way here to the
more specific provisions in the RMLA, that law allows
revocation of licenses for violation of “any . . . law, rule
or regulation of [Illinois] or the United States,” 205
ILCS 635/4-5(a)(1), presumably including the ICFA as
well as the RESPA. This does not mean, of course, that
any punitive award that is less than the value of
Ocwen’s business license is per se constitutional—far
from it. Illinois is not likely to take away Ocwen’s business license for deceptively saying one customer owes
a few thousand dollars on a $135,000 mortgage, no
matter how unjustified the error. Like a criminal penalty, then, this sort of extreme equitable remedy has
“less utility” when it is used to determine the amount
of an award. Campbell, 538 U.S. at 428. Still, also like
a criminal penalty, this weapon in Illinois’s arsenal
has “bearing on the seriousness with which a State
views the wrongful action.” Id. This seriousness would
be exaggerated by comparing the award here with the
loss of Ocwen’s license but would be unduly minimized
by limiting an award to only the $50,000 civil penalty.

App. 34
D. Remedy
Considering all the factors together, we are convinced that the maximum permissible punitive damages award is $582,000. An award of this size punishes
Ocwen’s atrocious recordkeeping and service of Saccameno’s loan without equating its indifference to intentional malice. It reflects a 1:1 ratio relative to the
large total compensatory award and a roughly 7:1 ratio
relative to the $82,000 awarded on the ICFA claim
alone, both of which are consistent with the Supreme
Court’s guidance in Campbell. It is equivalent to the
maximum punishment for less than 12, not 60, intentional violations of the ICFA, though it is also a
miniscule amount compared to the value of Ocwen’s
business license.
The final issue the parties dispute is whether the
Seventh Amendment mandates an offer of a new trial
after determining the constitutional limit on the punitive damages award. We have previously said, without
deciding the issue, that this offer of a new trial is “a
matter of sound procedure, not constitutional law.”
Beard, 900 F.3d at 955. Ocwen insists that this holding
was limited by the fact that no party had asked us to
decide the constitutional question, and here it asks us
to do so. Though we continue to emphasize that parties
should focus first on procedural and statutory limits on
punitive damages awards, id. at 955–56, we agree with
every circuit to address this question that the constitutional limit of a punitive damage award is a question of law not within the province of the jury, and
thus a court is empowered to decide the maximum

App. 35
permissible amount without offering a new trial. See
Lompe, 818 F.3d at 1062; Cortez v. Trans Union, LLC,
617 F.3d 688, 716 (3d Cir. 2010); Bisbal-Ramos v. City
of Mayaguez, 467 F.3d 16, 27 (1st Cir. 2006); Ross v.
Kansas City Power & Light Co., 293 F.3d 1041, 1049–
50 (8th Cir. 2002); Leatherman Tool Grp. v. Cooper Indus., 285 F.3d 1146, 1151 (9th Cir. 2002); Johansen v.
Combustion Eng’g, Inc., 170 F.3d 1320, 1330–31 (11th
Cir. 1999); see also Cooper Indus. v. Leatherman Tool
Grp., 532 U.S. 424, 437 (2001) (“[T]he level of punitive
damages is not really a ‘fact’ ‘tried’ by the jury.”).
IV.

Conclusion

We therefore remand for the district court to
amend its judgment and reduce the punitive damages
award to $582,000. Each party is to bear its own costs
on appeal.

App. 36
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
MONETTE E. SACCAMENO, )
)
Plaintiff,
)
v.
) Case No. 15 CV 1164
OCWEN LOAN SERVICING, )
) Honorable
LLC, and U.S. BANK
NATIONAL ASSOCIATION, ) Joan B. Gottschall
)
as Trustee for C-BASS
MORTGAGE LOAN ASSET- )
)
BACKED CERTIFICATES,
)
Series 2007 RP1,
)
Defendants.
)
MEMORANDUM OPINION AND ORDER
(Filed Mar. 1, 2019)
In February 2015, Monette Saccameno (“Saccameno”) sued Ocwen Loan Servicing, LLC (“Ocwen”)
and U.S. Bank National Association, as trustee for CBass Mortgage Loan Asset-Backed Certificates, Series
2007 RP1 (“U.S. Bank”), alleging that they had engaged in wrongful loan servicing and debt collection
practices.1 In April 2018, the case went to trial and
1

Although both U.S. Bank and Ocwen are named as defendants, Saccameno’s claims are based solely on Ocwen’s conduct.
Her claims against U.S. Bank are based entirely on a theory of
vicarious liability. See 2d Am. Compl. ¶ 7. For this reason, the
court’s discussion refers to Ocwen in particular rather than to
both defendants generically.

App. 37
Saccameno prevailed on all of her claims. The jury
awarded her a total of $582,000 in compensatory damages and $3 million in punitive damages. Ocwen has
filed three post-trial motions: (1) a renewed motion for
judgment as a matter of law pursuant to Federal Rule
of Civil Procedure 50; (2) a motion for a new trial pursuant to Federal Rule of Civil Procedure 59(a); and (3)
a motion to amend the judgment pursuant to Federal
Rule of Civil Procedure 59(e). For the reasons discussed below, the motions are denied.
I.

Background

In January 2002, Saccameno obtained a home
mortgage loan in the amount of $135,000 for a house
located in Franklin Park, Illinois. See Ex. P1. In November 2008, Saccameno began to fall behind on her
monthly payments, and in February 2009, U.S. Bank
declared her to be in default. U.S. Bank accelerated the
entire balance of the loan and filed a foreclosure action
against her in the Circuit Court of Cook County, Illinois. See Ex. P2.
In December 2009, Saccameno filed for bankruptcy pursuant to Chapter 13. The bankruptcy plan
called for Saccameno to repay the amount in arrears
($25,713.42) by making monthly payments to the
Chapter 13 Trustee. It also required Saccameno to
make forty-two monthly mortgage payments to Ocwen.

App. 38
See Exs. P5 & P6.2 It is undisputed that Saccameno
made all of the payments to the Chapter 13 Trustee.
See Tr. 295:14-16.3 The record also showed that Saccameno had made all forty-two monthly payments to
Ocwen. See Tr. 287:9-293:23.
In June 2013, the Trustee filed a Notice of Final
Cure Payment with the bankruptcy court. See Ex. P10.
It is undisputed that Ocwen received notice of the final
cure payment but did not file a response. See Tr.
471:25-472:5. On June 27, 2013, the bankruptcy court
entered an order of discharge in the bankruptcy proceedings. See Ex. P11. It is undisputed that Ocwen
received notice of the discharge as well. See, e.g., Tr.
68:5-7.
The problems giving rise to this litigation began
shortly after Saccameno’s bankruptcy discharge. On or
about July 2, 2013, an Ocwen employee identified as
“Marla” mistakenly coded Saccameno’s bankruptcy
discharge as a dismissal in Ocwen’s computer system.
See, e.g., Tr. 140:5-18. As a result, Saccameno’s loan
was returned to Ocwen’s foreclosure department. During roughly the same time, Ocwen’s bankruptcy
2

The original plan was filed on December 31, 2009. See Ex.
P4. A modified plan was filed on February 2, 2010. See Ex. P5.
Only the modified plan is relevant for purposes of this discussion.
3
A complete set of trial transcripts, consisting of seven volumes, was originally docketed on April 26, 2018. See ECF Nos.
278-90. Due to a pagination error, however, corrected versions of
volumes 5A through 7 were docketed on September 26, 2018. See
ECF Nos. 325-329. Although the parties in some cases cite to the
original, incorrectly-paginated volumes, all of the court’s citations
are to the corrected versions.

App. 39
department improperly advanced the post-petition due
date for Saccameno’s loan payments. See Tr. 116:7-15.
In addition, Ocwen’s records incorrectly indicated that
Saccameno had made only forty of the forty-two ongoing mortgage payments required under her Chapter 13
plan. See, e.g., Tr. 125:9-22; Tr. 181:11-21; Tr. 182:18-20;
Tr. 775:17-21.
A few days later, Ocwen began sending letters to
Saccameno stating that her account was delinquent.
The first letter, dated July 6, 2013, stated:
Recently we called your attention to your severely delinquent mortgage loan referenced
above. We either have not heard from you or
we have not reached a resolution. It is imperative that you contact us immediately to resolve this matter. Failure to do so can result in
the accumulation of fees and costs associated
with foreclosure, the sale of this property at
auction and even eviction.
Time is running out.
We may have resolutions available to help you
avoid losing your home and having to make
plans to vacate the property. Remember, poor
credit may affect your ability to secure another place to live even as a tenant of a rental
property.
There is still time to resolve this matter, and
we may have programs available to help you.
Ex. P14 at 1. Ocwen sent Saccameno an identical letter
dated July 9, 2013. Ex. D1 at 1.

App. 40
On July 15, 2013, Saccameno phoned Ocwen to
discuss the possibility of modifying or refinancing her
mortgage. Tr. 763:12-16. (At the time of the call, it appears that Saccameno had not yet seen the July 6, 2013
and July 9, 2013 letters. Id.). During the conversation,
an Ocwen representative told Saccameno that she was
behind on her payments. See Tr. 763:12-764:24. On
July 17, 2013, Saccameno sent a fax to Ocwen stating
that she had recently completed a Chapter 13 bankruptcy lasting forty-two months and that she had
never missed a payment. See Ex. P16 at 16. In fact, she
stated, she had sent three extra mortgage payments in
May 2013. Id. Saccameno’s fax included a copy of the
bankruptcy discharge order. Id. at 2; Tr. 166:2-20.
By July 25, 2013, Ocwen had corrected the miscoding of the bankruptcy discharge in its computer system. See, e.g., Tr. 550:5-9; Tr. 1078:10-12. By this time,
Ocwen’s records also included all forty-two payments
by Saccameno, See Tr. 293:17-20; Tr. 296:12-19, Ex. 21
at 000051 (showing Saccameno’s forty-second postpetition payment on June 18, 2013). Nevertheless,
Ocwen continued to treat her account as delinquent.
(Indeed, it appears that it was only during the trial
that Ocwen acknowledged that Saccameno had made
all forty-two payments).
Saccameno continued to make monthly mortgage
payments as per usual. However, in September 2013,
Ocwen began returning her checks because, according
to its records, the payments were insufficient to cure
her default. See Tr. 311:20-312:1. For the next seventeen months, Saccameno continued to make mortgage

App. 41
payments and Ocwen continued to reject them. Id.
During this time, Saccameno had numerous communications with Ocwen representatives in an attempt to
show that she had never missed any mortgage payments. See, e.g., Tr. 861:8-863:22. None of these efforts
was successful. Meanwhile, Ocwen continued to send
Saccameno letters informing that her mortgage loan
was “severely delinquent.” See, e.g., Ex. D7 (Letter from
Ocwen to Saccameno dated Jan. 1, 2014); Ex. D8 (Letter from Ocwen to Saccameno dated Jan. 7, 2014); Ex
D15 (Letter from Ocwen to Saccameno dated Apr. 30,
2014).
In March 2014, Saccameno enlisted the help of attorney Susan Van Sky (“Van Sky”), a friend of a friend,
to help resolve the problem. See, e.g., Tr. 781:24-782:22;
Tr. 821:10-13. Despite several phone calls and written
communications with Ocwen, Van Sky’s efforts proved
unavailing. See, e.g., Tr. 513:2-15; Ex. P33 (Letter from
Van Sky to Ocwen, Mar. 20, 2014); Ex. P34 (Letter from
Van Sky to Ocwen, April 28, 2014). In December 2014,
Saccameno stopped making monthly payments to
Ocwen, and in February 2015, she filed this suit, asserting claims for breach of contract (Count I); violation of the Fair Debt Collection Practices Act
(“FDCPA”), 15 U.S.C. § 1692 et seq. (Count II); violation
of the Illinois Consumer Fraud and Deceptive Business Practices Act (“ICFA”), 810 ILCS 505/1 et seq.
(Count III); and violation of the Real Estate Settlement

App. 42
Procedures Act (“RESPA”), 12 U.S.C. § 2601 et seq.
(Count IV).4
The case went to trial on April 3, 2018. During her
testimony, Saccameno stated that she suffered from
depression and anxiety as a result of Ocwen’s conduct
and that she lived in fear that her home would be repossessed. See, e.g., Tr. 818:3-17; 780:6-1. She further
testified that she was so upset by Ocwen’s continued
collection attempts that she was unable to concentrate
on her job and was fired. See Tr. 779:17-19. In addition
to several other witnesses, the jury heard from Saccameno’s doctor, William Sarantos, MD (“Sarantos”),
who testified that he had diagnosed Saccameno with
depression and panic disorder, see Tr. 205:23-206:9,
and that he had prescribed medications to treat the
conditions, see Tr. 210:2-6. Following the close of Saccameno’s case, Ocwen moved for judgment as a matter
of law. See ECF No. 265. The court reserved ruling on
the motion. See Tr. 958:17-959:1; ECF No. 270. Ocwen’s
sole witness was Gina Feezer (“Feezer”), a senior loan
analyst (whom Saccameno had also called as her first
witness).

4

Saccameno also asserted claims for breach of fiduciary duty
(Count V) and for violation of the bankruptcy court’s discharge
injunction (Count VI). The court granted Ocwen summary judgment on the breach of fiduciary duty claim. See Saccameno v.
Ocwen Loan Servicing, LLC, No. 15 C 1164, 2017 WL 5171199, at
*6 (N.D. Ill. Nov. 8, 2017). The parties agreed to hold a separate
bench trial on the discharge injunction claim, see ECF No. 193,
and ultimately settled the claim following the jury trial, see ECF
No. 306.

App. 43
On April 11, 2018, the jury returned a verdict for
Saccameno on all counts. It awarded her $500,000 in
compensatory damages on her breach of contract,
RESPA, and FDCPA claims. The jury awarded Saccameno an additional $82,000 in compensatory damages and $3 million in punitive damages on her ICFA
claim.
Following the trial, Ocwen renewed its motion for
judgment as a matter of law. In addition, Ocwen has
separately moved for a new trial based on purported
evidentiary errors by the court. Ocwen has filed a third
motion seeking to amend the judgment, arguing that
the jury’s punitive damage award is excessive. The
court addresses these motions in turn.
II.

Renewed Motion for Judgment
as a Matter of Law

The court turns first to Ocwen’s renewed motion
for judgment as a matter of law. Under Federal Rule of
Civil Procedure 50, “a court may enter judgment as a
matter of law when it ‘finds that a reasonable jury
would not have a legally sufficient evidentiary basis’ to
support its verdict.” Martinez v. City of Chicago, 900
F.3d 838, 844 (7th Cir. 2018) (quoting Fed. R. Civ. P.
50(a)(1)). Federal Rule 50(b) permits a party to renew
a motion for judgment as a matter of law after a case
has been submitted to a jury. Fed. R. Civ. P. 50(b). “The
standard that must be met before judgment as a matter of law may be granted is formidable.” Florez v.

App. 44
Delbovo, 939 F. Supp. 1341, 1342 (N.D. Ill. 1996). As the
Seventh Circuit has explained:
in entertaining a motion for judgment as a
matter of law, the court should review all of
the evidence in the record. In doing so, however, the court must draw all reasonable inferences in favor of the nonmoving party, and it
may not make credibility determinations or
weigh the evidence. . . . Thus, although the
court should review the record as a whole, it
must disregard all evidence favorable to the
moving party that the jury is not required to
believe. That is, the court should give credence
to the evidence favoring the nonmovant as
well as that evidence supporting the moving
party that is uncontradicted and unimpeached, at least to the extent that that evidence comes from disinterested witnesses.
Robinson v. Perales, 894 F.3d 818, 833 (7th Cir. 2018)
(quoting Reeves v. Sanderson Plumbing Prods., Inc.,
530 U.S. 133, 150-51 (2000)). Here, Ocwen seeks judgment as a matter of law with respect to all of Saccameno’s claims except her FDCPA claim.
A. Mootness
In her response to Ocwen’s motion, Saccameno argues that the challenges to her RESPA and breach of
contract claims are moot. Because mootness is a
threshold jurisdictional issue, the court must address
it before considering the merits of Ocwen’s motion. See,

App. 45
e.g., Worldwide St. Preachers’ Fellowship v. Peterson,
388 F.3d 555, 558 (7th Cir. 2004).
Saccameno’s argument rests on the fact that the
jury awarded a single sum of compensatory damages
for her FDCPA, RESPA, and breach of contract claims.
She correctly notes that, under Illinois law, “ ‘where
several causes of actions are charged and a general
verdict results, the verdict will be sustained if there
are one or more good causes of action or counts to support it.’ ” JMOL Resp. Br. 3, ECF No. 335 (quoting Hudson v. City of Chi., 881 N.E.2d 430, 451 (Ill. App. Ct.
2007)) (brackets omitted). Since Ocwen has not challenged her FDCPA claim, Saccameno contends, the
jury’s verdict on that count is sufficient to support the
award, irrespective of the merits of her breach of contract and RESPA claims.5
Saccameno’s reliance on Illinois’ general verdict
rule is misplaced.6 The general verdict rule comes into
5

In response, Ocwen argues that the court must address the
merits of the breach of contract and RESPA claims because it has
separately moved for a new trial. According to Ocwen, Saccameno
will not be entitled to retry these claims if they lacked sufficient
evidentiary support in the first trial. This argument is a nonstarter because, as is discussed more fully below, see Part III, infra, Ocwen’s motion for a new trial fails.
6
Neither of the parties addresses Saccameno’s assumption
that Illinois law applies for purposes of deciding this issue. Given
that the court’s jurisdiction in this case is based on Saccameno’s
assertion of federal claims (viz., the FDCPA and RESPA), see 2d
Am. Compl. ¶ 3, that assumption is likely incorrect. Indeed, even
in diversity cases, federal courts have applied the federal rule regarding general verdicts. See, e.g., Gillespie v. Sears, Roebuck &
Co., 386 F.3d 21, 31 (1st Cir. 2004) (“Some courts have treated the

App. 46
play where a verdict leaves uncertainty regarding the
theory or claim on which a jury’s finding of liability is
based. Here, in contrast, the verdict form makes clear
that the jury found Ocwen liable for each of the three
claims in question. See Verdict Form, ECF No. 275. At
issue is merely how much of the compensatory damage
award is attributable to the various claims. See, e.g.,
BP Amoco Chemical Co. v. Flint Hills Resources, LLC,
697 F. Supp. 2d 1001, 1016 (N.D. Ill. 2010) (general verdict rule did not apply because the “verdict form in
[the] case was not ‘general’ in the traditional sense as
appellate consequences of general verdicts encompassing multiple claims or theories as a procedural issue to be determined by
federal law even in a diversity case; others have assumed usually
without discussion that state law controlled. Our own tentative
view is the former.”) (citations omitted); Barber v. Whirlpool
Corp., 34 F.3d 1268, 1278 (4th Cir. 1994) (“Federal procedural law
governs the use of general or special verdicts.”). Nevertheless, the
fate of Saccameno’s mootness argument is the same under federal
law. Notably, the general verdict rule applied by most circuits is
the opposite of the Illinois rule. See, e.g., Levinsky’s, Inc. v. WalMart Stores, Inc., 127 F.3d 122, 134 (1st Cir. 1997) (“Where . . . a
reviewing court cannot identify which of the two claims—one
proper and one improper—the jury relied upon to reach the general verdict, the usual rule is that the verdict must be vacated.”)
(citations omitted); J. Timothy Eaton, Michael W. Rathsack, Michael T. Reagan, The Too-Expansive Illinois General Verdict Rule,
101 Ill. B.J. 142, 143 (2013). However, Seventh Circuit law is essentially the same as Illinois.’ See, e.g., Kossman v. Ne. Illinois
Reg’l Commuter R.R. Corp., 211 F.3d 1031, 1037 (7th Cir. 2000)
(“Because the defendant never requested any special form of verdict, the jury only returned a general verdict for Kossman. And
when a jury only returns a general verdict, we need only find support in the record for one of the theories presented to the jury in
order to affirm the jury award.”) (citing Wassell v. Adams, 865
F.2d 849, 855 (7th Cir. 1989); Culli v. Marathon Petroleum Co.,
862 F.2d 119, 123 (7th Cir. 1988)).

App. 47
to the question of liability or defenses,” but “simply did
not itemize the amount of damages awarded”).
Saccameno seems to suggest that the jury’s apportionment of damages among the three claims does not
matter because “her injuries arise from a single set of
indivisible facts.” JMOL Resp. Br. 3, ECF No. 335. Exactly what Saccameno means by this is unclear. She
offers no explanation of the assertion nor any argument in support of it.7 However, she appears to claim
that the damage award for the FDCPA, RESPA, and
breach of contract claims would have been the same
regardless of the jury’s verdict on her RESPA and
breach of contract claims. Otherwise, it is unclear how
the verdict on the FDCPA claim alone could support
the entire damage award for all three claims. To the
extent that this is Saccameno’s contention, it is implausible: it requires positing that the jury awarded
the entire $500,000 in compensatory damages based
exclusively on Saccameno’s FDCPA claim, and that the
jury awarded no damages for the RESPA and breach of
contract claims—despite finding Ocwen liable on those
claims.
Saccameno’s claim that her injuries arise from a
single set of “indivisible facts” is also implausible. As
will become clear in what follows, her FDCPA, RESPA,
and breach of contract claims are based on different
conduct by Ocwen: Saccameno’s breach of contract
7

Saccameno repeats this claim in her response to Ocwen’s
motion to amend, but the discussion there is equally cryptic. See
Rule 59(e) Resp. Br. 5-7, ECF No. 334.

App. 48
claim is based on Ocwen’s rejection of her mortgage
payments; her FDCPA claim is based on the collection
letters that Ocwen sent to her; and her RESPA claim
is based on Ocwen’s responses to her inquiries requesting correction of her account. These facts, while obviously related, are not “indivisible.” In addition, the
claims provide redress for different kinds of injury. For
example, the RESPA and FDCPA statutes allow compensation for emotional distress and other noneconomic harm, while breach of contract claims generally do not.8 See, e.g., Parks v. Wells Fargo Home Mortg.,
Inc., 398 F.3d 937, 940–41 (7th Cir. 2005) (“Illinois . . .
does not ordinarily allow punitive and emotional distress damages for breaches of contract.”).
In short, the fact that Ocwen does not challenge
the jury’s verdict with respect to Saccameno’s FDCPA
claim does not moot its challenges to her breach of contract and RESPA claims.

8

Illinois law permits emotional distress damages for
breaches of contract “where the breach was wanton or reckless
and caused bodily harm, or where defendant had reason to know,
when the contract was made, that its breach would cause mental
suffering for reasons other than mere pecuniary loss.” Parks v.
Wells Fargo Home Mortg., Inc., 398 F.3d 937, 940–41 (7th Cir.
2005) (quotation marks omitted). However, Saccameno does not
argue that she was entitled to emotional distress damages based
on her breach of contract claim. The jury instructions likewise
make clear that recovery for emotional distress was permitted in
connection with her FDCPA, RESPA, and ICFA claims, but not
for breach of contract. Compare Jury Inst. 39 (describing damages
for claims under the FDCPA, RESPA, and ICFA), with Jury Inst.
25 (describing damages for breach of contract).

App. 49
B. Breach of Contract (Count I)
Proceeding to the merits, the court first considers
Ocwen’s contention that it is entitled to judgment as a
matter of law with respect to Saccameno’s breach of
contract claim. “Under Illinois law, to sustain a breach
of contract claim a plaintiff must prove: ‘(1) the existence of a valid and enforceable contract; (2) substantial
performance by the plaintiff; (3) a breach by the defendant; and (4) resultant damages.’ ” Roberts v. Columbia Coll. Chicago, 821 F.3d 855, 863 (7th Cir. 2016)
(quoting W.W. Vincent & Co. v. First Colony Life Ins. Co.,
814 N.E.2d 960, 967 (Ill. App. Ct. 2004)). Ocwen argues
that Saccameno’s breach of contract claim fails for two
reasons: first, because she failed to identify any contractual provision that Ocwen purportedly breached;
and second, because she failed to present any evidence
that she suffered actual damages as a result of the
breach. Neither of these arguments is persuasive.
In response to the first argument, Saccameno asserts that Ocwen breached her mortgage contract by
improperly rejecting her mortgage payments from October 2013 to February 2015. Courts have recognized
that returning mortgage payments, or otherwise failing properly to apply them, may indeed constitute a
breach of a mortgage agreement. See, e.g., Catalan v.
GMAC Mortg. Corp., 629 F.3d 676, 690 (7th Cir. 2011)
(plaintiff stated claim against transferee mortgage servicer by alleging that it refused to accept mortgage
payments and apply them to plaintiff ’s debt); Gray v.
Brown, No. 3:17-CV-153 (CDL), 2018 WL 1914287, at
*5 (M.D. Ga. Apr. 23, 2018) (“The Court notes that

App. 50
normally, a claim that the mortgage servicer did not
properly apply a borrower’s payments would be a
breach of contract claim for failure to apply the loan
payments in accordance with the security deed.”); Holt
v. Ocwen Loan Servicing, LLC, No. 3:13-CV-120, 2013
WL 7211759, at *1 (S.D. Tex. Dec. 12, 2013) (“Holt’s allegation that Defendants breached the loan agreement
by failing to credit her timely mortgage payments is
sufficient to state a breach of contract claim.”). In any
event, Ocwen has not responded to Saccameno’s argument on this score and has therefore conceded the
point. See, e.g., Perry v. Coles Cty., Illinois, 906 F.3d 583,
590 n.5 (7th Cir. 2018) (“Plaintiffs did not respond to
this argument in their reply brief, so waiver applies.”);
Bonte v. U.S. Bank, N.A., 624 F.3d 461, 466 (7th Cir.
2010) (“Failure to respond to an argument . . . results
in waiver.”).
Ocwen’s second argument—that Saccameno presented no evidence of actual damages—i.e., economic
harm or pecuniary loss—is contradicted by the record.
Saccameno presented evidence of economic harm in
the form of her loss of employment and her medication
expenses. With respect to her loss of employment, Saccameno testified that she was so distracted by Ocwen’s
mishandling of her loan that she was unable to concentrate on her work. See, e.g., Tr. 777:24-779:19. In particular, she testified that she brought with her to work
each day all of the correspondence and other documents that she had received from Ocwen, and that she
spent much of her time at work reviewing these materials, checking to see whether she had in fact made all

App. 51
of her payments, talking to Ocwen on the phone, and
trying to figure out what had gone wrong. See Tr.
779:15-19. According to Saccameno, she frequently
sought help from her coworkers, asking them, for example, to double-check her calculation of the number
of payments she had made. See Tr. 777:24-778:7; 779:310. She testified that her job was not particularly challenging, but that she was unable to perform the work
because she just “wasn’t focused.” Id. She was terminated from the position after less than a year. Tr.
837:12-14. It was the only time Saccameno could recall
having been fired from a job. Tr. 814:27.
Saccameno’s testimony was corroborated by Jill
Anderson (“Anderson”), a former coworker, who testified that during the period in question, Saccameno
“kept trying to get [her mortgage] straightened out,
and it wasn’t straightening out. And the longer it went,
the more agitated she was about that and just things
at work just started to kind of unravel.” Tr. 890:8-11.
Anderson corroborated Saccameno’s testimony that
she spent a great deal of time during working hours
counting her payments and reviewing documents she
had received from Ocwen. See Tr. 668:22-669:5. Anderson further corroborated Saccameno’s testimony that
she frequently sought assistance from her coworkers,
going “from cubicle to cubicle, office to office, and just,
you know, everyone down the line, the same stuff over
and over again”—asking them to look at her checkbook
and check her calculations. Tr. 891:8-10. Eventually,
Anderson stated, things “got to . . . the point where we
both were talking about the possibility that she was

App. 52
going to get fired. She just really could not focus, and
she did get fired.” Tr. 891:25-892:2. Based on this testimony, a reasonable jury could have concluded that Saccameno was fired from her job due to Ocwen’s
mishandling of her loan, and that she incurred a monetary loss during the time she was unemployed—
which, she estimated, was likely less than a month. See
Tr. 789:4-6.
As for Saccameno’s medication expenses, her physician, Dr. Sarantos, testified that during a visit in September 2013, Saccameno reported that “she was very
depressed regarding her mortgage, that she was going
to lose her house.” Tr. 205:13-16; Tr. 211:18-22. Sarantos explained that he subsequently diagnosed Saccameno with anxiety and depression, see Tr. 205:9-12,
and that he prescribed medications to treat the conditions, see Tr. 205:9-206:9. Saccameno testified that she
paid out of pocket for the medications. See Tr. 820:9-25.
On this record, a jury could reasonably have concluded
that Saccameno suffered from depression and anxiety
as a result of Ocwen’s improper loan servicing practices, and that she suffered pecuniary loss in purchasing anti-depressant and anti-anxiety medications.
Ocwen advances a litany of arguments against the
foregoing evidence. For example, Ocwen claims that
Jill Anderson lacked competence to testify regarding
the reason for Saccameno’s firing, and that Saccameno’s depression predated her mortgage problems
and thus could not have been caused by Ocwen. The
court has considered and rejected these arguments
(along with many others) in prior orders and opinions.

App. 53
See, e.g., Saccameno v. Ocwen Loan Servicing, LLC, No.
15 C 1164, 2017 WL 5171199, at *5 (N.D. Ill. Nov. 8,
2017) (ruling on Ocwen’s motion for summary judgment); Saccameno v. Ocwen Loan Servicing, LLC, No.
15 C 1164, 2018 WL 1240347, at *4-*7 (N.D. Ill. Mar. 9,
2018) (ruling on Ocwen’s motion for reconsideration);
ECF No. 235 (order ruling on Defendants’ Motion in
Limine to Preclude Testimony Regarding Loss of Job);
ECF No. 236 (order ruling on Defendants’ Motion to
Exclude Evidence or Testimony From Fact Witnesses
on Medical Causation); ECF No. 240 (order ruling on
Defendants’ Motion in Limine to Preclude Evidence
Regarding Actual Damages). The court will not rehearse its analysis of these issues here.9
Because Saccameno presented sufficient evidence
of a contractual breach by Ocwen, and of resulting pecuniary harm, the court denies Ocwen’s motion for
judgment as a matter of law as to Saccameno’s breach
of contract claim.
C. Illinois Consumer Fraud Act (Count III)
Ocwen next argues that it is entitled to judgment
as a matter of law with respect to Saccameno’s claim
9

Ocwen also cites Saccameno’s purported lack of actual damages in seeking judgment as a matter of law on her ICFA and
RESPA claims. See JMOL Br. 7-8 (arguing that Saccameno presented no evidence of actual damages in support of her ICFA
claim); id. at 14-15 (arguing that Saccameno presented no evidence of actual damages in support of her RESPA claim). These
arguments, too, have been thoroughly addressed in the court’s
prior opinions and orders and thus will not be revisited here.

App. 54
under the Illinois Consumer Fraud Act. “The elements
of a claim under the ICFA are: ‘(1) a deceptive or unfair
act or practice by the defendant; (2) the defendant’s intent that the plaintiff rely on the deceptive or unfair
practice; and (3) the unfair or deceptive practice occurred during a course of conduct involving trade or
commerce.’ ” Wigod v. Wells Fargo Bank, N.A., 673 F.3d
547, 574 (7th Cir. 2012) (quoting Siegel v. Shell Oil Co.,
612 F.3d 932, 934 (7th Cir. 2010)). In addition, a plaintiff “must show ‘actual damage’ in order to maintain an
action under the ICFA.” Kim v. Carter’s Inc., 598 F.3d
362, 365 (7th Cir. 2010). “The actual damage element
of a private ICFA action requires that the plaintiff suffer ‘actual pecuniary loss.’ ” Id. (quoting Mulligan v.
QVC, Inc., 888 N.E.2d 1190, 1197 (Ill. App. Ct. 2008)).
Plaintiffs may assert claims under ICFA based on either deceptive conduct or unfair conduct (or both). See,
e.g., Camasta v. Omaha Steaks Int’l, Inc., No. 12-CV08285, 2013 WL 4495661, at *8 (N.D. Ill. Aug. 21, 2013)
(“Recovery may be obtained for unfair and deceptive
conduct, and thus Camasta may proceed under either
theory.”) (citing Robinson v. Toyota Motor Credit Corp.,
775 N.E.2d 951, 960 (Ill. 2002)). Here, Saccameno proceeds under both theories. The court separately considers Ocwen’s arguments with respect to each theory.
1. Deceptive Acts or Practices
The “Consumer Fraud Act defines deceptive acts
or practices as: ‘including but not limited to the use or
employment of any deception, fraud, false pretense,
false promise, misrepresentation or the concealment,

App. 55
suppression or omission of any material fact, with intent that others rely upon the concealment, suppression or omission of such material fact . . . in the conduct
of any trade or commerce.’ ” Phillips v. DePaul Univ.,
19 N.E.3d 1019, 1028 (Ill. App. Ct. 2014) (quoting 815
Ill. Comp. Stat. 505/2). It is undisputed that Ocwen
made numerous false statements to Saccameno regarding the delinquency of her mortgage loan. Nevertheless, Ocwen argues that, given other information it
provided to Saccameno, its communications cannot be
deemed “deceptive.” Specifically, Ocwen points to the
following language included in fine print at the bottom
of its letters to Saccameno:
This communication is from a debt collector
attempting to collect a debt; any information
obtained will be used for that purpose. However, if the debt is in active bankruptcy or has
been discharged through bankruptcy, this
communication is not intended as and does
not constitute an attempt to collect a debt.
Ex. D1 at 1; see also Ex. D2 at 1; Ex. D7 at 1. In light of
this “heads up” disclaimer, Ocwen insists, “every time
she got a letter, Saccameno had express written notice
that those letters were not an attempt to collect on her
since she knew she had a bankruptcy discharge.”
JMOL Br. 6, ECF No. 314.
As an initial matter, the court notes that Saccameno claims to have received deceptive communications from Ocwen both orally and in writing. In
addition to sending her multiple letters, Ocwen had
numerous phone calls with Saccameno during which

App. 56
its representatives falsely told her that she owed pastdue amounts on her mortgage. See, e.g., Tr. 764, Tr. 766,
Tr. 771, Tr. 778, Tr. 860. Since the disclaimer applies
only to Ocwen’s written communications, Ocwen’s argument fails insofar as Saccameno’s ICFA claim is
premised on deceptive statements made in Ocwen’s
oral communications.
Even as to the written communications, however,
Ocwen’s argument is unpersuasive. For whatever the
disclaimer might have said, Ocwen’s conduct unquestionably indicated that it was attempting to collect a
debt from Saccameno. For over a year, despite Saccameno’s repeated efforts to show Ocwen that her
bankruptcy had been discharged and that she had
made all of her payments, Ocwen continued to send letters stating that her account was delinquent, demanding payment from her, and reminding her of the
possibility of foreclosure. Although Ocwen’s records
were incorrect, it plainly believed that Saccameno had
missed some of her mortgage payments and regarded
itself as attempting properly to collect a debt from her.
Indeed, Saccameno testified that Ocwen’s persistence
and intransigence caused her at times to doubt
whether she had in fact made all of her payments. See
Tr. 778:1-7. In light of Ocwen’s conduct, the fine-print
“heads up” language in its letters does nothing to dispel the notion that it was attempting to collect a debt
from her. Cf. In re Marino, 577 B.R. 772, 784 (B.A.P. 9th
Cir. 2017) (“[A]lthough Ocwen knew that the Marinos
had filed for bankruptcy protection and received a discharge, thirteen of the fifteen letters with disclaimers

App. 57
spoke of bankruptcy as a hypothetical possibility (e.g.,
‘if you filed for bankruptcy and your case is still active,
or if you have received an order of discharge, please be
advised that this is not an attempt to collect a prepetition or discharged debt’). Ocwen makes no attempt to
explain why it was proper for Ocwen to obscure the fact
(known to Ocwen) that the Marinos had already received a discharge.”).
Ocwen also contends that Saccameno’s deceptiveness claim fails because there was no evidence of its
intent to deceive Saccameno. It is well settled, however,
that ICFA does not require a showing of the defendant’s intent to deceive; it requires a showing only of the
defendant’s intent that the plaintiff rely on the deceptive act or statement. See, e.g., Wigod, 673 F.3d at 575
(“[A] claim for ‘deceptive’ business practices under the
Consumer Fraud Act does not require proof of intent to
deceive. It is enough to allege that the defendant committed a deceptive or unfair act and intended that the
plaintiff rely on that act.”) (quoting Siegel v. Shell Oil
Co., 480 F. Supp. 2d 1034, 1044 n. 5 (N.D. Ill. 2007)).
There is ample evidence in the record indicating that
Ocwen intended for Saccameno to rely on its statements.10
10

In further support of her ICFA deceptive acts claim, Saccameno alleges that Ocwen engaged in deceptive conduct during
the course of the litigation. She asserts, for example, that Ocwen
tampered with evidence by making changes to Saccameno’s loan
payment history. See JMOL Resp. Br. 6-7, ECF No. 335. She also
claims that Ocwen offered deceptive testimony at trial, citing
Feezer’s initial testimony that Saccameno had made only forty of
her forty-two mortgage payments. Id. at 7. Ocwen vigorously

App. 58
For these reasons, the court concludes that Saccameno presented sufficient evidence to support a deceptive practices claim under ICFA.
2. Unfair Acts or Practices
Saccameno also presented sufficient evidence to
support an ICFA claim based on unfair practices. “To
show that something is an ‘unfair practice’ under the
CFA, the practice must offend public policy; be immoral, unethical, oppressive, or unscrupulous; or cause
substantial injury to consumers.” Rickher v. Home Depot, Inc., 535 F.3d 661, 665 (7th Cir. 2008) (quoting
Robinson, 775 N.E.2d at 961). “All three criteria do not
need to be satisfied to support a finding of unfairness.
A practice may be unfair because of the degree to
which it meets one of the criteria or because to a lesser
extent it meets all three.” Id. (citing Robinson, 775
N.E.2d at 961). The record in this case contains sufficient evidence of unfair practices under all three criteria.

denies these accusations. It is unnecessary to resolve the matter,
however, for even if Saccameno’s allegations were true, she offers
no explanation as to how they might form the basis for her ICFA
claim. Among other things, she makes no attempt to address the
fact that the conduct in question occurred after the filing of her
complaint (and her subsequent amended complaints), and that
she never moved to supplement the pleading, see Fed. R. Civ. P.
15(d), or to amend the pleading to conform to evidence presented
at trial, see Fed. R. Civ. P. 15(b). Accordingly, the court has not
considered these allegations in assessing the sufficiency of the evidence supporting Saccameno’s ICFA claim.

App. 59
First, the record supported a finding that Ocwen’s
conduct offended public policy. A practice offends public policy under ICFA where it “violates statutory or
administrative rules establishing a certain standard of
conduct.” Saika v. Ocwen Loan Servicing, LLC, No. 18
C 3888, 2018 WL 6433853, at *8 (N.D. Ill. Dec. 7, 2018).
This can encompass standards of conduct imposed by
consent decrees and settlement agreements. In Lowry
v. Wells Fargo Bank, N.A., No. 15 C 4433, 2016 WL
4593815 (N.D. Ill. Sept. 2, 2016), for example, the plaintiffs alleged that Wells Fargo had violated ICFA based
on its handling of their mortgage after they had defaulted. Among other things, they alleged that Wells
Fargo had engaged in unfair practices under ICFA by
failing to adhere to the terms of a consent decree and
national settlement that it had reached with the Office
of Comptroller the Currency and the Department of
Justice. Id. at *9. Although the plaintiffs were not parties to either of the agreements and were not seeking
to enforce them, the court agreed that if Wells Fargo’s
handling of the plaintiffs’ mortgage had violated the
terms of the agreements, its conduct offended public
policy and was thus “unfair” under ICFA. Id. at *9.
Here, Saccameno presented evidence of similar
consent orders that Ocwen had reached with state and
federal regulatory agencies.11 In December 2013, for
example, Ocwen entered into a consent judgment to resolve a lawsuit brought against it by the Consumer Financial Protection Bureau together with forty-nine
11

This evidence is the subject of Ocwen’s motion for a new
trial and will be discussed at length below. See Part III, infra.

App. 60
states and the District of Columbia. See Settlement
Agreement and Consent Order, In Re: Ocwen Financial
Corporation and Ocwen Loan Servicing, LLC, No. C13-1153-14-CO01 (Dec. 19, 2013). Pursuant to the
consent judgment, Ocwen agreed to adopt numerous
controls and standards in it servicing of loans. Specifically, Ocwen agreed to “maintain adequate documentation of borrower account information,” to “maintain
procedures to ensure accuracy and timely updating of
borrower’s account information,” and to “take appropriate action to promptly remediate any inaccuracies
in borrowers’ account information.” Ex. P42 at A-4 &
A-7. In connection with Chapter 13 cases, Ocwen
agreed to ensure that “the debtor is treated as being
current so long as the debtor is making payments in
accordance with the terms of the then-effective confirmed [bankruptcy] plan”; and to ensure “as of the
date of dismissal of a debtor’s bankruptcy case, entry
of an order granting Servicer relief from the stay, or
entry of an order granting the debtor a discharge, there
is a reconciliation of payments received with respect to
the debtor’s obligations during the case and appropriately update the Servicer’s systems of record.” Id. at A8. A jury could reasonably have concluded that Ocwen’s
servicing of Saccameno’s loan failed to comply with
these obligations and that it thereby offended public
policy for purposes of ICFA.12

12

Ocwen argues that the consent judgment is irrelevant to
Saccameno’s case because it did not become effective until December 2013—six months after the miscoding of Saccameno’s bankruptcy. As the court explains in addressing Ocwen’s motion for a

App. 61
Second, Saccameno presented evidence that
Ocwen’s conduct was “immoral, unethical, oppressive,
or unscrupulous.” For purposes of ICFA, “a practice
may be considered immoral, unethical, oppressive, or
unscrupulous if it imposes a lack of meaningful choice
or an unreasonable burden on the consumer.” Stonecrafters, Inc. v. Foxfire Printing & Packaging, Inc., 633
F. Supp. 2d 610, 616 (N.D. Ill. 2009) (brackets and quotation marks omitted). Here, a jury could reasonably
have concluded that Ocwen’s conduct left Saccameno
with a lack of meaningful choice. After all, Saccameno
had no choice in selecting Ocwen as her loan servicer
and she had no ability to get rid of Ocwen after it began
mishandling her account. In characterizing her experience in dealing with Ocwen, Saccameno stated: “I was
speaking to vapors. . . . [It was h]opeless. There’s no
control. I can’t write a check. I can’t fix it with money.”
See Tr. 780:18-781:1. Nor, in any case, can there can be
any doubt that Ocwen’s conduct placed an “unreasonable burden” on Saccameno: for eighteen months she
experienced depression and anxiety because of Ocwen’s
failure to fix errors that, to all appearances, could have
been fixed in a matter of hours, if not minutes.
Finally, there was sufficient evidence that Ocwen’s
conduct resulted in substantial injury to consumers. “A
practice causes substantial injury to consumers if it
new trial, see Part III, infra, even if Ocwen’s initial error(s) occurred prior to the consent judgment, its subsequent failure to
correct the errors extended well beyond December 2013. By continuing to mishandle Saccameno’s loan, Ocwen engaged in conduct proscribed by the consent judgment after the judgment
became effective.

App. 62
causes significant harm to the plaintiff and has the potential to cause injury to a large number of consumers.”
Stonecrafters, Inc. v. Foxfire Printing & Packaging, Inc.,
633 F. Supp. 2d 610, 617 (N.D. Ill. 2009) (quotation
marks omitted). The record in this case makes abundantly clear that Ocwen’s conduct caused Saccameno
significant harm, particularly in the form of emotional
distress. However, the record also contains evidence
that Ocwen’s conduct had the potential to injure a
large number of other consumers. Although Ocwen
maintains that the problems with Saccameno’s account boil down to a one-off mistake by a lone employee, a jury could have concluded that the difficulties
stemmed from systemic defects with Ocwen’s loan servicing practices. For example, on direct examination,
Gina Feezer testified that several of Ocwen’s business
units were involved in responding to Saccameno’s requests that her account be corrected. In particular, she
explained that the inquiries were received by the company’s Research Department, which then sent out
workflows to various other departments, see, e.g., Tr.
617:13-17; Tr. 174:25-175:2, Tr. 280:10-15, including
the Bankruptcy Department, see, e.g., Tr. 170, Tr. 174,
Tr. 178, Tr. 180; the Foreclosure Department, see, e.g.,
Tr. 189, Tr. 308; and the Cashiering Department, see,
e.g., Tr. 174, Tr. 309, Tr. 470. There is no evidence that
the procedures Ocwen used in handling Saccameno’s
inquiries and concerns deviated from its procedures for
handling customer complaints and inquiries generally.
The fact that Ocwen’s procedures were unable to correct the errors it had made in servicing Saccameno’s
loan could have led a jury reasonably to conclude that

App. 63
the procedures themselves were defective. This is especially so given that the errors were fairly simple and
straightforward, and the fact that the procedures
failed not just once but repeatedly. To the extent that
Ocwen’s loan servicing practices are themselves defective, they carry the potential to result in similar harm
to other consumers.
To be sure, Feezer testified that Saccameno’s
case was the only one in which she had seen a miscoding error of this sort. See Tr. 131:16-17. On crossexamination, however, Feezer admitted that she had
conducted virtually no investigation to determine
whether Marla, or any other employee, had miscoded
bankruptcy discharge orders in other cases. See Tr.
130:13-17; Tr. 136:16-137:13. The record therefore
sheds little light on how frequently similar problems
might have occurred in Ocwen’s servicing of other
loans. But it does not matter how often similar problems actually occurred in other cases. The question is
only whether Ocwen’s conduct carries the potential to
harm a large number of other consumers. On this record, a jury could reasonably have concluded that the
loan servicing practices employed by Ocwen in this
case hold the potential to harm other consumers. And
given the sheer size of Ocwen’s loan portfolio, it is likewise reasonable to conclude that the potential harm
extends to a large number of consumers.13 Cf. Stephens
13

According to Ocwen’s website, it “is one of the largest mortgage companies in America.” See http://www.ocwen.com/about.
The court may take judicial notice of undisputed material hosted
on a party’s public website. See, e.g., Newbold v. State Farm Mut.

App. 64
v. Capital One, N.A., No. 15-CV-9702, 2016 WL
4697986, at *6 (N.D. Ill. Sept. 7, 2016) (“Defendant’s
expansive consumer base similarly allows the Court to
reasonably infer that a large consumer base may be at
risk for similar conduct that has been alleged to qualify as ‘unfair’ under the ICFA.”) (citation omitted); Wilson v. Harris N.A., No. 06 C 5840, 2007 WL 2608521,
at *8 (N.D. Ill. Sept. 4, 2007) (“Given that Harris Bank
is alleged to have more than two hundred branches in
the Chicagoland area and northwest Indiana, the court
can reasonably infer that its large consumer base may
be at risk of being subjected to cursory and inadequate
investigations of claims of unauthorized transactions.”) (citation omitted).
Thus, there is sufficient evidence under each of the
criteria singled out above to support Saccameno’s
ICFA unfairness claim; and to the extent that the evidence is insufficient as to any of the criteria individually, the evidence is sufficient when viewed collectively.
Hence, whether based on deceptive conduct or unfair
conduct, Saccameno’s ICFA claim is adequately supported by the record. Accordingly, the court denies
Ocwen’s motion for judgment as a matter of law as to
Count III.

Auto. Ins. Co., No. 13 C 9131, 2015 WL 13658554, at *4 n.7 (N.D.
Ill. Jan. 23, 2015) (citing LaBella Winnetka, Inc. v. Village of Winnetka, 628 F.3d 937, 944 n.3 (7th Cir. 2010)).

App. 65
D. Punitive Damages
Ocwen next argues that it is entitled to judgment
as a matter of law with respect to Saccameno’s request
for punitive damages. “Under Illinois law, punitive
damages may be awarded for . . . violations of the ICFA
based on unfair conduct in cases where the defendant
acts maliciously or with deliberate indifference.” Wendorf v. Landers, 755 F. Supp. 2d 972, 981 (N.D. Ill.
2010); see also Linhart v. Bridgeview Creek Dev., Inc.,
909 N.E.2d 865, 875 (Ill. App. Ct. 2009) (“The Consumer Fraud Act explicitly allows for the recovery of
punitive damages where the conduct of the defendant
was willful or intentional and done with evil motive or
reckless indifference to the rights of others.”). Ocwen
argues that its conduct was not egregious enough to
meet this standard. Ocwen additionally contends that,
on this record, it cannot be held liable for punitive
damages based on the actions of its employees. The
court addresses these contentions in turn.
1. Ocwen’s Conduct Was Sufficiently Egregious
Ocwen first maintains that its conduct was not
sufficiently egregious to warrant punitive damages.
This is because, according to Ocwen, the record shows
that the miscoding of Saccameno’s bankruptcy discharge was an honest case of human error, not the result of malice or deliberate indifference.
For several reasons, this argument is unconvincing. As an initial matter, the record does not conclusively show that the miscoding was the result of

App. 66
human error. In fact, the precise reason for the miscoding is unclear. There is no dispute that the employee identified as Marla miscoded the discharge; but
to show who committed the error is not to show how or
why it occurred. When questioned on the matter,
Feezer expressed bafflement and conceded that the error would have been a difficult one for an employee in
Marla’s position to make. See, e.g., Tr. 139:6-10. More
importantly, even assuming that the initial miscoding
could be explained as an accident, the question remains as to why Ocwen failed to correct the problem in
the months that followed. Ocwen’s failure to correct
the issue is especially puzzling in light of the fact that
Ocwen continued to treat Saccameno’s loan as severely
delinquent even after the miscoding was corrected in
its computer system in July 2013.
Further, in addition to miscoding Saccameno’s
bankruptcy, Ocwen improperly advanced the due date
for her loan payments and failed to credit two of the
payments that she made during her bankruptcy. While
a single error might be explained as a mere accident,
multiple errors might reasonably be viewed as a pattern indicating deliberate indifference, if not malice.
Notably, all but one of Ocwen’s errors in connection
with Saccameno’s account would have redounded to
Ocwen’s benefit, requiring Saccameno to make additional mortgage payments as well as to pay various
fines and fees. See, e.g., Tr. 156:16-158:2 (discussing inspection fees); Tr. 344:19-25 (property valuation and title fees). The sole exception is the fact that, between
April and June 2013, Ocwen’s records (apparently

App. 67
incorrectly) reflected a credit balance in Saccameno’s
favor of between of $1,156.83 and $2,840.12. See Tr.
113:14-17; Tr. 122:15-24. Unlike the errors that would
have benefitted Ocwen, however, the error in Saccameno’s favor was corrected swiftly and on Ocwen’s
own initiative.
On this record, a jury could reasonably have concluded that Ocwen’s conduct was egregious enough to
warrant punitive damages. In his closing argument,
Saccameno’s counsel suggested to the jury that Ocwen
had essentially waged a war of attrition against Saccameno, pursuing its collection efforts in the hope that
she eventually would capitulate by agreeing to make
extra payments or by entering into a loan modification
on terms more favorable to Ocwen. See Tr. 1041:17-21;
Tr. 1049:7-1050:6. Viewing the evidence in the light
most favorable to Saccameno, the court cannot say that
such an inference would have been unreasonable. But
regardless of whether jurors might have accepted the
specific theory advanced by Saccameno, a jury could
reasonably have concluded—based on the number and
nature of Ocwen’s missteps, and the time it took to correct them—that Ocwen acted maliciously, or at least
with deliberate indifference to Saccameno’s rights.
Ocwen argues that such an inference is contradicted by the fact that it offered Saccameno various
forms of assistance. For example, Ocwen points out
that many of its letters to Saccameno included the phone
numbers for housing counseling services approved by
the Department of Housing and Urban Development
(HUD) and the hotline for the Homeownership and

App. 68
Opportunity for People Everywhere (“HOPE”) Program. See, e.g., Ex. DX1 at 3; Ex. DX6 at 3; Ex. DX7 at
3. But this information appears to have been included
routinely in Ocwen’s collection letters and shows no effort to address the specific problems with Saccameno’s
account. In fact, Ocwen’s letters list these resources
under the heading, “Financial Counseling Services.”
Having emerged from bankruptcy, however, Saccameno no longer needed financial assistance; she
simply needed Ocwen to correct its records.
In July 2013, Ocwen also assigned a “Relationship
Manager” to assist Saccameno. This individual, Anthony Gomes (“Gomes”), was to “be responsible for
monitoring [Saccameno’s] account, making sure that
[Ocwen had] all of [her] critical information and carefully reviewing [her] situation.” Ex. DX2 (“Relationship Manager Notice,” July 16, 2013). There is no
evidence, however, that Gomes actually performed
these functions. The record indicates that Saccameno
spoke with him once by phone in August 2013, at which
time he instructed her to resubmit the information
that she previously had faxed on July 17, 2013. See Tr.
472:6-15; Tr. 776:16-767:6; Tr. 860:15-861:20. Saccameno sent Gomes the materials, but nothing came of
it.
Finally, Ocwen notes that it gave Saccameno several opportunities to modify the terms of her loan.
However, the two proposals discussed at trial were offered to Saccameno only in 2015, after she had filed
suit. See Ex. DX16; Tr. 493:17-19; Tr. 495:18-22 (discussing loan modification offered on Feb. 13, 2015); Ex.

App. 69
DX17; Tr. 497:5-8 (discussing loan modification offered
in July 2015). Moreover, while the modifications would
have lowered Saccameno’s monthly payments, they
also would have increased the loan’s principal balance,
see Tr. 622:17-623:4; Tr. 625:12-24, and lengthened the
term of the mortgage from fifteen to thirty years, see,
e.g., Tr. 626:15-20. In the long run, therefore, Ocwen’s
proposed loan modifications might well have been costlier to Saccameno—and more beneficial to Ocwen.
In short, based on the record evidence in this case,
a jury could reasonably have concluded that Ocwen’s
conduct was reprehensible enough to warrant punitive
damages.
2. Corporate Complicity
Next, Ocwen argues that it cannot be held liable
for punitive damages because Saccameno presented no
evidence that its corporate management authorized or
approved of its employees’ actions. See JMOL Br. 10,
ECF No. 314. Under Illinois’ so-called “corporate complicity” doctrine, punitive damages may be awarded
against a principal or corporation based on the acts of
its employees where:
(a) the principal authorized the doing and the
manner of the act, or (b) the agent was unfit
and the principal was reckless in employing
him, or (c) the agent was employed in a managerial capacity and was acting in the scope of
employment, or (d) the principal or a managerial agent of the principal ratified or approved
the act.

App. 70
Mattyasovszky v. West Towns Bus Co., 330 N.E.2d 509,
512 (Ill. 1975).
Here, a jury could reasonably have concluded that
Ocwen “ratified or approved” of its employees’ actions.
Under Illinois law, “[r]atification is the equivalent of
authorization, but it occurs after the fact, when a principal gains knowledge of an unauthorized transaction
but then retains the benefits or otherwise takes a position inconsistent with nonaffirmation.” Progress
Printing Corp. v. Jane Byrne Political Comm., 601
N.E.2d 1055, 1067 (Ill. App. Ct. 1992). “[R]atification
need not be express; it may be inferred from surrounding circumstances, including long-term acquiescence,
after notice, to the benefits of an unauthorized transaction.” Id. The record in this case contains sufficient
evidence both that Ocwen’s management was aware of
its employees’ actions and that Ocwen took a “position
inconsistent with nonaffirmation” of those actions.
First, there is sufficient evidence in the record that
Ocwen’s management was on notice of potential problems with its loan servicing practices throughout the
company generally. For example, as mentioned above,
see Part II.C.2, supra, Saccameno’s exhibits included
consent orders that Ocwen entered into with state and
federal regulatory bodies. These exhibits showed that,
based on investigations conducted in 2010 and 2011,
state and federal regulatory agencies had raised a host
of concerns regarding Ocwen’s handling of distressed
loans. See Exs. P42 & P44. Among other things, the regulators claimed to have found a “[l]ack of controls related to general borrower account management,

App. 71
including . . . [m]isapplication of borrower payments”
and “[a]ssessment of unauthorized fees and charges,”
Ex. P42 at 6; and “[d]eficiencies in management control
and supervision necessary to ensure compliance with
applicable laws and regulations,” id. at 7; as well as
“deficiencies in Ocwen’s servicing platform and loss
mitigation infrastructure, including . . . failure to
properly maintain books and records,” Ex. P44 at 3. A
jury could reasonably have inferred that various regulators had informed Ocwen that its procedures were
subject to the kind of deficiencies that gave rise to the
problems in Saccameno’s case, and that, in light of the
regulatory investigations on which the consent orders
were based, Ocwen was aware of its employees’ improper conduct in handling loans.
Ocwen appears to concede the consent orders constitute evidence of corporate complicity. It argues, however, that these exhibits were inadmissible. As
previously noted, Ocwen’s arguments on this point will
be discussed in depth in Part III. However, even without the consent orders’ evidence indicating knowledge
of companywide problems with Ocwen’s loan servicing
practices, Saccameno presented sufficient evidence
from which a jury could have found that Ocwen’s management was aware that her account in particular was
being improperly serviced. For more than a year, Saccameno and her attorney had numerous communications with Ocwen employees. Some of these should
have been cause for alarm. For example, Van Sky’s letters to Ocwen expressly threatened litigation. See Ex.
P33; Ex. P34. The record shows that Saccameno’s

App. 72
complaints and inquiries were distributed to and handled by several of Ocwen’s corporate departments. Tr.
617:13-17; Tr. 174:25-175:2, Tr. 280:10-15. All of these
communications—along with electronic images of the
bankruptcy discharge order, the notice of final cure,
and other documents—were logged in Ocwen’s computer system, see generally Ex. P18; Tr. 138:18-139:3,
and could be viewed by any Ocwen employee who accessed Saccameno’s account, see, e.g., Tr. 169:12-170:18.
As of August 2013, Ocwen’s records contained all of the
information necessary to determine that Saccameno’s
account was current. See, e.g., Tr. 328:21-23. Moreover,
in the words of Ocwen’s counsel, Saccameno’s account
was “bumped up” to a higher level when a Relationship
Manager was assigned to monitor and review her situation. See Tr. 1077:15-1078:2. Given all of these facts,
a jury could reasonably have found that awareness of
the mishandling of Saccameno’s account had percolated up to Ocwen’s management.14
14

Even if Ocwen’s management was not actually aware of
the problems with Saccameno’s account, Ocwen would not
thereby be absolved of liability. For while a principal ordinarily
must have knowledge of the agent’s actions in order to be held
liable for those actions, under Illinois law, “one whose ignorance
or mistake was the result of gross or culpable negligence in failing
to learn the facts will be estopped as if he had full knowledge of
the facts.” Progress Printing, 601 N.E.2d at 1067-68; ABN AMRO,
Inc. v. Capital Int’l Ltd., 595 F. Supp. 2d 805, 822 (N.D. Ill. 2008)
(quoting Progress Printing). On this record, a jury could reasonably have concluded that, to the extent Ocwen was unaware of the
problems with Saccameno’s account, Ocwen is estopped from
pleading ignorance because its lack of knowledge was deliberate
or the result of culpable negligence. See, e.g., Williams v. Schram,
No. 06-CV-00557-DRH, 2008 WL 2788758, at *5 (S.D. Ill. July 16,

App. 73
Second, on this record, a jury could reasonably
have inferred that Ocwen retained the benefits, or otherwise took a “position inconsistent with nonaffirmation,” of its employees’ conduct. We have seen that
Ocwen stood to benefit from its mishandling of Saccameno’s account in several ways. Among other things,
its mistakes would have required Saccameno to make
additional mortgage payments and to pay additional
fees and charges, see, e.g., Tr. 156:16-158:2; Tr. 344:1925, and might also have led her to modify her loan on
terms more profitable to Ocwen, see Part II.D.1, supra.
To be sure, Ocwen ultimately did not retain these benefits: Saccameno did not make the extra payments
Ocwen demanded; the fees and charges to her account
were later reversed, see, e.g., Tr. 471:5-23; Tr. 966:2267:22; and Saccameno never accepted Ocwen’s loan
modification proposals. Nevertheless, it can reasonably
be inferred that Ocwen would have retained these benefits if Saccameno had not filed suit.
Further, regardless of whether Ocwen ultimately
retained any benefit from the mishandling of Saccameno’s loan, a jury could reasonably have concluded
that Ocwen took a “position inconsistent with nonaffirmation” of its employees’ conduct. For example, the record indicates that Ocwen took no steps to prevent the
problems that arose in Saccameno’s case from recurring in the case of other consumers. As noted above,
Feezer admitted that she had conducted virtually no
2008) (punitive damages could be awarded against corporation
based on evidence that the corporation “turned a blind-eye” to employee’s violations of federal regulations).

App. 74
investigation into the circumstances surrounding the
miscoding of Saccameno’s bankruptcy discharge: she
admitted that she never spoke with Marla regarding
the issue and did not check to see whether she or other
employees had miscoded bankruptcy discharges in
other cases. See, e.g., Tr. 132:3-136:1. Tr. 130:13-17; Tr.
136:16-137:13. To fail to take such corrective action is
to take a “position inconsistent with the nonaffirmation” of employees’ actions. See, e.g., Langan v. Rasmussen, Nos. 15-1295 & 15-1207, 13-15 (C.D. Ill. Aug. 28,
2018) (jury could reasonably have concluded that defendant corporation ratified employee’s unsafe driving
because, based on corporation’s auditing procedures, it
“should have known that employee was falsifying his
logs and operating in an unsafe manner”) (quotation
marks omitted); LeClercq v. Lockformer Co., No. 00 C
7164, 2002 WL 992671, at *3 (N.D. Ill. May 7, 2002)
(evidence supported conclusion that management was
aware of employees’ unsafe delivery methods and potential environmental contamination and that, by taking no action to contact residents or test well water,
corporation ratified employees’ conduct); Robinson v.
Wieboldt Stores, Inc., 433 N.E.2d 1005, 1009 (Ill. App.
Ct. 1982) (upholding punitive damage award against
corporation for security guard’s actions because, inter
alia, “defendant has continued to defend the actions of
its agent throughout the course of this litigation and
has shown no attempt to alter its procedures in regard
to situations such as the one encountered by plaintiff ”).

App. 75
In short, on this record, a jury could reasonably
have concluded that Ocwen’s management was aware
of the mishandling of Saccameno’s account, and that
by acquiescing in its employees’ conduct, Ocwen ratified their actions. See Langan, 15-1295 & 15-1207, 1315; LeClercq, 2002 WL 992671, at *3. For these reasons,
the record supports holding Ocwen liable for punitive
damages based on the actions of its employees. Having
concluded that the record also supports a finding that
Ocwen acted with the requisite culpability, the court
denies Ocwen’s motion for judgment as a matter of law
as to Saccameno’s claim for punitive damages.
E. RESPA (Count IV)
Lastly, Ocwen seeks judgment as a matter of law
with respect to Saccameno’s RESPA claim. “RESPA is
a consumer protection statute that regulates the real
estate settlement process, including servicing of loans
and assignment of those loans.” Catalan v. GMAC
Mortg. Corp., 629 F.3d 676, 680 (7th Cir. 2011). As relevant here, “the statute requires loan servicers to
promptly respond to a ‘qualified written request’
[“QWR”] from a borrower seeking ‘information related
to the servicing’ of his loan or alleging that his account
is in error.” Perron on behalf of Jackson v. J.P. Morgan
Chase Bank, N.A., 845 F.3d 852, 856-57 (7th Cir. 2017)
(quoting 12 U.S.C. § 2605(e)(1)(A)-(B)). Specifically,
RESPA requires loan servicers to take one of following
actions within thirty days of receiving a QWR: (1)
“make appropriate corrections in the account of
the borrower . . . and transmit to the borrower a

App. 76
written notification of such correction,” 12 U.S.C.
§ 2605(e)(2)(A); (2) “after conducting an investigation,
provide the borrower with a written explanation or
clarification that includes . . . to the extent applicable,
a statement of the reasons for which the servicer believes the account of the borrower is correct as determined by the servicer,” 12 U.S.C. § 2605(e)(2)(B); or (3)
“after conducting an investigation, provide the borrower with a written explanation or clarification that
includes . . . information requested by the borrower or
an explanation of why the information requested is unavailable or cannot be obtained by the servicer,” 12
U.S.C. § 2605(e)(2)(C).
Saccameno claims that Ocwen failed to comply
with these requirements in responding to her inquiries
regarding her account. To prevail on her RESPA claim,
Saccameno must show that Ocwen failed to comply
with one of § 2605(e)(2)’s requirements and that she
suffered actual injury as a result. See, e.g., Baez v. Specialized Loan Servicing, LLC, 709 F. App’x 979, 982
(11th Cir. 2017) (“[T]o prevail on a RESPA claim, a
plaintiff must show (1) a failure to comply with a
RESPA obligation and (2) actual damages sustained as
a result of the failure to comply.”). The parties agree
that Saccameno sent Ocwen at least two distinct
QWRs: the first was Saccameno’s fax to Ocwen in July
2013; the second was Susan Van Sky’s letter sent in

App. 77
March 2014. The court considers the evidence with respect to each QWR separately.15
15

On January 10, 2014, the Consumer Financial Protection
Bureau promulgated regulations to implement RESPA’s requirements. See Mortgage Servicing Rules under the Real Estate Settlement Procedures Act, codified at 12 C.F.R. § 1024. Some courts
have held that one of these regulations (“Regulation X”) imposed
stricter requirements on servicers in responding to QWRs. This
view is based on the fact that, whereas RESPA’s statutory text
requires servicers to provide borrowers with a written explanation or clarification “after conducting an investigation,” 12 U.S.C.
§ 2605(e)(2)(B), Regulation X requires servicers to respond to
QWRs after “[c]onducting a reasonable investigation,” 12 C.F.R.
§ 1024.35(e)(1)(i)(B) (emphasis added). According to some courts,
the regulation’s addition of the term “reasonable” signifies a
heightened standard for servicers’ investigations. See, e.g., Wilson
v. Bank of Am., N.A., 48 F. Supp. 3d 787, 804 (E.D. Pa. 2014)
(“[P]re-Regulation X statutory language required nothing more
than ‘an investigation’ and a ‘written explanation’ that the servicer believes supports its determination that the account is correct. . . . [Under] Regulation X, however, . . . a servicer must now
conduct a ‘reasonable investigation.’ The addition of the word
‘reasonable’ seemingly imposes a substantive obligation that is
not satisfied by the mere procedural completion of some investigation followed by a written statement of reasons.”); but see Wirtz
v. Specialized Loan Servicing, LLC, 886 F.3d 713, 717 (8th Cir.
2018) (“Effective January 2014, the Bureau of Consumer Financial Protection amended its Regulation X to require that mortgage
loan servicers conduct a ‘reasonable investigation’ in response to
a qualified written request. The addition of a new regulatory command, however, does not imply that the statute previously did not
include one. In this case, we conclude that the new regulation
simply reflects a requirement already dictated by the statutory
text.”) (citations omitted). For this reason, the RESPA jury instructions in this case distinguished between claims based on
QWRs received prior to January 10, 2014 and those received after
that date. See Jury Inst. 37. The distinction is not important here,
however, because Ocwen’s motion does not invoke it. On the contrary, Ocwen appears to agree that a reasonableness requirement

App. 78
1. The July 2013 QWR
Saccameno’s first QWR was prompted by communications she received from Ocwen in July 2013 informing her that her account was delinquent. As noted
above, on July 15, 2013, she called Ocwen to inquire
about the possibility of refinancing her loan. Tr. 763:1216. During the conversation, an Ocwen representative
informed Saccameno that, according to its records, she
was $8,000 in arrears. Tr. 764:12-19. On July 17, 2013,
she sent a fax to Ocwen stating:
I just spoke to your company regarding the
possibility of refinancing at a lower interest
rate as I am at 8.5%. She indicated your company thinks I am > 8000.00 in arrears! This is
not true! In fact in May I superfluously sent
an extra 3 payments for my principal. As you
can see in the attached I have just completed
a Chapter 13 bankruptcy lasting 42 months
during which time I didn’t miss a mortgage
payment!

applies under RESPA generally. See JMOL Br. 11 (“When responding to a qualified written request, it is irrelevant whether
the servicer’s understanding of the account is correct, so long as
it is reasonable.”) (citing Vilkofsky v. Specialized Loan Servicing,
LLC, 2017 WL 839493, at *5, 2017 U.S. Dist. LEXIS 29994, at *15
(W.D. Pa. Mar. 3, 2017)). The distinction between pre- and postRegulation X requirements is also unimportant because, even assuming that a less stringent standard applies to investigations
conducted prior to the regulation’s enactment, a jury could reasonably have concluded on this record that Ocwen failed to meet
it.

App. 79
See Ex. P16. Saccameno’s fax included several pages of
documentation, including a copy of the bankruptcy discharge order entered in her case. Id. at 7; Tr. 166:2-10.
On August 6, 2013, after speaking with Anthony
Gomes, Saccameno sent Ocwen a second fax that included the same information. See Ex. P15 at 7; see also
Tr. 182:5-8; Tr. 764:25-765:5. Ocwen consolidated the
two requests, see Ex. P18 at 2324, and responded in a
letter dated August 14, 2013, see Ex. P16. The letter
summarized Saccameno’s concerns, stating: “[Y]ou requested us to provide you with the details regarding
the payments which were sent in the month of May
2013.” Ex. P16 at 1. In addition, the letter acknowledged that Saccameno had “provided [Ocwen] the details of the discharged bankruptcy.” Id. In response to
Saccameno’s concerns, Ocwen stated:
Our records reflect that you filed for protection under bankruptcy chapter 13 on December 31, 2009. Please note that we received 40
payments for the post petition plan, which
were applied from January 1, 2010 through
April 1, 2013 leaving the loan due for May 1,
2013 payment. Additionally, we have waived
fees in the amount of $1,673.21, which were
assessed to the loan by prior servicer and
Ocwen.
Id.
A jury could reasonably have concluded that this
response failed to meet RESPA’s requirements under
§ 2605(e)(2). There is no dispute that Ocwen did not
comply with § 2605(e)(2)(A), which requires servicers

App. 80
to “make appropriate corrections in the account of the
borrower.” Although Ocwen waived fees assessed by
Saccameno’s previous servicer, Ocwen did not correct
its records to reflect that Saccameno had made all of
her payments. Ocwen’s response also did not comply
with § 2605(e)(2)(C) because Ocwen did not claim that
it was unable to obtain the information Saccameno had
requested. The question is thus whether Ocwen complied with § 2605(e)(2)(B)’s requirement that the servicer, “after conducting an investigation, provide the
borrower with a written explanation or clarification” as
to why it believes the account does not need correction.
Here, there is sufficient evidence that Ocwen
failed both to conduct a sufficient investigation and to
provide an adequate explanation as to why Saccameno’s account needed no correction. With respect to
the adequacy of Ocwen’s investigation, we have already seen that, by the time it sent its August 2013
response letter, Ocwen had all the information necessary to determine that Saccameno had in fact made all
forty-two of her post-petition payments. See, e.g., Tr.
328:21-23. Further, even if Saccameno had missed payments, Ocwen would have been unable to collect them
because it failed to respond to the Chapter 13 Trustee’s
Notice of Final Cure Payment. See Tr. 471:25-472:5.
Still further, we have seen that by the end of July 2013,
Ocwen had in fact corrected the miscoding of Saccameno’s bankruptcy discharge. This information,
which was accessible to all of Ocwen’s employees, unequivocally showed that Saccameno was not responsible
for any missed payments. Yet Ocwen offers no

App. 81
explanation as to why it responded by telling Saccameno that her loan was delinquent. In the absence
of an alternative explanation, a jury could reasonably
have concluded that Ocwen’s mistaken response resulted from its failure to investigate Saccameno’s account.
A jury could also reasonably have concluded that
the explanation provided in Ocwen’s response letter
failed to comply with § 2605(e)(2)(B). Indeed, at a basic
level, the letter’s explanation was not responsive to
Saccameno’s QWR at all. For example, although
Ocwen’s response acknowledges that Saccameno provided details regarding her bankruptcy discharge, the
letter makes no attempt to address this information.
Similarly, the letter notes that Saccameno had filed for
bankruptcy in December 2009 but says nothing in response to Saccameno’s claim that the bankruptcy had
been discharged. Indeed, Ocwen’s response appears to
misconstrue the point of Saccameno’s inquiry. The letter describes Saccameno’s QWR as seeking details regarding the payments she had made in May 2013. Ex.
P16 at 1. But Saccameno’s fax specifically characterized those payments as “superfluous.” The point of her
inquiry was to dispute and correct Ocwen’s claim that
her account was in arrears. As to that issue, Ocwen’s
letter simply asserts that it had received only forty
payments from Saccameno. It offers no further explanation or supporting documentation. An oblique response of this kind is not sufficient to comply with
RESPA. See, e.g., Marais v. Chase Home Fin., LLC, 24
F. Supp. 3d 712, 725 (S.D. Ohio 2014) (servicer’s

App. 82
response failed to comply with RESPA because the information it provided did not “explain or clarify the issue at the heart of Marais’ QWR—that Marais
believed her account was in error because payments
had been misapplied, fees unjustly assessed, and payments counted late though they had not been”) (quotation marks and brackets omitted).
On this record, therefore, a jury could reasonably
have concluded that Ocwen’s response to the July 2013
QWR failed to comply with RESPA’s investigation and
explanation requirements.
2. The March 2014 QWR
On March 21, 2014, Susan Van Sky sent Ocwen a
second QWR. See Ex. P33; Tr. 327:13-25; Tr. 507:11-14.
The letter attached over 100 pages of supporting documentation showing that Saccameno had in fact made
all of her mortgage payments. Tr. 508:25-509:12; Tr.
783:7-13. Van Sky requested that Ocwen “review these
documents and call me with an explanation as to how
you plan to remedy this situation.” Id. Ocwen’s response letter, dated April 9, 2014, acknowledged that
Van Sky “provided us with the proof of payment and
requested us to review and provide you with assistance
in this regard,” Ex. DX14. However, the letter went on
to say: “A review of our record [sic] indicates that all
payment [sic] reference [sic] in your correspondence
have been received and applied towards the loan.” Id.
Ocwen also separately sent Van Sky a “Payment
Reconciliation History,” a twelve-page spreadsheet

App. 83
purportedly reflecting “all credits and disbursements,
made to the loan and the resulting loan status.” See Ex.
DX13.
As with Ocwen’s August 2013 response letter, a
jury could reasonably have concluded that Ocwen’s
April 2014 letter fell short of § 2605(e)(2)(B)’s investigation and explanation requirements. Although Ocwen
was still in possession of all of the information it
needed to determine that Saccameno had missed no
payments, it continued to maintain that her loan was
delinquent. A jury could reasonably have concluded
that Ocwen’s failure to recognize its error—especially
after being given a second opportunity—was due to its
failure adequately to investigate the matter.
Similarly, like the August 2013 letter, the April
2014 letter was not responsive to the QWR and failed
to explain why Ocwen believed that its understanding
of Saccameno’s account was accurate. Ocwen acknowledges that Van Sky had provided proof of payment but
makes no attempt to respond to her proof. The letter
says that all of Saccameno’s payments had been
properly applied but provides no explanation for this
conclusion. Indeed, virtually all of the information in
the April 9, 2014 letter is generic, offering no information relevant to the particulars of Saccameno’s case.
See, e.g., Ex. DX14 (“Any payment received would be
posted to the loan within twenty-four (24) business
hours from its receipt. The payments received are first
applied to the contractual payments due on a loan. In
addition, any payments not equal in the contractual
amount will be applied towards the suspense (partial

App. 84
payment) credit account, until there are sufficient
funds to complete a contractual payment.”). In fact, the
letter in one place incorrectly identifies the borrower
as “Michelle Ruby,” see Ex. DX14, strongly suggesting
that Ocwen responded to Saccameno’s letter by cutting
and pasting text from its response to another customer.
Boilerplate responses of this sort are insufficient to
meet RESPA’s requirements. See, e.g., Lage v. Ocwen
Loan Servicing LLC, 145 F. Supp. 3d 1172, 1190 (S.D.
Fla. 2015) (“The sending of a template or form letter
which fails to substantively address concerns raised by
the borrower’s inquiry does not satisfy the servicer’s
obligations under [RESPA’s] error resolution procedures.”); Marais, 24 F. Supp. 3d at 724 (servicer violated RESPA by sending “a form letter with no
individualized features apart from the list of enclosures” and “therefore explained nothing whatsoever
about [the borrower’s] individual circumstances or her
account”).
True, Ocwen also sent Van Sky a “Payment Reconciliation History.” See Ex. DX13. At trial, however, Van
Sky testified that she found the document incomprehensible. Tr. 511:12-14. The document lists all transactions involving Saccameno’s account from July 2011
(when Ocwen began servicing Saccameno’s loan) to
April 2014. It thus includes not only Saccameno’s mortgage payments but also fees and charges to her account, tax and insurance disbursements, escrow
adjustments, and other transactions. Even after isolating the spreadsheet entries reflecting Saccameno’s
payments, Ocwen’s accounting is very difficult to

App. 85
follow. Several different types of payments are included in the document (e.g., pre-petition payments,
suspense payments, “Payment-REV”), and oftentimes
there are consecutive entries showing a payment for a
particular amount followed by a payment in the
amount of “0.” Ocwen provided no explanation as to
how the document purportedly shows that Saccameno
made only forty payments; nor did the document include information to assist the layperson in deciphering it. This is not enough to comply with RESPA. See,
e.g., Renfroe v. Nationstar Mortg., LLC, 822 F.3d 1241,
1244–45 (11th Cir. 2016) (plaintiff stated claim for
RESPA violation where, in responding to QWR, servicer “just said there was no error and pointed to attachments”); Marais, 24 F. Supp. 3d at 725.
Notably, on April 28, 2014, Van Sky sent Ocwen
another letter explaining in some detail why Ocwen’s
April 9, 2014 response failed to address her questions
and concerns. Ex. P34; Tr. 508:25-511:3. Van Sky testified that she received no response to this letter, Tr.
510:6-19, and Ocwen has presented no evidence to the
contrary. Saccameno argues that the April 28, 2014 letter represents a third QWR, and that by failing to respond to the letter, Ocwen violated RESPA a third
time. See JMOL Resp. Br. 15, ECF No. 335. Ocwen has
not responded to this argument and has therefore conceded the point. See, e.g., Perry v. Coles Cty., Illinois,
906 F.3d 583, 590 n.5 (7th Cir. 2018). Hence, even if
Saccameno’s claim failed with respect to the two prior
QWRs, Ocwen would not be entitled to judgment as a
matter of law on the RESPA count.

App. 86
In light of the foregoing, the record sufficiently
shows that Ocwen failed to comply with RESPA in responding to Saccameno’s March 2014 QWR.
3. RESPA Damages
As a final basis for seeking judgment as a matter
of law with respect to the RESPA count, Ocwen argues
that Saccameno failed to produce sufficient evidence
on the issue of damages. More specifically, Ocwen
claims that Saccameno failed to show that she suffered
actual damages—which, according to Ocwen, requires
a showing of pecuniary harm. This argument is a nonstarter because, as already explained, there is sufficient evidence that Saccameno suffered pecuniary
harm. See Part II.B, supra. Moreover, for purposes of
RESPA, “actual damages” includes both pecuniary and
non-pecuniary harm. See, e.g., Hammer v. Residential
Credit Sols., Inc., No. 13 C 6397, 2015 WL 7776807, at
*24 (N.D. Ill. Dec. 3, 2015) (“Courts have held that the
term ‘actual damages’ includes not only pecuniary
losses but damages for emotional distress, humiliation
or mental anguish as well. This general holding has
been applied specifically to actual damages arising under RESPA.”) (citation omitted); Jury Inst. No. 38 (“Under RESPA, the term ‘actual damages’ includes
economic and non-economic damages caused by the
RESPA violation.”); cf. Catalan, 629 F.3d at 696 (noting
defendant’s concession that emotional distress damages are recoverable as actual damages under RESPA).

App. 87
The record contains sufficient evidence that Saccameno suffered compensable RESPA damages.16
Ocwen additionally argues that Saccameno presented no evidence that her claimed RESPA damages
were caused directly by Ocwen’s response letters. The
court disagrees. A jury could reasonably have found
that Saccameno’s emotional distress (along with her
attendant medication expenses and loss of employment) were the direct result of Ocwen’s failure
properly to respond to her requests that her account be
corrected.
Accordingly, the court denies Ocwen’s motion for
judgment as a matter of law as to Saccameno’s RESPA
claims.
F. Conclusion
In sum, the record evidence in this case is sufficient to support of all of Saccameno’s claims, as well as
her request for punitive damages. Accordingly, the

16

Ocwen appears to acknowledge that non-pecuniary damages are recoverable under RESPA but contends that such damages are available only after a plaintiff has established pecuniary
loss. However, the case that Ocwen cites in support of this position, Aiello v. Providian Financial Corporation, 239 F.3d 876 (7th
Cir. 2001), is inapposite. The question presented in Aiello was
whether the bankruptcy code authorized recovery for emotional
distress for violation of the automatic stay. The court held that
emotional injury was not “compensable under section 362(h)
when there is no financial loss to hitch it to.” Id. at 880. Nothing
in Aiello suggests that its holding applies to RESPA.

App. 88
court denies Ocwen’s renewed motion for judgment as
a matter of law.
III.

Motion for a New Trial

The court next addresses Ocwen’s motion for a
new trial. “A new trial may be granted if the verdict is
against the clear weight of the evidence or the trial was
unfair to the moving party.” Clarett v. Roberts, 657 F.3d
664, 674 (7th Cir. 2011) (quotation marks omitted).
Ocwen’s motion rests entirely on the court’s rulings regarding the admissibility of the two consent orders
mentioned above, see Part II.C.2, supra. “A party seeking a new trial based on a district court’s alleged erroneous evidentiary rulings bears a ‘heavy burden.’ ”
Weaver v. Mitchell, No. 15 C 2950, 2019 WL 218745, at
*5 (N.D. Ill. Jan. 16, 2019) (quoting Alverio v. Sam’s
Warehouse Club, 253 F.3d 933, 942 (7th Cir. 2001)). A
new trial is warranted for purported evidentiary errors
“only if the error has a substantial and injurious effect
or influence on the determination of a jury and the result is inconsistent with substantial justice.” Lewis v.
City of Chicago Police Dep’t, 590 F.3d 427, 440 (7th Cir.
2009). “[E]ven if a judge’s decision is found to be erroneous, it may be deemed harmless if the record indicates the trial result would have been the same.” Id.
As discussed below, Ocwen’s motion fails at the
threshold because it has not shown that the court’s evidentiary rulings were erroneous. In addition, even assuming the court’s rulings were incorrect, Ocwen has
failed to show that the errors had a “substantial and

App. 89
injurious effect or influence on the determination of a
jury” leading to a result that is “inconsistent with substantial justice.”
A. Background
Although the court briefly discussed the consent
orders above, it is necessary for purposes of the present
motion to describe the exhibits, and their use at trial,
in greater detail. Both exhibits—designated Exhibits
P42 and P44—are consent orders resulting from an examination conducted by state mortgage regulators into
Ocwen’s loan servicing practices (the “multistate examination”).17 See Settlement Agreement and Consent
Order, In Re: Ocwen Financial Corporation and Ocwen
Loan Servicing, LLC, No. C-13-1153-14-CO01, at 1-2
(Dec. 19, 2013).18 Following the examination, which
17

Although the CFPB agreement is termed a “consent judgment” and the NYSDFS agreement is termed a “consent order,”
any differences between orders and judgments are immaterial for
purposes of Ocwen’s motion. For simplicity, therefore, the court
uses these terms synonymously. See, e.g., Sec. & Exch. Comm’n v.
Gilder, No. 12-CV-02839, 2014 WL 1628474, at *2 n.2 (D. Colo.
Apr. 24, 2014) (“Consent judgments are also known as ‘consent
orders’ or ‘consent decrees,’ though, historically, consent decrees
and consent orders have contained injunctive relief and consent
judgments have not. For purposes of this Order, the terms ‘settlement,’ ‘consent decree,’ ‘consent judgment,’ and ‘final judgment’
are interchangeable.”) (citations omitted).
18
As is explained below, the consent orders used at trial were
heavily redacted. Here—solely by way of background and context—the court takes judicial notice of, and occasionally cites to,
the unredacted documents. See, e.g., Powers v. Stanley Black &
Decker, Inc., 137 F. Supp. 3d 358, 362 n.3 (S.D.N.Y. 2015) (taking
judicial notice of facts regarding the parties’ businesses “purely

App. 90
covered the period from December 2010 to October
2011, the state mortgage regulators reported that they
had “identified practices that may . . . violate the laws
and regulations of the Participating States and related
Federal law.” Id. at 5. As previously noted, the regulators reported finding, inter alia, a “[l]ack of controls related to general borrower account management”;
“[i]nadequate staffing and lack of internal controls related to customer service”; and deficiencies in “loss
mitigation and loan modification processes” and in
“document maintenance processes.” Id. at 6-7.
Based on the multistate examination’s findings,
the Consumer Financial Protection Bureau (“CFPB”),
together with forty-nine states and the District of Columbia, sued Ocwen for allegedly violating various
state and federal consumer protection laws. See Consumer Fin. Prot. Bureau v. Ocwen Fin. Corp., No. CV
13-2025 (RMC) (D.D.C. filed Dec. 19, 2013). Exhibit
P42 is the consent judgment that Ocwen entered into
to resolve the CFPB litigation (“the CFPB consent
judgment”). The exhibit includes a Settlement Agreement and Consent Order executed between Ocwen and
the state mortgage regulators, which sets forth a number of the multistate examination’s factual findings
regarding deficiencies in Ocwen’s loan servicing practices. Exhibit P42 also includes a Settlement Term
Sheet, which describes Ocwen’s going-forward obligations pursuant to the CFPB consent judgment. As we
for purposes of background”); Magritz v. Ozaukee Cty., 894
F. Supp. 2d 34, 35 n.1 (D.D.C. 2012) (taking judicial notice of news
articles for background purposes).

App. 91
have seen, Ocwen agreed to “maintain adequate documentation of borrower account information,” to “maintain procedures to ensure accuracy and timely
updating of borrower’s account information,” and to
“take appropriate action to promptly remediate any inaccuracies in borrowers’ account information.” Ex. P42
at A-4 & A-7. More specifically, with respect to Chapter
13 cases, Ocwen agreed to ensure that “the debtor is
treated as being current so long as the debtor is making payments in accordance with the terms of the theneffective confirmed [bankruptcy] plan”; and to ensure
“as of the date of . . . entry of an order granting the
debtor a discharge, there is a reconciliation of payments received with respect to the debtor’s obligations
during the case and appropriately update the Servicer’s systems of record.” Id. at A-8.
Exhibit P44 is a 2014 consent order that Ocwen
separately entered into with the New York State Department of Financial Services (“NYSDFS”) pursuant
to New York Banking Law § 44 (“the 2014 NYSDFS
consent order,” “the 2014 Order”). See Consent Order
Pursuant to New York Banking Law § 44, In the Matter
of Ocwen Financial Corporation, Ocwen Loan Servicing, LLC (Dec. 22, 2014). Like the CFPB consent judgment, Exhibit P44 recounts various findings of the
2010-2011 multistate examination. In particular, the
NYSDFS consent order states that regulators found
“deficiencies in Ocwen’s servicing platform and loss
mitigation infrastructure, including . . . failure to
properly maintain books and records.” Ex. P44 at 3. According to the NYSDFS, these practices resulted in

App. 92
“numerous and significant violations of New York
State laws and regulations.” Id. at 4. As a result,
Ocwen entered into an initial agreement with the
NYSDFS in 2011 “requir[ing] Ocwen to adhere to certain servicing practices in the best interest of borrowers and investors.” Id. at 2. When a subsequent
investigation showed Ocwen’s “widespread noncompliance” with the agreement, Ocwen entered into a consent order with the NYSDFS in 2012. Id. However,
monitoring once again “identified numerous and significant violations of the 2011 Agreement, as well as
New York State laws and regulations.” Id. at 5. In particular, the NYSDFS reported that Ocwen maintained
“inadequate and ineffective information technology
systems and personnel,” and that as a result, “Ocwen
regularly gives borrowers incorrect or outdated information, sends borrowers backdated letters, . . . and
maintains inaccurate records.” Id. at 6. Thus, Ocwen
entered into a second consent order with the NYSDFS
in 2014. Pursuant to the 2014 Order’s settlement provisions, Ocwen agreed to continued monitoring of its
loan servicing practices and agreed to pay a $100 million civil penalty and $50 million in restitution to New
York borrowers. Id. at 10.
In addition to Exhibits P42 and P44, Saccameno
originally sought to introduce several consent orders
that Ocwen had entered into with other states, as well
as a host of court decisions, verdict forms, and news
stories involving Ocwen. Prior to the trial, Ocwen filed
motions to bar all of these exhibits, arguing that they
were irrelevant, that they constituted evidence of prior

App. 93
bad acts under Federal Rule of Evidence 404(b), and
were unfairly prejudicial under Rule 403. See Defendants’ Motion in Limine to Preclude Testimony Regarding Any and All Regulatory Actions Against Ocwen
Loan Servicing, LLC, ECF No. 189; Defendants’ Motion
in Limine to Preclude Evidence of Prior Unproven Allegations and Prior Findings Relating to Ocwen, ECF
No. 191. The court held that the consent orders, while
not admissible to show Ocwen’s bad character, were
admissible for other purposes. See ECF No. 256 (granting in part and denying in part Ocwen’s Motion in
Limine to Preclude Testimony Regarding Any and All
Regulatory Actions Against Ocwen Loan Servicing,
LLC). Specifically, the court concluded that Saccameno
had identified at least two permissible purposes for introducing the evidence: (1) to show that Ocwen had
prior notice of problems with its loan servicing practices; and (2) to show Ocwen’s obligations under the
consent orders (with a view toward showing Ocwen’s
failure to abide by those obligations). Id. at 3 & 6. The
court explained that such evidence was relevant to establishing Ocwen’s liability under ICFA, as well as to
the issue of punitive damages. Id. at 3-4. The court
acknowledged that the exhibits were potentially prejudicial to Ocwen; and with respect to all of the other
consent orders and related documents proffered by
Saccameno, the court agreed that the potential prejudice outweighed the documents’ probative value. In the
case of Exhibits P42 and P44, however, the court held
that the documents’ probative value predominated. Id.
at 6. The court identified specific paragraphs of the

App. 94
exhibits that were admissible, and ordered that all
other material in the documents be redacted. Id. at 45.
On the first day of trial, Saccameno’s counsel questioned Gina Feezer regarding Exhibit P44. See Tr.
359:1-374:1. Feezer stated that she had no knowledge
of the document. See, e.g., Tr. 358:12-18; Tr. 365:4-8. As
a result, the court ultimately held that Saccameno had
failed to lay the foundation for the exhibit’s admission
into evidence. Later in the trial, on April 6, 2018, Saccameno requested that the court take judicial notice of
Exhibits P42 and P44. See Tr. 609:6-12. The parties
subsequently briefed the issue. See ECF Nos. 267 &
268. On April 9, 2018, after Ocwen had rested its case,
the court stated that it would grant Saccameno’s request for judicial notice, provided that Saccameno furnish the court with properly redacted versions of the
exhibits. Tr. 980:11-14. On April 10, before the parties
delivered their closing arguments, the court reiterated
its ruling. Tr. 1022:14-16. Both parties referred to the
exhibits in their closing arguments. In addition, the
court included the following in the instructions read to
the jury:
I have taken judicial notice of two regulatory
settlements involving Ocwen that were
signed in December 2013 and December 2014
in which Ocwen compromised disputed
claims. I have admitted into evidence portions
of those documents for your consideration in
this case. This evidence is not being offered for
the truth of the contents but to indicate that

App. 95
certain issues were brought to Ocwen’s attention. The documents state that Ocwen was not
admitting any liability.
Jury Inst. 15.50; see also Tr. 1151:9-16.19
B. Discussion
Ocwen claims that the court committed multiple
errors in admitting Exhibits P42 and P44 into evidence. In particular, Ocwen asserts that: (1) the consent orders were inadmissible because they were
19

Saccameno claims that the court’s decision to take judicial
notice of the exhibits was based on the fact that Ocwen had “attempt[ed] to sandbag the trial by having its corporate representative [i.e., Feezer] disavow knowledge of these documents to avoid
discussing potentially damaging evidence.” Rule 59(a) Resp. Br.
6. That is incorrect. In point of fact, the court expressly rejected
this argument when Saccameno raised it during the proceedings:
[MR. WOOTEN:] The problem that we had is, we
were thwarted on our questioning by their rep’s lack of
knowledge, so we couldn’t get into that.
THE COURT: But I don’t put on the case. You do. . . .
I mean, this case has been going on for many years. I
don’t know why we didn’t—you know, I just don’t know
why we had a corporate representative who couldn’t
speak to these things. I don’t know.
MR. WOOTEN: I don’t either. And if I had known
that that was going to be claimed here, obviously I
would have subpoenaed someone. We brought a corporate rep by agreement. That’s why I said I think judicial notice is appropriate.
THE COURT: No, I don’t think the fact that the lawyers failed to get all the ducks lined up means that I
can ignore the rules of evidence.
Tr. 979:13-980:4.

App. 96
irrelevant to the litigation and highly prejudicial; (2)
the consent orders were not subject to judicial notice;
and (3) that it was especially improper for the court to
take judicial notice of the consent orders after the close
of the evidence. The court addresses these arguments
in turn.
1. Relevance & Prejudice
Ocwen begins by asserting that Exhibits P42 and
P44 were inadmissible because they were irrelevant to
the litigation. With respect to Exhibit P42, Ocwen first
contends that the CFPB consent judgment is irrelevant because it is concerned only with defects stemming from the company’s computer platform, which is
called “REALServicing.” According to Ocwen, defects
relating to REALServicing have nothing to do with
Saccameno’s case because the miscoding of her bankruptcy was purely the result of human error.
As an initial matter, this argument mischaracterizes the CFPB consent judgment. While the document
is centrally concerned with problems relating to REALServicing, it also refers more broadly to Ocwen’s
“[l]ack of controls related to general borrower account
management,” and to its [i]nadequate staffing and lack
of internal controls related to customer service.” Ex.
P42 at 6. The lack of such controls in Ocwen’s account
management and customer service were directly at issue in Saccameno’s case. In addition, Ocwen’s argument also mischaracterizes the record: the evidence at
trial did not establish that human error alone was

App. 97
responsible for the miscoding of Saccameno’s discharge
nor that Ocwen’s computer system played no role in
the error. As discussed previously, the record does not
disclose precisely how or why the miscoding occurred.
See Part II.D.1, supra. It is entirely possible that
Ocwen’s computer platform was in some way involved
in the miscoding. Moreover, even assuming that REALServicing was not responsible in any way for the
miscoding of Saccameno’s bankruptcy discharge,20
problems with the computer platform may well have
been implicated in Ocwen’s subsequent failure to remedy the error. And finally, even assuming that the miscoding—and Ocwen’s subsequent failure to correct it—
could be completely chalked up to human error, it
would not follow that the other problems with Saccameno’s account (i.e., Ocwen’s miscalculation of how
many payments Saccameno had made and when the
payments were due) likewise resulted exclusively from
human error. On this record, it can reasonably be inferred that the latter problems involved REALServicing.
Ocwen also argues that the CFPB consent judgment is irrelevant because it contains a clause stating
that it may not be considered an admission by Ocwen
20

In support of this claim, Ocwen cites “Stipulated Undisputed Facts” 22-27. See Rule 59(a) Br. 6. However, the docket entry to which Ocwen cites, ECF No. 161, is Ocwen’s Motion for
Leave to Amend its Answer to Plaintiff ’s Second Amended Complaint, and does not include the parties’ stipulations. The stipulations are set forth in the parties’ proposed pretrial order, see ECF
No. 174 at 2-4, but these do not include any stipulation that human error was solely responsible for the miscoding error.

App. 98
of the allegations in the complaint or as evidence of
Ocwen’s liability. See, e.g., Ex. P42 at 5 (“Ocwen enters
into this Agreement solely for the purpose of resolving
disputes with the State Mortgage Regulators concerning their findings as communicated in the Reports of
Examination in their entirety and without admitting
any allegations or implications of fact, and without admitting any violations of applicable laws, regulations,
or rules governing the conduct and operation of its
mortgage servicing business.”).21 Given this disclaimer,
Ocwen says, it was “improper to allow the jury to consider the document as evidence that Ocwen had notice

21

The consent judgment includes another clause stating the
Ocwen enters into the agreement “without trial or adjudication of
issue of fact or law [and] without this Consent Judgment constituting evidence against Defendant.” CFPB Consent Judgment 8.
The court does not read this as an absolute prohibition on the use
of the consent judgment as evidence, but rather as forbidding the
use of the agreement as evidence of liability. The case cited by
Ocwen on this point, Daniel v. Cook County, 833 F.3d 728 (7th
Cir. 2016), is not to the contrary. There, the plaintiff sought to use
an agreed order between Cook County and the United States as
evidence in support of a Monell claim asserting inadequate health
care in Cook County Jail. The agreed order included a provision
stating that it “would not be admissible against Defendants except in a proceeding involving the parties” to the order. Id. at 743
(internal quotation marks omitted). Based on this and other provisions in the document, the court held that the district court did
not err in declining to take judicial notice of the agreed order. Unlike Saccameno, however, the plaintiff in Daniel specifically asked
the court “to take judicial notice of the facts asserted in the Agreed
Order.” Id. at *4 (N.D. Ill. May 15, 2015) (emphasis added). Nothing in Daniel suggests that the clause precluded the use of the
decree as evidence for the purposes at issue in this case.

App. 99
of problems with its loan servicing practices.” Rule
59(a) Br. 7-8.
As an initial matter, this argument is not sufficiently developed—Ocwen devotes a mere two sentences to it—and has therefore been forfeited. See, e.g.,
Mahaffey v. Ramos, 588 F.3d 1142, 1146 (7th Cir. 2009)
(“Perfunctory, undeveloped arguments without discussion or citation to pertinent legal authority are
waived.”). Without further elaboration, the logic of the
argument is elusive. The CFPB consent judgment’s allegations are relevant to the issue of notice regardless
of whether Ocwen disputes their truth. Put differently,
even if Ocwen believed that the state regulators’ findings were mistaken, the consent orders nonetheless
show that the regulators had made Ocwen aware of
their concerns. See, e.g., In re: E. I. Du Pont De Nemours
& Co. C-8 Pers. Injury Litig., No. 2:13-CV-170, 2016 WL
659112, at *54 (S.D. Ohio Feb. 17, 2016) (“The Consent
Decree was offered as evidence that DuPont had
knowledge that the EPA believed DuPont’s handling of
C-8 was deficient—not that its handling of C-8 was
actually deficient.”); Jones v. City of Hartford, 285
F. Supp. 2d 174, 185 (D. Conn. 2003) (complaints and
consent decree were admissible when “considered for
the fact that the City and the police department knew
that citizens were accusing its officers of using excessive force in the course of their duties”).
The court additionally notes that, irrespective of
the consent order’s relevance to the issue of notice, the
disclaimer does not affect the exhibit’s relevance as
proof of Ocwen’s obligations under the consent

App. 100
judgment. As discussed above, Saccameno sought to
show that Ocwen failed to adhere to these obligations
in servicing Saccameno’s loan and that Ocwen therefore violated ICFA. When used for this purpose, it is
irrelevant whether Ocwen disputes the consent judgment’s factual recitations regarding Ocwen’s past conduct. See Lowry, 2016 WL 4593815, at *9 (“Defendant
also points out that it did not admit any misconduct in
either settlement. But this argument is also a canard.
Plaintiffs’ invocation of the settlements has nothing to
do with the wrongdoing alleged in those cases. What
Plaintiffs do claim is (1) that Defendant’s actions in
this case run afoul of the terms of the settlements; and
(2) that those actions are therefore ‘unfair’ under the
ICFA.”) (citation and quotation marks omitted). What
matters is only what Ocwen’s going-forward obligations were under the consent order. Ocwen does not
dispute Saccameno’s claims regarding the obligations
imposed by the consent orders.
With respect to Exhibit P44, Ocwen claims that
the NYSDFS consent order is irrelevant to Saccameno’s case because it was concerned with Ocwen’s
servicing of loans in New York and its violation New
York law regarding foreclosure proceedings. See Rule
59(a) Br. 7. Again, Ocwen’s characterization of the document is incorrect: while the NYSDFS order is principally concerned with Ocwen’s conduct in connection
with foreclosures in New York, its scope is not entirely
confined to those matters. Like the CFPB consent judgment, the NYSDFS consent order arose out of the
broader multistate investigation into Ocwen’s loan

App. 101
servicing practices. As a result, the NYSDFS consent
order makes reference to many of the same general
problems noted in the CFPB consent judgment. See Ex.
P44 at 3 (“In 2010 and 2011, the Department participated in a multistate examination of Ocwen [that] . . .
identified, among other things, deficiencies in Ocwen’s
servicing platform and loss mitigation infrastructure,
including . . . failure to properly maintain books and
records.”). Notwithstanding its emphasis on New York,
therefore, Exhibit P44 is relevant to showing Ocwen’s
notice of regulators’ concerns with its loan servicing
practices.
Ocwen goes on to argue that Exhibits P42 and P44
both lack relevance because both were executed after
the miscoding of the bankruptcy discharge in Saccameno’s case. Specifically, Ocwen observes that the
miscoding took place in July 2013—six months before
Ocwen entered into the CFPB consent judgment (December 2013) and eighteen months before Ocwen entered into the NYSDFS consent order (December
2014). As a result, Ocwen concludes, the “documents
could not possibly be probative of whether Ocwen had
complied with its going-forward obligations or was evidence of Ocwen’s awareness of problems with its loan
servicing practices at the time of the miscoding.” Rule
59(a) Br. 7 (quotation marks omitted).
One problem with this argument is that, although
the miscoding and other errors in Saccameno’s case occurred prior to the CFPB consent judgment, Ocwen’s
failure to correct the errors spanned the ensuing eighteen months—and thus continued after Ocwen’s entry

App. 102
into the consent judgment. If Ocwen had complied with
its obligations under the CFPB consent judgment, it
can reasonably be inferred that it would have discovered and corrected the problems with Saccameno’s account sooner. Conversely, the fact that Ocwen failed to
discover and correct the problems can be regarded as
evidence of Ocwen’s failure to comply with its obligations under the CFPB consent order. Exhibit P42 thus
remains relevant to the compliance issue despite the
fact that it was executed in December 2013.
In any case, both exhibits are relevant to the issue
of notice. Although Ocwen did not enter into either of
the agreements until after the miscoding in Saccameno’s case, both consent orders were based on the
multistate examination, which dated back to December 1, 2010. After the examination concluded in October 2011, the state mortgage regulators issued reports
of their findings, and Ocwen had the opportunity to respond. See CFPB consent judgment at 4-5. Ocwen thus
had notice of the regulators’ concerns well before it entered into the consent orders, and well before the problems arose in Saccameno’s case.
Finally, in addition to the issue of relevance,
Ocwen argues that the consent orders are inadmissible
because they constitute evidence of prior bad acts under Federal Rule of Evidence 404(b) and because they
are unfairly prejudicial under Federal Rule of Evidence 403. Although the court previously addressed
these objections in ruling on Ocwen’s motion in limine
seeking to exclude the exhibits, Ocwen contends that
the court “erred by failing to analyze or explain how

App. 103
any probative value the Court discerned from these exhibits outweighed the substantial unfair prejudice, as
required under both Rules 404(b) and 403.” Rule 59(a)
Br. 8, ECF No 312. The court disagrees. In ruling on
Ocwen’s motion, the court examined each of Saccameno’s proposed exhibits and explained the basis for
its determinations with respect to each. The court
acknowledged the documents’ potentially prejudicial
effect and, as noted above, the court agreed that in the
case of most of the proposed exhibits, the potential
prejudice outweighed the documents’ probative value.
With respect to Exhibits P42 and P44, however, the
court concluded that, having examined the documents
in light of the facts of the case, the documents’ probative value outweighed the potential prejudice. See ECF
No. 256 at 4 & 6.
In short, Exhibits P42 and P44 were neither irrelevant nor unfairly prejudicial, and the court committed no error in admitting them into evidence.
2. Judicial Notice
Next, Ocwen argues that it is entitled to a new
trial because the court erred in taking judicial notice
of the consent orders. Ocwen begins with the categorical assertion that consent orders are not properly subject to judicial notice. Rather, according to Ocwen,
courts may take judicial notice only of decisions in
other court or administrative proceedings. See Rule
59(a) Br. 10 (“[W]hile a court may take judicial notice
of decisions in other court or administrative

App. 104
proceedings, neither the CFPB Consent Judgment or
the NYSDFS Consent Order are judicial or administrative decisions.”) (citation omitted). This contention
is without merit. The case on which Ocwen relies,
Opoka v. I.N.S., 94 F.3d 392 (7th Cir. 1996), is inapposite. Opoka merely acknowledged the “well-settled
principle that the decision of another court or agency,
including the decision of an administrative law judge,
is a proper subject of judicial notice.” Id. at 394. Nothing in the opinion suggests that judicial and administrative decisions are the only documents of which
courts may take judicial notice, or that judicial notice
of consent orders is verboten.
On the contrary, that courts may take judicial notice of consent orders and similar agreements is settled
beyond peradventure. See, e.g., Vill. of DePue, Ill. v. Viacom Int’l, Inc., 713 F. Supp. 2d 774, 776 n.3 (C.D. Ill.
2010) (“Judicial notice of the Consent Order is appropriate here, as its terms are not subject to reasonable
dispute.”) (citing GE Capital Corp. v. Lease Resolution
Corp., 128 F.3d 1074, 1081–82 (7th Cir. 1997)); see also
Commodity Futures Trading Comm’n v. Co. Petro Mktg.
Grp., Inc., 680 F.2d 573, 584 (9th Cir. 1982) (taking judicial notice of consent judgments entered against defendant because “evidence was relevant to show
Goldstein’s familiarity with commodities laws and was
admissible to rebut Goldstein’s contention that Co.
Petro’s actions were, at worst, innocent, technical violations”); Shadow v. Midland Credit Mgmt., Inc., No.
3:17-CV-02277-L-BLM, 2018 WL 4357980, at *3 n.1
(S.D. Cal. Sept. 13, 2018) (consent decree between

App. 105
CFPB and Midland Credit Management); Spence v.
Basic Research, No. 2:16-CV-925-CW, 2018 WL
1997310, at *6 (D. Utah Apr. 27, 2018) (taking judicial
notice of consent order between defendants and the
Federal Trade Commission); In re Deutsche Bank Aktiengesellschaft Sec. Litig., No. 16CIV3495ATBCM,
2017 WL 4049253, at *4 (S.D.N.Y. June 28, 2017) (taking judicial notice of consent order between Deutsche
Bank and the NYSDFS). In fact, as the court pointed
out during colloquies with the parties, at least one decision has taken judicial notice of the very CFPB consent judgment at issue in this case. See Gonzalez v.
Ocwen Home Loan Servicing, No. 3:14-CV-53 CSH,
2015 WL 2124365, at *2 n.6 (D. Conn. May 6, 2015).
Ocwen goes on to assert that insofar as judicial notice of the consent orders was permissible, the court
was “[a]t most . . . authorized . . . to take judicial notice
of the existence of the consent judgments, not disputed
facts within them.” Rule 59(a) Br. 11.22 But the court
did not take judicial notice of any disputed facts in the
consent orders. As already noted, the court made clear
22

The court notes that this argument is raised only with respect to the CFPB consent judgment. Although the reason for this
is unclear, it is perhaps because, unlike the CFPB consent judgment, the NYSDFS consent order contains no clause disclaiming
liability or refusing to admit the factual assertions in the document. On the contrary, the NYSDFS order’s prefatory paragraphs
specifically state that the parties agree to the statements subsequently outlined in the document. Ex. P44 at 2 (“NOW, THEREFORE, to resolve this matter, the Parties agree to the
following. . . .”). Nevertheless, the court’s limiting instruction applied to both exhibits, and Saccameno was not permitted to rely
on the NYSDFS consent order’s factual allegations for their truth.

App. 106
in its pretrial rulings and in its instructions to the jury
that the consent orders were “not being offered for the
truth of the contents but to indicate that certain issues
were brought to Ocwen’s attention.” Tr. 1151:9-16; Jury
Inst. 15.50. Courts have routinely taken judicial notice
of consent orders for precisely this purpose. See, e.g.,
Microsoft Corp. v. Motorola, Inc., 795 F.3d 1024, 1055
(9th Cir. 2015) (“Consent decrees can be introduced . . .
to show notice or knowledge.”); Brady v. Wal-Mart
Stores, Inc., 531 F.3d 127, 136 (2d Cir. 2008) (“A consent
decree may properly be admitted to demonstrate that
a defendant was aware of its legal obligations.”) (citations omitted); Petro Mktg. Grp., Inc., 680 F.2d at 584;
Dent v. U.S. Tennis Ass’n, Inc., No. CV-08-1533 RJD
VVP, 2008 WL 2483288, at *2 (E.D.N.Y. June 17, 2008)
(collecting cases). This remains true where, as here, the
document includes language disclaiming liability or
agreement with the order’s factual allegations. See,
e.g., Citibank, N.A. v. York, No. 2:17-CV-90-GZS, 2018
WL 2416587, at *2 n.13 (D. Me. May 29, 2018) (taking
judicial notice of a consent judgment containing similar clause indicating that it was made “without trial or
adjudication of issue of fact or law”).
Nevertheless, Ocwen insists that despite the
court’s pretrial rulings, Saccameno’s counsel used the
exhibits at trial for the truth of matters asserted. According to Ocwen, “[i]n closing argument, counsel
for Saccameno walked the jury paragraph by paragraph through the CFPB Consent Judgment ‘findings’
and argued that Ocwen had a ‘[l]ack of controls related

App. 107
to general borrower account management, misapplication of borrower payments, inaccurate escrow accounting and statements, inadequate staffing, lack of
internal controls.’ ” Rule 59(a) Br. 11-12 (citing Trial Tr.
1054:3-19). Ocwen further complains that, during his
rebuttal argument, Saccameno’s counsel referred to
Ocwen’s servicing “obligations” stemming from the
regulatory action. Id. at 12 (citing Trial Tr. 1044:181045:23). According to Ocwen, “its compliance with the
[CFPB] Judgment was irrelevant to the legal issues in
Saccameno’s case and not a ‘fact’ that the jury should
have heard about.” Id. (emphasis omitted).
This argument founders at the outset because
Ocwen failed to make any contemporaneous objection
on this point at trial. See, e.g., Venson v. Altamirano,
749 F.3d 641, 657 (7th Cir. 2014) (by failing to object at
the time, defendant waived argument that counsel’s
remarks during closing argument violated district
court’s motion in limine); Merix Pharm. Corp. v. Clinical Supplies Mgmt., Inc., 106 F. Supp. 3d 927, 933 (N.D.
Ill. 2015) (“A party forfeits any post-trial challenge to
opposing counsel’s arguments by failing to object at
trial.”). Ocwen made two objections during Saccameno’s closing, but neither of these pertained to Exhibits P42 or P44, much less asserted that Saccameno
had used the exhibits improperly. See Tr. 1029:19-20
(objecting to Saccameno’s counsel’s references to his
“life story”); Tr. 1138:2-9 (objecting to Saccameno’s
counsel’s remark that “if you accept [Ocwen’s] behavior
and you say it’s okay, then tomorrow they will file that
foreclosure again, and they will be right back on top of

App. 108
her doing these same things again”). “Neither a general objection to the evidence nor a specific objection on
other grounds will preserve the issue for review.”
Naeem v. McKesson Drug Co., 444 F.3d 593, 610 (7th
Cir. 2006) (citations and quotation marks omitted). Rather, “a party must make a proper objection at trial
that alerts the court and opposing party to the specific
grounds for the objection.” Id. (citations and quotation
marks omitted). For this reason, Ocwen has forfeited
any objection to statements by Saccameno’s counsel
during closing and rebuttal arguments.
That said, Ocwen’s argument fails on the merits
as well. Notwithstanding Ocwen’s insistence to the
contrary, Saccameno’s counsel’s use of Exhibits P42 or
P44 was not improper. For example, Ocwen’s claim that
“counsel for Saccameno walked the jury paragraph by
paragraph through the CFPB Consent Judgment ‘findings,’ ” Rule 59(a) Br. 11-12 (quoting Tr. 1054:3-12.), is
untrue. Saccameno’s counsel characterized the paragraphs not as “findings” but as what the regulators told
Ocwen.23 See, e.g., Tr. 1054:8-12 (“Here’s what these
regulators told Ocwen. ‘Lack of controls related to
23

In contrast to his references to the CFPB consent judgment, Saccameno’s counsel characterized certain of the statements in the NYSDFS consent order as “findings.” See, e.g., Tr.
1042:21-24 (“Here’s what one regulator found. ‘Ocwen’s information technology systems are a patchwork of legacy systems and
systems inherited from acquired companies, many of which are
incompatible.’ ”); Tr. 1044:2-4 (“[T]his regulator found deficiencies
in Ocwen’s servicing platform and loss mitigation infrastructure
including a failure to properly maintain books and records.”).
However, Ocwen’s argument on this point is directed only at the
CFPB consent judgment.

App. 109
general borrower account management, misapplication of borrower payments, inaccurate escrow accounting and statements, inadequate staffing, lack of
internal controls.’ ”).24
The court likewise finds nothing amiss in the remark by Saccameno’s counsel during his rebuttal argument that he “ ‘didn’t hear any evidence’ that Ocwen
complied with the CFPB Consent Judgments [sic].”
Rule 59(a) Br. 12 (citing Tr. 1187:9). According to
Ocwen, this comment was improper because Ocwen’s
“compliance with the Judgment was irrelevant to the
legal issues in Saccameno’s case and not a ‘fact’ that
the jury should have heard about.” Id. As already
24

Ocwen separately maintains that these statements constitute hearsay because Saccameno told “the jury that the exhibits
showing [sic] ‘what the regulators told Ocwen’ was the truth
about the functionality, or dysfunctionality, of Ocwen’s loan servicing platforms.” Rule 59(a) Br. 12. Like Ocwen’s other arguments on this score, this argument is forfeited because Ocwen
failed to make a specific objection to this effect during Saccameno’s closing argument. See, e.g., Naeem v. McKesson Drug
Co., 444 F.3d 593, 610 (7th Cir. 2006); Holmes v. Elgin, Joliet &
E. Ry. Co., 18 F.3d 1393, 1398 (7th Cir. 1994). The argument also
fails because, as already explained, Saccameno did not cite the
consent orders for the truth of matters asserted. See, e.g., In re:
E. I. Du Pont De Nemours, 2016 WL 659112, at *54 (“[T]he Consent Decree is not inadmissible hearsay, i.e., it is not being offered
for the truth of the matters asserted in it. Indeed, the jury was
expressly instructed that it was not to consider the Consent Decree as evidence of DuPont’s liability, and as such, it was properly
admitted into evidence for the limited purpose permitted by the
Court.”); Acree v. Watson Pharm., Inc., No. 10 C 7812, 2012 WL
5893486, at *8 (N.D. Ill. Nov. 23, 2012) (reports would be hearsay
if offered for their truth but were properly admissible to show notice on defendants’ part).

App. 110
explained, however, the question of whether Ocwen
complied with the CFPB consent judgment bears directly on its liability under ICFA, as well as Saccameno’s request for punitive damages. See Part II.C.2,
supra. As for Ocwen’s claim that Saccameno presented
Ocwen’s failure to comply with the CFPB consent judgment as a “fact,” the nature of Ocwen’s objection is unclear. If the objection is that Saccameno assumed the
truth of factual statements in the consent judgment to
show Ocwen’s failure to comply with its obligations,
the argument fails as a matter of logic: since Ocwen’s
obligations became effective only after it entered into
the consent judgment, nothing in the consent judgment itself could be used to show Ocwen’s failure to
comply with the obligations. If, on the other hand, the
objection is that Saccameno’s counsel argued that
Ocwen’s conduct in her case showed Ocwen’s failure to
comply with its obligations under the CFPB consent
judgment, Ocwen asserts nothing improper, for such
an argument would not entail any presumption about
the truth of the exhibit’s factual statements.
Ocwen’s final objection is that the court erred in
taking judicial notice of Exhibits P42 and P44 after the
close of evidence. The court disagrees. As an initial
matter, there is nothing improper about taking judicial
notice of a document after the close of evidence. Federal Rule of Evidence 201 specifically provides that
“[t]he court may take judicial notice at any stage of the
proceeding.” Fed. R. Evid. 201(d) (emphasis added).
This includes taking judicial notice after the close of
evidence. As one treatise explains:

App. 111
Even without having requested judicial notice
in advance, a party who fails to offer evidence
relating to some important adjudicative fact
during her case-in-chief may still request notice of the fact. In this setting, judicial notice
of adjudicative facts can provide a remedy for
gaps in proof. Often courts take such notice in
ruling on post-trial challenges to the sufficiency of a party’s evidence. Such a request is
often appropriate in resisting a challenge by
the other side to the sufficiency of the evidence, commonly made by motion for judgment as a matter of law (or in some systems a
directed verdict or nonsuit). Courts can entertain such requests without insisting that the
requesting party first move to reopen its case.
Rule 201(f ) encourages this practice, and instructing a jury on the noticed fact does not
pose the same threat to the orderliness of the
trial process as allowing the party to call new
witnesses.
Mueller & Kirkpatrick, 1 Federal Evidence § 2:8 (4th
ed.); see also Grp. One, Ltd. v. Hallmark Cards, Inc., 407
F.3d 1297, 1306 (Fed. Cir. 2005) (“Hallmark argues
that the district court could not take judicial notice of
the ‘752 patent’s reinstatement because it occurred after the close of evidence. This argument fails because
Federal Rule of Evidence 201(f ) clearly states that
‘[j]udicial notice may be taken at any stage of the proceeding.’ ”); Coleman v. Schwarzenegger, No. C01-1351
TEH, 2009 WL 2407404, at *2 (E.D. Cal. Aug. 4, 2009)
(taking judicial notice of assembly bills and governor’s
vetoes after close of evidence).

App. 112
Ocwen’s objection is that by taking judicial notice
after the close of evidence, it had no opportunity to explain or rebut the exhibits. For several reasons, this argument is unpersuasive. First, given the court’s
rulings on Ocwen’s motions in limine, there was every
reason to believe prior to the start of trial that Exhibits
P42 and P44 would be admitted into evidence. The exhibits were later deemed inadmissible only because
Saccameno’s counsel failed to lay a proper foundation.
Perhaps Ocwen anticipated this eventuality. Nevertheless, it would have been reckless for Ocwen to have assumed at the outset that it would be unnecessary to
address the exhibits as part of its defense. Further,
Saccameno’s request for judicial notice was pending at
the time Ocwen presented its case. Thus, while the final decision was not made until after the close of evidence, Ocwen was fully aware before putting on its
case that the exhibits might come into evidence.25
25

Ocwen similarly suggests that it was disadvantaged because the court changed its opinion regarding whether Exhibits
P42 and P44 could go back to the jury during their deliberations.
Specifically, Ocwen asserts that the court initially “ruled that the
exhibits could be mentioned in closing argument but would not go
back to the jury during deliberations,” but that “hours later, after
Defendants had made their closing arguments, the Court again
changed its mind and decided to provide the exhibits to the jury
with a limiting instruction.” Rule 59(a) Br. 14. This is misleading,
to put it nicely. The court’s initial statement that the exhibits
would not go back to the jury was expressly based on the fact that
the court had yet to receive redacted versions of the proposed exhibits. Thus, after stating that the exhibits would not go back to
the jury, the court immediately went on to say that redacted versions of the documents could go back to the jury. See Tr. 1023:912 (“[Exhibits P42 and P44] cannot go to the jury, okay. You can

App. 113
Second, despite its protestations to the contrary,
Ocwen had the opportunity to address the exhibits. In
his closing argument, Ocwen’s counsel discussed Exhibit P42. He highlighted the consent order’s disclaimer and emphasized that by agreeing to the order,
Ocwen had not admitted liability or agreed to the truth
of the state regulators’ purported factual findings. See
Tr. 1110:14-1111:6. Rather, he argued, Ocwen entered
into the consent orders only to avoid a protracted legal
battle with the government. See Tr. 1111:6.26

just use them in argument, okay? I don’t think they ought to go
back to the jury unless I see a very expurgated version, which is
just the admissible portions.”).
26
Ocwen points out that, in response to Saccameno’s motion
for reconsideration, the court allowed additional paragraphs from
the consent judgment to be included in Exhibit P42. The paragraph in question referenced the state mortgage regulators’ reports that Ocwen suffered from “Lack of controls related to
general borrower account management, including but not limited
to: [1] Misapplication of borrower payments; [2] Inaccurate escrow accounting and statements; and [3] Assessment of unauthorized fees and charges. [d] Inadequate staffing and lack of internal
controls related to customer service; [g] Deficiencies in management control and supervision necessary to ensure compliance
with applicable laws and regulations.” Ex. P42 at 6-7. Ocwen complains that it had no chance to respond to Saccameno’s counsel’s
references to these passages of Exhibit 42. This might leave the
false impression that it was the timing of the court’s ruling on the
motion to reconsider that prevented Ocwen responding to these
passages. The court ruled on the motion to reconsider before
Ocwen put on its case-in-chief. See Tr. 948:3-11; see also ECF No.
270 (minute order granting in part Saccameno’s motion to reconsider). If Ocwen had no opportunity to respond to these portions
of the exhibit, it was only because Saccameno’s counsel refrained
from referring to them until his rebuttal argument.

App. 114
Finally, Ocwen fails to specify any way in which it
might have defended the case differently if it had been
aware earlier in the proceedings that the court would
take judicial notice of the exhibits. Notably, Gina
Feezer was the only witness on Ocwen’s witness list.
See Pretrial Order at 7, ECF No. 174. Given her repeated testimony that she had no knowledge of the
consent orders, nor any knowledge of concerns raised
by state regulatory agencies regarding Ocwen’s loan
servicing practices, see, e.g., Tr. 359:21-360:3; Tr.
545:15-20; 552:24-553:21, it is difficult to imagine how
Ocwen might have addressed the exhibits if the court
had issued its ruling sooner.
In sum, Ocwen has failed to show that the court
erred in taking judicial notice of the consent orders or
that Saccameno used the exhibits for purposes inconsistent with those delineated in the court’s pretrial rulings.
4. Additional Issues
Before concluding, the court briefly addresses two
miscellaneous issues raised in Ocwen’s motion for a
new trial.
The first of these pertains to the cases that the
court cited in taking judicial notice of the consent orders: Gonzalez v. Ocwen Home Loan Servicing, No.
3:14-CV-53 CSH, 2015 WL 2124365 (D. Conn. May 6,
2015), and Lowry v. Wells Fargo Bank, N.A., No. 15 C
4433, 2016 WL 4593815 (N.D. Ill. Sept. 2, 2016). Ocwen
argues that the cases are inapposite because neither

App. 115
decision considered the admissibility of consent orders
at trial or the propriety of taking judicial notice of consent orders’ contents. Rule 59(a) Br. 12-13. This argument mistakes the purposes for which the court cited
the decisions. The court cited Gonzalez only to address
Ocwen’s sweeping claim that consent orders are not
properly subject to judicial notice. Given that Gonzalez
took judicial notice of the very CPFB consent judgment
at issue in this case, the decision is directly on point.
The court cited Lowry to address Ocwen’s claim that
the consent orders were not relevant to Saccameno’s
case. In Lowry, it will be recalled, the plaintiff alleged
that Wells Fargo had violated ICFA by failing to comply with the provisions of a national settlement and
consent decree that, like the CFPB and NYSDFS consent orders at issue here, pertained to improper mortgage servicing practices. The Lowry court held that if
the complaint’s allegations were true, Wells Fargo’s
conduct would offend public policy and would qualify
as “unscrupulous” conduct for purposes of an ICFA unfairness claim. 2016 WL 4593815, at *9. Lowry is relevant because Saccameno makes a parallel argument
here, contending that Ocwen has engaged in unfair
conduct under ICFA by failing to comply with the
CFPB and NYSDFS consent orders. See Tr. 978:19979:1.
The second residual issue has to do with Ocwen’s
reference to a portion of the transcript where Ocwen’s
counsel stated that it was “outrageously prejudicial” to
allow Saccameno to use Exhibits P42 and P44 in her
closing argument, to which the court replied, “Yes, it

App. 116
is.” Tr. 982:23-25. Ocwen appears to attach great significance to the court’s acknowledgment that the consent orders were highly prejudicial. However, the
potentially prejudicial nature of the exhibits was never
in question. That is why the court exercised great care
in limiting the portions of the documents that could
come into evidence, and why the court instructed the
jury that the exhibits could be considered only for limited purposes. Rule 403, however, does not require the
exclusion of prejudicial evidence—even highly prejudicial evidence. It requires exclusion only where the evidence’s probative “value is substantially outweighed
by a danger of . . . unfair prejudice.” Fed. R. Evid. 403;
see also United States v. Krenzelok, 874 F.2d 480, 482
(7th Cir. 1989) (“[The evidence’s] probative value was
therefore great. Its prejudicial effect may well have
been great too. But when the trial judge is in doubt,
Rule 403 requires admission (this is the force of ‘substantially outweighed’ [in Rule 403]).”) (Posner, J.). The
consent orders here were highly probative with respect
to key issues in this case. This is especially true with
regard to Ocwen’s prior awareness of concerns regarding its handling of distressed loans such as Saccameno’s. As discussed above, Ocwen’s prior awareness
of such concerns was essential to showing that it acted
with the culpability and corporate complicity necessary to justify punitive damages. The court’s acknowledgment of the exhibits’ potentially prejudicial nature,
therefore, is fully consistent with its decision to admit
the exhibits into evidence. The danger of unfair prejudice resulting from the consent orders’ admission into

App. 117
evidence did not substantially outweigh the exhibits’
probative value.
C. Conclusion
For the reasons explained above, the court concludes that it did not err in admitting Exhibits P42 and
P44 into evidence. Accordingly, the court denies
Ocwen’s motion for a new trial.
IV.

Motion to Amend the Judgment

The third and final motion before the court is
Ocwen’s Rule 59(e) motion to amend the judgment.
“Amendment of the judgment is proper only when the
movant presents newly discovered evidence that was
not available at the time of trial or if the movant points
to evidence in the record that clearly establishes a
manifest error of law or fact.” Stragapede v. City of Evanston, Illinois, 865 F.3d 861, 868 (7th Cir. 2017) (quotation marks omitted). Ocwen argues that the
judgment entered in the case must be amended because the jury’s $3 million punitive damage award is
excessive. The motion asks that the court either reduce
the punitive damage award unilaterally or that the
court order a remittitur, requiring a new trial unless
Saccameno agrees to a reduction of the punitive damage award. For the reasons discussed below, the court
denies the motion.

App. 118
A. Discussion
To determine whether the jury’s award of punitive
damages is excessive, it is first necessary to determine
whether the award should be reviewed under state law
or federal law. Saccameno argues that the court should
apply state law. It is true that “Illinois law governs the
substantive assessment of whether the evidence supports the damages awarded when liability is based on
Illinois law.” See, e.g., Medcom Holding Co. v. Baxter
Travenol Labs., Inc., 106 F.3d 1388, 1397 (7th Cir.
1997). Ocwen’s argument, however, is not that the punitive damage award is unsupported by the evidence.
Instead, Ocwen maintains that the punitive damage
award is so excessive that it violates the Fourteenth
Amendment’s Due Process Clause. See Rule 59(e) Reply Br. 1-2. For purposes of this motion, therefore, federal constitutional law supplies the rule of decision.
As the Supreme Court has explained, the “Due
Process Clause of the Fourteenth Amendment prohibits the imposition of grossly excessive or arbitrary punishments on a tortfeasor.” State Farm Mut. Auto. Ins.
Co. v. Campbell, 538 U.S. 408, 416 (2003). This is because “[e]lementary notions of fairness enshrined in
our constitutional jurisprudence dictate that a person
receive fair notice not only of the conduct that will subject him to punishment, but also of the severity of the
penalty that a State may impose.” BMW of N. Am., Inc.
v. Gore, 517 U.S. 559, 574 (1996). In Gore, the Court
identified three guideposts for determining whether an
award of punitive damages comports with the requirement of due process and fair notice: “(1) the degree of

App. 119
reprehensibility of the defendant’s misconduct; (2) the
disparity between the actual or potential harm suffered by the plaintiff and the punitive damages award;
and (3) the difference between the punitive damages
awarded by the jury and the civil penalties authorized
or imposed in comparable cases.” State Farm, 538 U.S.
at 418. Applying these factors here, the court concludes
that the jury’s punitive damage award is not unconstitutional.
1. Reprehensibility
The Supreme Court has stated that “the most important indicium of the reasonableness of a punitive
damages award is the degree of reprehensibility of the
defendant’s conduct.” State Farm, 538 U.S. at 419 (quotation marks omitted). The Court has further instructed that, in assessing the reprehensibility of a
defendant’s conduct, courts should consider whether:
the harm caused was physical as opposed to
economic; the tortious conduct evinced an indifference to or a reckless disregard of the
health or safety of others; the target of the
conduct had financial vulnerability; the conduct involved repeated actions or was an isolated incident; and the harm was the result of
intentional malice, trickery, or deceit, or mere
accident.
Id. at 419. “The existence of any one of these factors
weighing in favor of a plaintiff may not be sufficient to
sustain a punitive damages award; and the absence of
all of them renders any award suspect. Id.

App. 120
The first two factors do not support Saccameno:
her injury was chiefly emotional, not physical; and
while Ocwen may have displayed a reckless disregard
for Saccameno’s emotional and psychological health, it
did not do so with regard to her physical health. However, the remaining three factors weigh in Saccameno’s
favor: given that she was emerging from bankruptcy,
she was highly vulnerable financially; Ocwen’s conduct
involved repeated actions (e.g., repeatedly failing to
correct Saccameno’s account; repeatedly seeking payment of funds it was not entitled to; repeatedly returning Saccameno’s payments); and, as discussed above,
there is evidence from which the jury could have concluded that Ocwen’s conduct was deceptive and, if not
malicious, grossly indifferent to Saccameno’s rights.
See Part II.D.1, supra. On balance, therefore, the reprehensibility of Ocwen’s conduct does not suggest that
the punitive damage award in this case was excessive.27
2. Disparity Between the Punitive Damage
Award and the Actual or Potential Harm
Suffered
The second Gore factor is the disparity between
the punitive damage award and the actual or potential
27

In addition to the reprehensibility factors specifically mentioned in Gore, Ocwen’s conduct raises public policy concerns.
Federal bankruptcy law has established complex procedural
mechanisms to assist individuals precisely in Saccameno’s position. Ocwen’s conduct completely subverted these purposes by
failing to honor her discharge.

App. 121
harm suffered by the plaintiff. This is typically expressed as a ratio of punitive damages to compensatory damages. The Supreme Court “has recognized
that in practice, ‘few awards exceeding a single-digit
ratio between punitive and compensatory damages . . .
will satisfy due process.’ ” E.E.O.C. v. AutoZone, Inc.,
707 F.3d 824, 839 (7th Cir. 2013) (quoting State Farm,
538 U.S. at 424-25). Nevertheless, the Court “has repeatedly declined to set a fixed ratio to limit punitive
damages based on constitutional grounds.” Id.
Of the claims at issue here, only Saccameno’s
ICFA claim allowed for the recovery of punitive damages. It might thus appear that the relevant comparison for purposes of the Gore inquiry is between the $3
million in punitive damages and $82,000 in compensatory damages awarded on Saccameno’s ICFA claim—
which would result in a ratio of roughly 37:1. However,
Ocwen and Saccameno each propose alternative formulations of the ratio. Ocwen contends that the court
should consider only the $12,000 in economic damages
awarded on Saccameno’s ICFA claim, which would
yield a ratio of 250:1. Saccameno says the court should
consider the compensatory damages awarded on all of
her claims—both the entire compensatory award for
her ICFA claim ($82,000), as well as the compensatory
damages awarded for her FDCPA, RESPA, and breach
of contract claims ($500,000). Saccameno’s formulation
results in a ratio of roughly 5:1. The first ratio—37:1—
is probably (though, as discussed below, not necessarily) unconstitutional; Ocwen’s proposed ratio of
250:1 is almost certainly unconstitutional; and

App. 122
Saccameno’s proposed ratio of 5:1 is very likely constitutional. Although the matter is not free from doubt,
the court concludes that the correct ratio is 5:1, though
not for the reasons Saccameno urges.
Ocwen’s 250:1 ratio can be rejected in fairly short
order. The arguments it asserts in support of its position are difficult to follow and amount to non sequiturs.
For example, Ocwen points out that under ICFA, punitive damages cannot be recovered without a showing
of pecuniary loss. While that is true, it does not explain
why other forms of compensatory damages awarded
under ICFA should be disregarded in assessing the
punitive/compensatory ratio. Ocwen also points out
that ICFA defines “actual damages” to mean “actual
pecuniary loss.” Once again, this is true but fails to explain why only the economic damages awarded on Saccameno’s ICFA claim should be considered for
purposes of the Gore inquiry. The relevant ratio, after
all, is not between punitive damages and actual damages but between punitive damages and compensatory
damages—and under ICFA, compensatory damages
encompass both economic and non-economic harm.
See, e.g., Dieffenbach v. Barnes & Noble, Inc., 887 F.3d
826, 829-30 (7th Cir. 2018) (observing that, under
ICFA, “if the plaintiff has suffered an economic loss,
noneconomic injuries are compensable”).
Ocwen has cited no case, and the court has found
none, in which a court reviewing the constitutionality
of a punitive damage award limited its comparison to
the economic component of a larger compensatory
award. In fact, case authority is to the contrary. See,

App. 123
e.g., McGinnis v. Am. Home Mortg. Servicing, Inc., 901
F.3d 1282, 1290 (11th Cir. 2018) (rejecting defendant’s
request to consider only economic damages, and to discount amount awarded for emotional distress, in conducting ratio analysis); Nance v. Kentucky Nat. Ins. Co.,
240 F. App’x 539, 549 (4th Cir. 2007) (rejecting defendant’s argument that court could compare the ratio only
between punitive damages and plaintiff ’s out-ofpocket damages, not the remaining compensatory
damages); Hammer v. Residential Credit Sols., Inc., No.
13 C 6397, 2015 WL 7776807, at *46 (N.D. Ill. Dec. 3,
2015) (same). At the very least, then, the punitive damage amount should be compared against both the economic and non-economic compensatory damages
awarded under Saccameno’s ICFA claim.
Somewhat more difficult is the question of
whether, as Saccameno maintains, the court should
compare the punitive damage figure with the cumulative amount of compensatory damages awarded on all
of her claims. The court has found no Seventh Circuit
authority directly addressing this issue.28 Ocwen cites
28

Ocwen’s citation to the Seventh Circuit’s decision in U.S.
ex rel. Pileco, Inc. v. Slurry Sys., Inc., 804 F.3d 889 (7th Cir. 2015),
is wide of the mark. The questions presented in Pileco had nothing to do with the punitive/compensatory damages ratio, much
less with whether compensatory damages may be combined for
purposes of assessing the ratio. The Pileco Court mentions the issue of punitive damages only in recounting the case’s procedural
history, observing that the trial court had been forced to order a
new trial after the jury awarded the plaintiff $20 million in punitive damages on an ICFA claim without awarding any compensatory damages. Given that punitive damages cannot be awarded
under ICFA absent a finding of actual damages, the verdict was

App. 124
a handful of decisions from other circuits, Quigley v.
Winter, 598 F.3d 938 (8th Cir. 2010); Bennett v. Am.
Med. Response, Inc., 226 F. App’x 725, 728 (9th Cir.
2007); Williams v. ConAgra Poultry Co., 378 F.3d 790
(8th Cir. 2004), as well as decisions from the Illinois
Court of Appeals, Dubey v. Pub. Storage, Inc., 918
N.E.2d 265 (Ill. App. Ct. 2009); Gehrett v. Chrysler
Corp., 882 N.E.2d 1102 (Ill. App. Ct. 2008), in which
courts assessed the punitive/compensatory ratio by
considering the compensatory damages only for the
claim on which punitive damages were awarded. Unfortunately, none of these decisions explains its reasoning for proceeding in this manner. Indeed, in all of
the cases except Gehrett, the courts do not even
acknowledge the question of whether the compensatory damages may be aggregated across claims, but instead simply assume that the compensatory damages
awarded on other claims should be excluded from the
calculus. And while Gehrett acknowledged the question, it offers no explanation for its conclusion that the
plaintiff ’s compensatory damage awards should not be
combined. See Gehrett, 882 N.E.2d at 1119; see also
Tomao v. Abbott Labs., Inc., No. 04 C 3470, 2007 WL
2225905, at *22 n.6 (N.D. Ill. July 31, 2007) (Nolan,
Mag. J.) (rejecting without further discussion the
plaintiff ’s “attempt to aggregate the awards among all
plainly defective. In passing, Pileco also remarked on the problems presented by the punitive/compensatory ratio of the first
jury’s award, noting not only that the ratio was excessive but that
the “ratio of $20 million to zero is not two to one or a hundred to
one or 20 million or any other number to one; it is undefined, like
any other division by zero.” Id. at 892.

App. 125
of her claims in an effort to make the ratio appear
smaller” and holding that “each claim must be viewed
separately.”) (citation omitted).
A small number of decisions from other circuits
have addressed the issue more squarely. Of these,
Fastenal Co. v. Crawford, 609 F. Supp. 2d 650 (E.D. Ky.
2009), is the most instructive. There, the plaintiff asserted several causes of action, including claims for
civil conspiracy and fraud. Id. at 656. On the civil conspiracy claim, the jury awarded the plaintiff $10,000 in
punitive damages and $100,000 in compensatory damages. On the fraud claim, the jury awarded an additional $10,000 in punitive damages but awarded no
compensatory damages. Id. at 657. Given that no compensatory damages were awarded on the fraud claim,
the court observed that the punitive damages awarded
on that count would be excessive if the claim were
viewed individually. The court therefore considered
whether the compensatory damages on the fraud claim
could be combined with the compensatory damages
awarded on the civil conspiracy claim. The court concluded that aggregation of the compensatory damage
awards was appropriate. In arriving at this conclusion,
the court noted that the Gore disparity inquiry requires comparing the punitive damage award with
both actual harm and potential harm resulting from
the defendant’s conduct. Id. at 661 (citing State Farm,
538 U.S. at 424; Gore, 517 U.S. at 582; TXO Prod. Corp.
v. Alliance Res. Corp., 509 U.S. 443, 460 (1993)). The
court reasoned that if the inquiry is “not limited to
compensatory damages that actually occurred in

App. 126
calculating the ratio, it follows that a court is not confined only to the compensatory damages under particular claims and instead can look at damages found by
a jury on related claims.” Id. at 661.
Of course, in Fastenal, the claims whose compensatory damages were combined both allowed recovery
for punitive damages. Here, the question is whether
aggregation of compensatory damages is appropriate
where one of the claims allows for punitive damages
and the others do not. However, several courts have
held that compensatory damages may be aggregated
under such circumstances, provided that the underlying claims are sufficiently related. See, e.g., Burton v.
Zwicker & Associates, PSC, 577 F. App’x 555, 564-65
(6th Cir. 2014) (aggregating backpay awarded on
claims for racial discrimination, retaliation, and
wrongful termination with emotional distress damages awarded on wrongful termination claim); Bains
LLC v. Arco Prod. Co., Div. of Atl. Richfield Co., 405 F.3d
764, 775-76 (9th Cir. 2005) (“On the facts of this case,
in determining the correct amount of punitive damages, the jury could properly consider not only the one
dollar in nominal damages awarded for discrimination
under § 1981, but also the $50,000 in compensatory
damages awarded for breach of contract. The conduct
was intertwined.”); Pollard v. E.I. DuPont De Nemours,
Inc., 412 F.3d 657, 668 (6th Cir. 2005) (upholding $2.5
million punitive damages award on claim for intentional infliction of emotional distress based on
$950,000 in compensatory damages awarded on that
claim as well as back pay and front pay under Title VII

App. 127
claims); but see JCB, Inc. v. Union Planters Bank, NA,
539 F.3d 862 (8th Cir. 2008) (separately considering
compensatory/punitive ratios for conversion and trespass claims because, “[a]lthough related, the wrongful
acts leading to the Bank’s trespass and conversion
were not identical”).
The court finds this line of authority persuasive.
Accordingly, the court concludes that it is appropriate
to combine the compensatory damages awarded on
Saccameno’s ICFA claim with those awarded on her
FDCPA, RESPA, and breach of contract claims. The
conduct underlying the claims is interrelated (though
not, as Saccameno maintains, “indivisible”) and the resulting harm had a cumulative effect. The relevant
comparison, therefore, is between $3 million in punitive damages and $582,000 in compensatory damages.
The resulting ratio of approximately 5:1 is well within
the single-digit range suggested by the Supreme
Court.
For completeness, the court considers the third option singled out above—comparing the $3 million in
punitive damages to the $82,000 in compensatory
damages awarded on Saccameno’s ICFA claim. As
noted, this results in a ratio of 37:1, which is significantly outside the single-digit range suggested by the
Supreme Court. Nevertheless, it is worth noting that
such a ratio is not necessarily unconstitutional. As previously noted, the Supreme Court has refused to fix
any particular ratio above which a punitive damage
award must be deemed unconstitutional. See, e.g.,
E.E.O.C., 707 F.3d at 839; see also Mathias v. Accor

App. 128
Econ. Lodging, Inc., 347 F.3d 672, 676 (7th Cir. 2003)
(quoting State Farm, 538 U.S. at 426) (“The Supreme
Court did not, however, lay down a 4-to-1 or singledigit-ratio rule—it said merely that ‘there is a presumption against an award that has a 145-to-1
ratio,’—and it would be unreasonable to do so.”) (citation omitted). And courts have upheld ratios comparable to or greater than 37:1. In Mathias, for example,
the plaintiffs alleged that they had been bitten by bed
bugs in one of the defendant’s hotels, and were each
awarded punitive damages of $186,000 and compensatory damages of $5,000. The Seventh Circuit held that
the 37:1 ratio of punitive to compensatory damages
was constitutional. Id. at 677; see also Daugherty v.
Ocwen Loan Servicing, LLC, 701 F. App’x 246, 248 (4th
Cir. 2017) (upholding 98:1 ratio in suit under Fair
Credit Reporting Act based on $600,000 in punitive
damages and $6,128.39 in compensatory damages);
Kemp v. Am. Tel. & Tel. Co., 393 F.3d 1354, 1365 (11th
Cir. 2004) (upholding a 725:1 ratio in RICO suit based
on $250,000 in punitive damages and $345 in compensatory damages); Jeffries v. Wal-Mart Stores, Inc., 15 F.
App’x 252, 255 (6th Cir. 2001) (upholding ratio of 50:1
in suit alleging discrimination and retaliation based on
$425,000 in punitive damages and $8,500 in compensatory damages).
These cases can no doubt be distinguished from
Saccameno’s in various ways. Chief among these is the
fact that these cases involved relatively small compensatory damage awards. Courts have held that larger
punitive/compensatory ratios are permissible where

App. 129
plaintiffs have recovered only modest compensatory
damages, since adhering to a single-digit ratio in such
cases would result in punitive damage awards too
modest to have a significant deterrent effect. See, e.g.,
Cooper v. Casey, 97 F.3d 914, 919–20 (7th Cir. 1996)
(“The smaller the compensatory damages, the higher
the ratio of punitive to compensatory damages has to
be in order to fulfill the objectives of awarding punitive
damages. . . . An award of punitive damages proportioned to the low compensatory damages that were
awarded would have a very meager deterrent effect.”).
Courts have similarly recognized that “[w]here only
small compensatory damages are awarded, a larger
punitive sum may be warranted to give plaintiffs an
incentive to sue.” Mathias, 347 F.3d at 677; see also
Gavin v. AT & T Corp., 464 F.3d 634, 641 (7th Cir. 2006)
(“The proper focus of analysis of the ratio itself is the
adequacy of the combined award of compensatory and
punitive damages to motivate the prosecution of a meritorious claim. If compensatory damages are slight, a
single-digit ratio is likely to be insufficient.”).
In Saccameno’s case, it might be argued, there is
no justification for a such large ratio because she has
been awarded more than $500,000 in compensatory
damages. But this argument depends, once again, on
whether Saccameno’s compensatory damages are
viewed separately or in the aggregate. If one considers
the compensatory damages awarded only on her ICFA
claim, hewing to, say, a 5:1 ratio would cap her punitive
damages at roughly $500,000. Such an amount is not
insignificant; but it is unclear whether it is substantial

App. 130
enough to have a meaningful deterrent effect on a corporation of Ocwen’s size. If, on the other hand, Saccameno’s compensatory damages are combined, as we
have seen, the punitive/compensatory ratio falls
within an acceptable range.
In any event, as explained above, the court concludes under the facts of this case that it is most sensible to aggregate Saccameno’s compensatory damages
for purposes of the Gore ratio analysis. The resulting
5:1 ratio between her punitive and compensatory damages is not unconstitutionally excessive. To the extent
that concerns about the ratio spring from concerns
about whether the defendant had notice that it could
face a substantial punitive award, Gore, 517 U.S. at
574, the many investigations, reports, consent decrees
and judgments against Ocwen for related misconduct
could not have left it surprised that the jury found a
substantial punitive award appropriate.
3. Sanctions for Comparable Misconduct
The third and final Gore guidepost requires the
court “to compare the punitive damages in this case to
the ‘civil or criminal penalties that could be imposed
for comparable misconduct.’ ” AutoZone, Inc., 707 F.3d
at 840 (quoting Gore, 517 U.S. at 583). Ocwen cites an
ICFA provision allowing the Attorney General or
State’s Attorney to request that a court “impose a civil
penalty in a sum not to exceed $50,000 against any
person found by the Court to have engaged in any
method, act or practice declared unlawful under this

App. 131
Act.” 815 Ill. Comp. Stat. Ann. 505/7(b). The $3 million
punitive damage award may indeed appear excessive
when compared with this figure. As Saccameno points
out, however, section 505/7(b) further provides that
where the court finds that the defendant acted with an
intent to defraud, the $50,000 penalty applies to each
violation of the statute. Id. True, it would still require
a good many ICFA violations to reach a figure of $3
million. But there are other relevant sanctions (not
mentioned by either of the parties) that might approach the amount of the punitive damage award in
this case. For example, Illinois’ Residential Mortgage
License Act of 1987 (RMLA), 205 Ill. Comp. Stat. 635/11 et seq., requires servicers and others in the residential mortgage lending industry to comply with applicable
federal and state statutes and regulations (e.g.,
RESPA). See Ill. Admin. Code tit. 38, § 1050.870. The
statute provides for fines of up to $25,000. See 205 Ill.
Comp. Stat. 635/1-3(c), (e). More importantly, RMLA
also allows Illinois’ Department of Financial and Professional Regulation to suspend or revoke a loan servicer’s license for violating the statute. 205 Ill. Comp.
Stat. 635/4-5. The financial cost to Ocwen of losing its
license to service loans in Illinois might well approach
or even surpass $3 million. See, e.g., Mathias v. Accor
Econ. Lodging, Inc., 347 F.3d 672, 678 (7th Cir. 2003)
(punitive damage award of $372,000 was not excessive
where the defendant could not only be fined $2,500

App. 132
under state statute but could also have lost its license
to operate under municipal ordinance).29
In addition to statutory and other penalties, courts
also look to punitive damage awards in other cases for
purposes of the third Gore factor. See, e.g., Hendrickson
v. Cooper, 589 F.3d 887, 894 (7th Cir. 2009) (“As with
our review of a compensatory damages award, it is useful to compare the challenged punitive damages award
with other awards upheld in the past.”). A comparison
with punitive damage awards in other cases likewise
suggests that the award in this case is within an acceptable range. See, e.g., McGinnis v. American Home
Mortgage Servicing, Inc., 817 F.3d 1241 (11th Cir. 2016)
29

The notion that Ocwen might be sanctioned under RMLA
is not fanciful. Indeed, the court takes judicial notice of the fact
that, in 2017, the Illinois Department of Financial and Professional Regulation’s Division of Banking issued a cease and desist
order (“CDO”) against Ocwen for violations of RMLA. See Order
to Cease and Desist and Placing Licenses on Probation, In the
Matter of: Ocwen Loan Servicing, et al., 2017-MBR-CD-01 (Apr.
20, 2017), https://idfpr.com/Banks/RESFIN/Discipline/2017/2017MBR-CD-01.pdf. The determination was based on findings by the
CFPB as well as a 2015 multistate examination that Ocwen had
violated state and federal laws, including RESPA and the Truth
in Lending Act, 15 U.S.C. § 1601 et seq., by, among other things,
improperly calculating loan balances and misapplying borrower
payments. CDO ¶¶ 17-18. The CDO also notes that it had received similar complaints from Illinois consumers that Ocwen’s
servicing records contained inaccurate information and payment
discrepancies. Id. ¶ 19. The CDO was rescinded after Ocwen entered into a consent order under which it agreed, among other
things, to develop an alternative servicing platform to REALServicing. See Consent Order, In the Matter of: Ocwen Loan
Servicing, LLC, et al., No. 2017-MBR-CD-01-b, 2017 WL 4785920
(Sept. 28, 2017).

App. 133
(upholding $3 million punitive damage award based on
loan servicer’s attempts to collect a debt it erroneously
believed plaintiff owed based on its mistaken accounting); Hammer v. Residential Credit Solutions, Inc., No.
13 C 6397, 2015 WL 7776807 (N.D. Ill. Dec. 3, 2015)
(upholding award of $1.5 million in punitive damages
and $500,000 in compensatory damages based on an
ICFA claim against loan servicer that refused to honor
plaintiff ’s loan modification agreement with prior servicer). While neither of these cases is directly analogous to the present case, the Seventh Circuit has
instructed that the judicial function here “is to police a
range, not a point.” Mathias, 347 F.3d at 678.
In short, consideration of the civil penalties available for comparable misconduct, and the amount of punitive damages awarded in other cases, further
supports the conclusion that the jury’s punitive damage award in this case is not unconstitutionally excessive.
B. Conclusion
As explained above, none of the Gore factors suggests that the punitive damage award in this case runs
afoul of the constitutional guarantee of due process:
given Saccameno’s financial vulnerability, the fact that
Ocwen engaged in repeated misconduct over a period
of eighteen months, and the evidence supporting a
finding of deceptiveness on Ocwen’s part, Ocwen’s conduct is sufficiently reprehensible to justify the award;
the ratio of punitive to compensatory damages is

App. 134
comfortably within the single-digit range routinely approved by courts; and the award is commensurate with
civil sanctions and punitive damages that might potentially be imposed for comparable misconduct.
For these reasons, the court denies Ocwen’s motion to amend the amount of the jury’s punitive damage award.
V.

Conclusion

For the foregoing reasons, the court denies
Ocwen’s renewed motion for judgment as a matter of
law, ECF No. 314; Ocwen’s motion for a new trial, ECF
No. 312; and Ocwen’s motion to amend, ECF No. 313.
Date: March 1, 2019

/s/
Joan B. Gottschall
United States District Judge

App. 135
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
MONETTE E. SACCAMENO, :
:
Plaintiff,
: Case No. 1:15-cv-1164
: Hon. Joan B. Gottschall
v.
:
OCWEN LOAN SERVICING, Magistrate Judge
:
LLC, and U.S. BANK
Susan E. Cox
:
NATIONAL ASSOCIATION,
:
as trustee for C-Bass
:
Mortgage Loan Asset:
Backed Certificates,
:
Series 2007 RP1,
:
Defendants.
:
JUDGMENT
(Filed Jun. 21, 2018)
Pursuant to the jury verdict entered in favor of
Monette E. Saccameno it is ORDERED that a final
Judgment pursuant to Rule 58 is hereby entered as follows:
(1) in favor of the plaintiff, Monette E. Saccameno
and against defendants, Ocwen Loan Servicing, LLC
and U.S. Bank National Association, as trustee for CBass Mortgage Loan Asset-Backed Certificates, Series
2007 RP1 on Count I, and against defendant, Ocwen
Loan Servicing, LLC on Counts II and IV. Plaintiff is

App. 136
awarded actual damages in the amount of $500,000 on
Counts I, II and IV.
(2) in favor of the plaintiff, Monette E. Saccameno
and against defendants, Ocwen Loan Servicing, LLC
and U.S. Bank National Association, as trustee for CBass Mortgage Loan Asset-Backed Certificates, Series
2007 RP1 on Count III in the amount of $12,000 for
economic loss and $70,000 for non-economic loss and
punitive damages in the amount of $3,000,000.
(3) Count V is dismissed with prejudice pursuant
to the memorandum opinion and order entered November 8, 2017.
(4) Count VI only of the complaint is dismissed
without prejudice to become with prejudice after the
expiration of 30 days unless any party moves to reinstate said count.
(5) Post judgment interest accrues on the
amount of the judgment at the rate provided by law
from the date of this judgment.
(6)

Plaintiff shall recover costs from defendants.

Done this, 21st, day of, June, 2018.
/s/ Joan B. Gottschall
Joan B. Gottschall
United States District Judge

App. 137
IN THE UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Monette E. Saccameno,
Plaintiff(s),
v.
Ocwen Loan Servicing,
LLC, and U.S. Bank
National Association,
as trustee for C-Bass
Mortgage Loan AssetBacked Certificates,
Series 2007 RPI,

Case No. 15 cv 1164
Judge Gottschall

Defendant(s).
JUDGMENT IN A CIVIL CASE
(Filed Apr. 13, 2018)

Judgment is hereby entered in favor of the
plaintff, Monette E. Saccameno and against defendants, Ocwen Loan Servicing, LLC and U.S. Bank National Association on Count I and against defendant,
Ocwen Loan Servicing, LLC on Counts II and IV. Plaintiff is awarded actual damages on Counts I, II and IV
in the amount of $500,000; in favor of the plainitff,
Monette E. Saccameno and against defendants, Ocwen
Loan Servicing, LLC and U.S. Bank National Association on Count III in the amount of $12,000 for economic
loss and $70,000 for non-economic loss. Plaintiff is

App. 138
awarded punitive damages in the amount of $3,000,000.
Post-judgment interest accrues on the amount of the
judgment at the rate provided by law from the date of
this judgment. Plaintiff shall recover costs from defendants.

This action was:
☒ tried by a jury with Judge Joan B. Gottschall presiding, and the jury has rendered a verdict.
Date: April 13, 2018

/s/ Joan B. Gottschall
Joan B. Gottschall
United States District Judge

App. 139
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
January 21, 2020
Before
WILLIAM J. BAUER, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-1569
MONETTE E.
SACCAMENO,
Plaintiff-Appellee,
v.

Appeal from the
United States District
Court for the Northern
District of Illinois,
Eastern Division.

U.S. BANK NATIONAL
ASSOCIATION, as trustee for No. 1:15-cv-01165
C-BASS MORTGAGE LOAN Joan B. Gottschall,
ASSET-BACKED CERTIFI- Judge.
CATES, Series 2007 RP1, and
OCWEN LOAN SERVICING,
LLC,
Defendants-Appellants.
ORDER
On consideration of the petition for rehearing by
the panel and for rehearing en banc, no judge1 in regular active service has requested a vote on the petition
1

Judge Joel M. Flaum did not participate in the consideration of this matter.

App. 140
for rehearing en banc and the judges on the original
panel have voted to deny rehearing. It is, therefore,
ORDERED that the petition for rehearing by the
panel and for rehearing en banc is DENIED.

App. 141
PLAINTIFF’S EXHIBIT 42
WHEREAS, Ocwen enters into this Agreement
solely for the purpose of resolving disputes with the
State Mortgage Regulators concerning their findings
as communicated in the Reports of Examination in
their entirety and without admitting any allegations
or implications of fact, and without admitting any violations of applicable laws, regulations, or rules governing the conduct and operation of its mortgage servicing
business. Ocwen acknowledges that the State Mortgage Regulators have and maintain jurisdiction over
the underlying dispute and subsequent authority to
fully resolve the matter.
*
c.

d.

*

Lack of controls related to general borrower account management, including but not limited to:
1.

Misapplication of borrower payments;

2.

Inaccurate escrow accounting and statements;
and

3.

Assessment of unauthorized fees and charges.

Inadequate staffing and lack of internal controls
related to customer service;
*

g.

*

*

*

Deficiencies in management control and supervision necessary to ensure compliance with applicable laws and regulations.
*

*

*

App. 142
WHEREAS, Defendant, by entering into this Consent Judgment, does not admit the allegations of the
Complaint other than those facts deemed necessary to
the jurisdiction of this Court;
*
B.

*

Requirements for Accuracy and Verification of
Borrower’s Account Information.
1.

Servicer shall maintain procedures to ensure
accuracy and timely updating of borrower’s
account information, including posting of payments and imposition of fees. Servicer shall
also maintain adequate documentation of borrower account information, which may be in
either electronic or paper format.
*

5.

*

*

*

Servicer shall provide to borrowers (other than
borrowers in bankruptcy or borrowers who have
been referred to or are going through foreclosure)
adequate information on monthly billing or other
account statements to show in clear and conspicuous language:
a.

total amount due;

b.

allocation of payments, including a notation if
any payment has been posted to a “suspense
or unapplied funds account”;

c.

unpaid principal;

d.

fees and charges for the relevant time period;

e.

current escrow balance; and

App. 143
f.

reasons for any payment changes, including
an interest rate or escrow account adjustment, no later than 21 days before the new
amount is due (except in the case of loans as
to which interest accrues daily or the rate
changes more frequently than once every 30
days).
*

7.

8.

*

*

Servicer shall adopt enhanced billing dispute procedures, including for disputes regarding fees.
These procedures will include:
a.

Establishing readily available methods for
customers to lodge complaints and pose questions, such as by providing toll-free numbers
and accepting disputes by email;

b.

Assessing and ensuring adequate and competent staff to answer and respond to consumer
disputes promptly;

c.

Establishing a process for dispute escalation;

d.

Tracking the resolution of complaints; and

e.

Providing a toll-free number on monthly billing statements.

Servicer shall take appropriate action to promptly
remediate any inaccuracies in borrowers’ account
information, including:
a.

Correcting the account information;
*

*

*

App. 144
11. In active chapter 13 cases, Servicer shall ensure
that:
a.

prompt and proper application of payments
is made on account of (a) pre-petition arrearage amounts and (b) post-petition payment
amounts and posting thereof as of the successful consummation of the effective confirmed
plan;

b.

the debtor is treated as being current so long
as the debtor is making payments in accordance with the terms of the then-effective confirmed plan and any later effective payment
change notices; and

c.

as of the date of dismissal of a debtor’s bankruptcy case, entry of an order granting Servicer relief from the stay, or entry of an order
granting the debtor a discharge, there is a reconciliation of payments received with respect
to the debtor’s obligations during the case and
appropriately update the Servicer’s systems
of record. In connection with such reconciliation, Servicer shall reflect the waiver of any
fee, expense or charge pursuant to paragraph
III.B.1.c.i or III.B.1.d.
*

*

*

III. BANKRUPTCY.
A. General.
1.

The provisions, conditions and obligations imposed herein are intended to be
interpreted in accordance with applicable
federal, state and local laws, rules and

App. 145
regulations. Nothing herein shall require
a Servicer to do anything inconsistent
with applicable state or federal law, including the applicable bankruptcy law or
a court order in a bankruptcy case.
2.

Servicer shall ensure that employees who
are regularly engaged in servicing mortgage loans as to which the borrower or
mortgagor is in bankruptcy receive training specifically addressing bankruptcy issues.
*

*

*

C. Single Point of Contact.
1.

Servicer shall establish an easily accessible and reliable single point of contact
(“SPOC”) for each potentially-eligible first
lien mortgage borrower so that the borrower has access to an employee of Servicer to obtain information throughout
the loss mitigation, loan modification and
foreclosure processes.
*

*

*

App. 146
EXHIBIT 44
NEW YORK STATE
DEPARTMENT OF FINANCIAL SERVICES
In the Matter of
OCWEN FINANCIAL CORPORATION,
OCWEN LOAN SERVICING, LLC
CONSENT ORDER PURSUANT TO
NEW YORK BANKING LAW § 44
*

*

*

WHEREAS, in 2010 and 2011, the multistate
examinations of Ocwen identified numerous and significant violations of New York State laws and regulations;
WHEREAS, on September 1, 2011, in connection with Ocwen’s acquisition of Litton and amid concerns regarding Ocwen’s rapid growth and capacity to
properly acquire and service a significant portfolio of
distressed home loans, Ocwen and the Department entered into an Agreement on Mortgage Servicing Practices (the “2011 Agreement”), which required Ocwen to
adhere to certain servicing practices in the best interest of borrowers and investors;
WHEREAS, a June 2012 targeted examination of
Ocwen revealed that Ocwen violated the 2011 Agreement;
*

*

*

App. 147
Facts
1. Ocwen has grown more than ten-fold in the
last several years. Beginning in 2009, Ocwen significantly expanded its servicing operations through the
acquisition of several major servicers of home loans, as
well as the acquisition of MSRs for hundreds of billions
of dollars in UPB. From the end of 2009 to the end of
2013, Ocwen’s servicing portfolio grew from 351,595
residential loans with an aggregate UPB of $50 billion
to 2,861,918 residential loans with an aggregate UPB
of $464.7 billion.
2. In 2010 and 2011, the Department participated in a multistate examination of Ocwen.
The examination of Ocwen identified, among other
things, deficiencies in Ocwen’s servicing platform and
loss mitigation infrastructure, including
*

*

*

(e) failure to properly maintain books
and records, and
*

*

*

6. To that end, Ocwen and the Department entered into an Agreement on Mortgage Servicing Practices on September 1, 2011, which required Ocwen to:
(a) establish and maintain sufficient capacity to properly
acquire and manage its significant portfolio of distressed loans to ensure a smooth borrower transition;
(b) engage in sound document execution and retention
practices to ensure that mortgage files are accurate,
complete, and reliable; and (c) implement a system of

App. 148
robust internal controls and oversight with respect to
mortgage servicing practices performed by its staff and
third party vendors to prevent improper foreclosures
and maximize struggling borrowers’ opportunities to
keep their homes.
*

*

*

8. The targeted examination also identified instances that indicated widespread non-compliance with
the 2011 Agreement
*

*

*

Inadequate and Ineffective Information
Technology Systems and Personnel
14. Ocwen’s information technology systems
are a patchwork of legacy systems and systems inherited from acquired companies, many of which are incompatible. A frequent occurrence is that a fix to one
system creates unintended consequences in other systems. As a result, Ocwen regularly gives borrowers
incorrect or outdated information, sends borrowers
backdated letters, unreliably tracks data for investors,
and maintains inaccurate records. There are insufficient controls in place—either manual or automated—
to catch all of these errors and resolve them.
*

*

*

17. Ocwen’s core servicing functions rely on its
inadequate systems. Specifically, Ocwen uses comment
codes entered either manually or automatically to service its portfolio; each code initiates a process, such as
sending a delinquency letter to a borrower, or referring

App. 149
a loan to foreclosure counsel. With Ocwen’s rapid
growth and acquisitions of other servicers, the number
of Ocwen’s comment codes has ballooned to more than
8,400 such codes. Often, due to insufficient integration
following acquisitions of other servicers, there are duplicate codes that perform the same function. The result is an unnecessarily complex system of comment
codes, including, for example, 50 different codes for the
single function of assigning a struggling borrower a
designated customer care representative.
*

*

*

19. Ocwen’s inadequate infrastructure and ineffective personnel have resulted in Ocwen’s failure to
fulfill its legal obligations.
Ocwen did not take adequate steps to implement
reforms that it was legally obligated to implement pursuant to the 2011 Agreement.
*

*

*

App. 150
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
:
:
Plaintiff,
:
:
v.
:
OCWEN LOAN SERVICING, :
LLC, and U.S. BANK
:
NATIONAL ASSOCIATION,
:
as trustee for C-Bass Mortgage :
Loan Asset-Backed Certificates, :
Series 2007 RP1,
:
Defendants. :
MONETTE E. SACCAMENO,

Case No.
1:15-cv-1164
Hon. Joan B.
Gottschall
Magistrate Judge
Susan E. Cox
(Filed Apr. 11, 2018)

JURY INSTRUCTIONS
*

*

*

JURY INSTRUCTION NO. 1
FUNCTIONS OF THE COURT AND THE JURY
Members of the jury, you have seen and heard all
the evidence and arguments of the attorneys. Now I
will instruct you on the law.
You have two duties as a jury. Your first duty is to
decide the facts from the evidence in the case. This is
your job, and yours alone.
Your second duty is to apply the law that I give you
to the facts. You must follow these instructions, even if

App. 151
you disagree with them. Each of the instructions is important, and you must follow all of them.
Perform these duties fairly and impartially. Do not
allow sympathy to influence you. You should not be influenced by any person’s race, color, religion, national
ancestry, or sex.
Nothing I say now, and nothing I said or did during
the trial, is meant to indicate any opinion on my part
about what the facts are or about what your verdict
should be.
JURY INSTRUCTION NO. 2
ALL LITIGANTS EQUAL BEFORE THE LAW
In this case the Defendants, Ocwen and U.S. Bank
are corporations.
Plaintiff Monette E. Saccameno (“Saccameno”) is
an individual.
All parties are equal before the law. A corporation
is entitled to the same fair consideration that you
would give any individual person.
*

*

*

JURY INSTRUCTION NO. 39
ACTUAL DAMAGES AND MEASURE OF
DAMAGES – FDCPA, ICFA AND RESPA CLAIMS
If you decide for Saccameno on the question of liability, you must then fix the amount of money which

App. 152
will reasonably and fairly compensate her for any of
the following elements of damages proved by the evidence to have resulted from Ocwen and U.S. Bank’s
wrongful conduct:
The emotional distress experienced;
The reasonable expense of necessary medical
care, treatment, and services received;
The value of time or salaries lost.
Your award must be based on evidence and not
speculation or guesswork. This does not mean, however, that actual damages are restricted to the actual
loss of money; they include both the physical and mental aspects of injury, even if they are not easy to measure.
No evidence of the dollar value of emotional damages has been or needs to be introduced. There is no
exact standard for setting the damages to be awarded
on account of emotional damages. You are to determine
an amount that will fairly compensate Saccameno for
any injury she has proven.
Whether any of these elements of damages has
been proved by the evidence is for you to determine.
*

*

*

JURY INSTRUCTION NO. 41
COUNT III – PUNITIVE DAMAGES
If you find for plaintiff on the Consumer Fraud Act
claim, you may, but are not required to, assess punitive

App. 153
damages against defendants on the Consumer Fraud
Act claim. The purposes of punitive damages are to
punish a defendant for its conduct and to serve as an
example or warning to defendant and others not to engage in similar conduct in the future.
In order to recover punitive damages under the
Consumer Fraud Act claim, plaintiff must prove economic loss, as you were previously instructed.
Plaintiff must prove by a preponderance of the evidence that punitive damages should be assessed
against defendants. You may assess punitive damages
only if you find that defendants’ conduct was committed with fraud, actual malice, deliberate violence or
oppression, or defendants acted willfully, or with such
gross negligence as to indicate a wanton disregard of
the rights of others, and proximately caused injury
and/or damage to plaintiff, and if you believe that justice and the public good require it.
Punitive damages may be awarded against defendants only (1) if you find in favor of plaintiff and
against defendants under the Consumer Fraud Act
Claim, and (2) if you find that, as to the unfair or material deceptive act or practice giving rise to liability
under the Consumer Fraud Act Claim, one or more of
the following conditions are proved:
(a) The corporation, through its management, authorized the doing and the manner of the unfair or material deceptive act or practice; or
(b) The unfair or material deceptive act or practice was that of a managerial employee who

App. 154
was acting in the scope of his or her employment; or
(c) The corporation, through its management or
a managerial employee, ratified or approved the unfair
or material deceptive act or practice.
If you find that punitive damages are appropriate,
then you must use sound reason in setting the amount
of those damages. Punitive damages, if any, should be
in an amount sufficient to fulfill the purposes that I
have described to you, but should not reflect bias, prejudice, or sympathy toward any party.
In arriving at your decision as to whether to
award punitive damages and the amount of punitive
damages, you should consider the following three questions. The first question is the most important to determine the amount of punitive damages:
(1) How reprehensible was defendants’ conduct?
On this subject, you should consider the following:
(a) The facts and circumstances of defendants’
conduct;
(b) The financial vulnerability of plaintiff;
(c) The duration of the misconduct;
(d) The frequency of defendants’ misconduct;
(e) Whether the harm was physical as opposed to economic; and
(f ) Whether defendants tried to conceal the
misconduct.

App. 155
(2) What actual and potential harm did defendants’ conduct cause to Saccameno in this
case?
(3) What amount of money is necessary to punish
defendants and discourage them and/or others from future wrongful conduct?
The amount of punitive damages must be reasonable and in proportion to the actual and potential harm
suffered by plaintiff.
*

*

*

JURY INSTRUCTION NO. 45
DISAGREEMENT AMONG JURORS
The verdicts must represent the considered judgment of each juror. Your verdict, whether for or against
the parties, must be unanimous.
You should make every reasonable effort to reach
a verdict. In doing so, you should consult with one another, express your own views, and listen to the opinions of your fellow jurors. Discuss your differences with
an open mind. Do not hesitate to reexamine your own
views and change your opinion if you come to believe
it is wrong. But you should not surrender your honest
beliefs about the weight or effect of evidence solely because of the opinions of other jurors or for the purpose
of returning a unanimous verdict.
All of you should give fair and equal consideration
to all the evidence and deliberate with the goal of
reaching an agreement that is consistent with the

App. 156
individual judgment of each juror. You are impartial
judges of the facts.
*

*

*

